<html>
<title> - CRISIS OF CONFIDENCE: PREVENTING TERRORIST INFILTRATION THROUGH U.S. REFUGEE AND VISA PROGRAMS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


               CRISIS OF CONFIDENCE: PREVENTING TERRORIST INFILTRATION 
                  THROUGH U.S. REFUGEE AND VISA PROGRAMS

=======================================================================

                                 HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 3, 2016

                               __________

                           Serial No. 114-50

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                        U.S. GOVERNMENT PUBLISHING OFFICE
21-322 PDF                       WASHINGTON : 2016                        
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).




                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................     8

                               Witnesses

Mr. Francis X. Taylor, Under Secretary for Intelligence and 
  Analysis, U.S. Department of Homeland Security:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13
Mr. Leon Rodriguez, Director, U.S. Citizenship and Immigration 
  Services, U.S. Department of Homeland Security:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Lev J. Kubiak, Assistant Director, U.S. Immigration and 
  Customs Enforcement, U.S. Department of Homeland Security:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Ms. Michele Thoren Bond, Assistant Secretary, Bureau of Consular 
  Affairs, U.S. Department of State:
  Oral Statement.................................................    23
  Prepared Statement.............................................    24

                             For the Record

The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina:
  Testimony before the SC Senate General Committee by Congressman 
    Jeff Duncan (SC-03)..........................................    40
The Honorable Norma J. Torres, a Representative in Congress From 
  the State of California:
  Statement of the American-Arab Anti-Discrimination Committee...    43
  Statement of Church World Service..............................    45
  Statement of Disciples Refugee & Immigration Ministries........    46
  Statement of Franciscan Action Network.........................    47
  Statement of Yasmine Taeb, Legislative Representative for Human 
    Rights & Civil Liberties, Friends Committee on National 
    Legislation..................................................    48
  Statement of HIAS..............................................    48
  Statement of Lutheran Immigration and Refugee Service..........    49
  Statement of Most Reverend Eusebio Elizondo, M.Sp.S., Auxiliary 
    Bishop of the Archdiocese of Seattle, WA, Chairman, U.S. 
    Conference of Catholic Bishops Committee on Migration........    50
  Statement of Lavinia Limon, President and CEO, U.S. Committee 
    for Refugees and Immigrants (USCRI)..........................    60
  Statement of Andrea Cristina Mercado and Miriam Yeung, Co-
    chairs, We Belong Together...................................    62

                                Appendix

Questions From Honorable Barry Loudermilk for the Department of 
  Homeland Security..............................................    83

 
                   CRISIS OF CONFIDENCE: PREVENTING 
                  TERRORIST INFILTRATION THROUGH U.S. 
                       REFUGEE AND VISA PROGRAMS

                              ----------                              


                      Wednesday, February 3, 2016

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:12 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Smith, King, Rogers, 
Duncan, Marino, Barletta, Perry, Clawson, Katko, Hurd, Carter, 
McSally, Ratcliffe, Donovan, Thompson, Jackson Lee, Langevin, 
Keating, Rice, and Torres.
    Chairman McCaul. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to receive testimony 
regarding the threat posed from the exploitation of our 
Nation's refugee and visa programs by violent Islamist 
extremist groups such as ISIS.
    I now recognize myself for an opening statement.
    Today, we are in the highest threat environment since 9/11, 
yet there is a crisis of confidence in Washington's ability to 
do what it takes to protect our country. Over the past few 
weeks, I have traveled around the country to discuss the terror 
threats we face and how to thwart them. The American people are 
concerned, and rightfully so.
    The President believes terrorist groups like ISIS are on 
the run, but the truth is that they are on the march and 
gaining ground across the world. Make no mistake: They want to 
send their foot soldiers to our shores. That is why we are here 
today. We must be clear-eyed about our enemy's goals and do 
what it takes to prevent them from exporting their violence to 
America.
    This morning, our focus is on our Nation's refugee and visa 
programs. Terrorists have used these routes to get into our 
country, exposing security vulnerabilities into our systems. 
Just last month, the FBI arrested 2 Iraqis in the United States 
on terror-related charges. Both were inspired by ISIS, 1 had 
traveled to Syria, and both had entered our country as 
refugees. In December, 2 ISIS fanatics in San Bernardino 
launched a heinous attack that left 14 dead and 22 wounded. One 
of these terrorists came into the United States, already 
radicalized, on a fiancee visa.
    Jihadists see these programs as a back door into America 
and will continue to exploit them until we take action. ISIS 
has vowed to send its operatives into the West posing as 
refugees, and it has done so to brutally murder civilians on 
the streets of Paris.
    Our intelligence community has also told me that 
individuals with terrorism ties in Syria have already tried to 
gain access to our country through the refugee program. What is 
even more concerning is that top officials have testified 
before this committee that intelligence gaps prevent us from 
being able to confidently weed out terrorists from these 
groups.
    That is why I drafted the SAFE Act, which passed the House 
with bipartisan, veto-proof majority last year. It would add 
additional layers of security to the process of admitting 
refugees from the conflict zone. Sadly, the White House has 
chosen to let partisan politics get in the way of National 
security and pushed for this bill to be blocked in the Senate. 
Without these enhanced protections in place, more violent 
extremists will be able to slip through the cracks undetected.
    Our visa programs are an even bigger concern. On the chart 
behind me, you can see that terrorists have used student visas, 
tourist visas, and more to infiltrate our country and plot 
significant acts of terror. But time and again, we have failed 
to close the vulnerabilities in the system quickly enough.
    Indeed, every one of the 9/11 hijackers came into America 
on a visa, and we failed to connect the dots to stop them. 
Several overstayed their visas, and nothing was done. We saw 
this again in 2012 when the FBI arrested a Moroccan national 
plotting a suicide bombing right here on Capitol Hill. The 
suspect entered our country on a tourist visa in 1999, and he 
never left.
    In a report to Congress issued last month, DHS admitted 
that there are hundreds of thousands, if not millions, of 
aliens in this country. These individuals came in legally but 
did not leave when they were supposed to. That is why we must 
fulfill one of the last remaining recommendations of the 9/11 
Commission by moving forward with a biometric entry-exit system 
to track those who overstay their welcome.
    We are currently working on legislation to close other 
glaring gaps in the system and to bring visa security screening 
into the 21st Century by incorporating social media data into 
screening.
    More broadly speaking, this committee has led the effort in 
Congress to shut down terrorist pathways into our country. Our 
bipartisan Task Force on Combating Terrorist and Foreign 
Fighter Travel, led by the gentleman from New York, Mr. Katko, 
made more than 50 actionable recommendations to improve our 
defenses. I am proud to say that as of yesterday we have taken 
legislative action to implement nearly half of them. This 
includes a major security overhaul of the Visa Waiver program 
through an effort spearheaded by this committee's Vice Chair, 
Ms. Miller.
    However, we are deeply concerned that, despite signing this 
law, the President does not plan to implement it faithfully. 
This failure of implementation is not the topic of today's 
hearing. The committee will convene 1 week from today to 
question witnesses from DHS and the State Department on their 
inaction.
    Let us not forget that we are engaged in a war against 
Islamist terror. Americans expect us to act like it and to do 
what it takes to respond to the evolving threat and secure our 
homeland.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
    We are in the highest threat environment since 9/11. Yet there is a 
crisis of confidence in Washington's ability to do what it takes to 
protect our country.
    The past few weeks, I have traveled around the country to discuss 
the terror threats we face and how to thwart them. The American people 
are concerned, and rightfully so.
    The President believes terrorist groups like ISIS are on the run. 
But the truth is that they are on the march--and gaining ground across 
the world. Make no mistake: They want to send their foot soldiers to 
our shores.
    That is why we are here today. We must be clear-eyed about our 
enemies' goals and do what it takes to prevent them from exporting 
their violence to America.
    This morning our focus is on our Nation's refugee and visa 
programs. Terrorists have used these routes to get into our country, 
exposing security vulnerabilities in our systems.
    Just last month, the FBI arrested 2 Iraqis in the United States on 
terror-related charges. Both were inspired by ISIS, 1 had traveled to 
Syria, and both had entered our country as refugees.
    In December, 2 ISIS fanatics in San Bernardino launched a heinous 
attack that left 14 dead and 22 wounded. One of these terrorists came 
into the United States--already radicalized--on a fiance visa.
    Jihadists see these programs as a back door into America and will 
continue to exploit them until we take action. ISIS has vowed to send 
its operatives into the West posing as refugees--and it has done so to 
brutally murder civilians on the streets of Paris.
    Our intelligence community has also told me that individuals with 
terrorism ties in Syria have already tried to gain access to our 
country through the refugee program. What's even more concerning is 
that top officials have testified before this committee that 
intelligence gaps prevent us from being able to confidently weed out 
terrorists from these groups.
    This is why I drafted the SAFE Act, which passed the House with a 
bipartisan, veto-proof majority last year. It would add additional 
layers of security to the process of admitting refugees from the 
conflict zone. Sadly, the White House has chosen to let partisan 
politics get in the way of National security and pushed for this bill 
to be blocked in the Senate.
    Without these enhanced protections in place, more violent 
extremists will be able to slip through the cracks, undetected.
    Our visa programs are an even bigger concern.
    On the chart behind me, you can see that terrorists have used 
student visas, tourist visas, and more to infiltrate our country and 
plot significant acts of terror. But time and again, we have failed to 
close the vulnerabilities in the system quickly enough. 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Every one of the 9/11 hijackers came into America on a visa, and we 
failed to connect the dots to stop them. Several even overstayed their 
visas and nothing was done.
    We saw this again in 2012, when the FBI arrested a Moroccan 
national plotting a suicide bombing right here on Capitol Hill. The 
suspect entered our country on a tourist visa in 1999 . . . and he 
never left.
    In a report to Congress issued last month, DHS admitted that there 
are hundreds of thousands--if not millions--of aliens in this country. 
These individuals came in legally but did not leave when they were 
supposed to.
    This is why we must fulfill one of the last remaining 
recommendations of the 
9/11 Commission by moving forward with a biometric entry-exit system to 
track those who overstay their welcome.
    We are currently working on legislation to close other glaring gaps 
in the system--and to bring visa security screening into the 21st 
Century by incorporating social media data into screening.
    More broadly speaking, this committee has led the effort in 
Congress to shut down terrorist pathways into our country. Our 
bipartisan Task Force on Combating Terrorist and Foreign Fighter 
Travel, led by the Gentleman from New York, Mr. Katko, made more than 
50 actionable recommendations to improve our defenses.
    I am proud to say that as of yesterday, we have taken legislative 
action to implement nearly half of them.
    This includes a major security overhaul of the Visa Waiver program 
through an effort spearheaded by this Committee's Vice Chair, Ms. 
Miller. However, we are deeply concerned that despite signing this law, 
the President does not plan to implement it faithfully. This failure of 
implementation is not the topic of today's hearing; the committee will 
convene 1 week from today to question witnesses from DHS and the State 
Department on their inaction.
    Let us not forget: We are engaged in a war against Islamist terror. 
Americans expect us to act like it--and to do what it takes to respond 
to the evolving threat and secure our homeland.

    Chairman McCaul. With that, now the Chair recognizes the 
Ranking Member, the gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman. Thank you 
for holding today's hearing.
    I would also like to thank that the Department of Homeland 
Security and Department of State for being witnesses here 
today.
    Given the evolving threat environment, it is proper that 
this committee examine both the visa security and the refugee 
vetting process.
    Last month, in separate incidents, 2 Iraqi refugees accused 
of having ties to the Islamic State were arrested in Sacramento 
and Houston.
    In December of last year, the United States was stunned 
when a mass shooting and attempted bombing were perpetrated by 
2 attackers in San Bernardino, California. The perpetrators 
were husband and wife, and the wife entered the United States 
on a K, or a fiance, visa.
    Also in November, it was reported that a fake Syrian 
passport was found with one of the terrorists who carried out 
the deadly Paris attacks directed by ISIL.
    Consequently, I understand the concern that is presented 
here today. However, as I have stated in previous hearings, it 
is important that we as Federal policymakers embrace facts, not 
fear. Our refugee screening process includes the most thorough 
vetting any visitor or immigrant to the United States 
undergoes, with DHS conducting an enhanced review of Syrian 
refugee cases.
    Throughout the refugee application process, applications 
continue to be checked against terrorist databases to ensure no 
new information has come to light. If there is any doubt about 
whether an applicant poses a risk, that person will not be 
admitted.
    With proper vetting, we should continue to welcome 
vulnerable populations to this country, including Syrian 
refugees, in keeping with our history and values as Americans. 
Providing safe harbor to individuals who no longer have a home 
because of war and violence is the humane and American thing to 
do.
    Today, I hope to hear from the Department of Homeland 
Security about information that the agency can publicly share 
about its improvements to the refugee vetting process. 
Advancements in technology and the evolving threat involvement 
require continual evaluation of how the agencies use technology 
in the vetting and screening processes.
    It has been reported that United States Citizenship and 
Immigration Services is piloting the use of social media in 
vetting refugee applications. While we understand social media 
can play a role in refugee vetting, we should remember it is 
only one part of an extensive process. Frankly, the more 
explicit we are about our refugee vetting process in public, 
particularly with respect to social media, the more valuable 
information we stand to lose. Users have the ability to control 
their social media, so we do not want to tip them off.
    Additionally, while the overwhelming majority of visa 
holders are legitimate visitors who comply with the terms of 
their visas and depart in a timely fashion, some have exploited 
the system.
    In the wake of September 11, the attempted Christmas day 
2009 attack, and other incidents, we have strengthened our visa 
security by pushing out our borders, conducting screening early 
in the process, and enhancing how we vet visa applicants. I 
want to hear from DHS and the State Department about what needs 
to be done and what resources are necessary to address security 
vetting challenges.
    I am particularly interested in knowing whether there is a 
way to improve the vetting process to identify people that seek 
to do us harm but on whom we have no derogatory information, 
which I understand was the case with one of the San Bernardino 
perpetrators.
    As we consider reviews of the refugee and visa security 
processes, we need to make sure that, if there are improvements 
that need to be made, Congress will commit the funding for 
them. We cannot make substantial changes to these programs if 
they are not properly funded.
    Finally, Mr. Chair, in December, the House came together 
and passed legislation to strengthen the Visa Waiver program. I 
understand, as you have already indicated, that next week the 
committee will hold a hearing on the Visa Waiver program and 
specifically how the administration intends to implement 
language, including in the recent enacted omnibus 
appropriations patient bill, to prohibit individuals with 
citizenship in or recent travel to Iraq, Iran, Sudan, or Syria 
from coming to the United States under the Visa Waiver program. 
Instead, such travelers will have to obtain a visa.
    I strongly support giving the Secretary discretion to waive 
the visa requirement when doing so is in the interest of our 
National security as provided for under the law and, in fact, 
supported some discretion for certain individuals on a case-by-
case basis who have traveled to 1 of the 4 countries for 
verifiable, legitimate purposes.
    However, I am concerned about recent statements indicating 
that the Departments of State and Homeland Security may attempt 
to exempt broad categories of travelers from the requirements 
of the law, and I look forward to hearing some comment at some 
point on that.
    Mr. Chairman, with that, I yield back the balance of my 
time.

    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
             
                            February 3, 2016
    Given the evolving threat environment, it is proper for this 
committee to examine both the visa security and the refugee vetting 
processes. Last month, in separate incidents, 2 Iraqi refugees accused 
of having ties to the Islamic State were arrested in Sacramento and 
Houston. In December of last year, the United States was stunned when a 
mass shooting and attempted bombing were perpetrated by 2 attackers in 
San Bernardino, California. The perpetrators were husband and wife, and 
the wife entered the United States on a K or fiance visa.
    Also, in November, it was reported that a fake Syrian passport was 
found with one of the terrorists who carried out the deadly Paris 
attacks directed by ISIL. Consequently, I understand the concern that 
is presented here today. However, as I have stated in previous 
hearings, it is important that we as Federal policymakers embrace 
facts, not fear.
    Our refugee screening process includes the most thorough vetting 
any visitor or immigrant to the United States undergoes, with DHS 
conducting an enhanced review of Syrian refugee cases. Throughout the 
refugee application process, applications continue to be checked 
against terrorist databases to ensure no new information has come to 
light. If there is any doubt about whether an applicant poses a risk, 
that person will not be admitted. With proper vetting, we should 
continue to welcome vulnerable populations to this country, including 
Syrian refugees, in keeping with our history and values as Americans. 
Providing safe harbor to individuals who no longer have a home because 
of war and violence is the humane--and American--thing to do.
    Today, I hope to hear from the Department of Homeland Security 
about information that the agency can publicly share about its 
improvements to the refugee vetting process. Advancements in technology 
and the evolving threat environment require continual evaluation of how 
the agencies use technology in the vetting and screening processes.
    It has been reported that United States Citizenship and Immigration 
Services is piloting the use of social media in vetting refugee 
applications. While we understand social media can play a role in 
refugee vetting, we should remember it is only one part of an extensive 
process. Frankly, the more explicit we are about our refugee vetting 
process in public, particularly with respect to social media, the more 
valuable information we stand to lose. Users have the ability to 
control their social media, so we do not want to tip them off.
    Additionally, while the overwhelming majority of visa holders are 
legitimate visitors who comply with the terms of their visas and depart 
in a timely fashion, some have exploited the system. In the wake of 
September 11, the attempted Christmas day 2009 attack, and other 
incidents, we have strengthened our visa security by pushing out our 
borders, conducting screening early in the process, and enhancing how 
we vet visa applicants.
    I want to hear more from DHS and the State Department about what 
needs to be done and what resources are necessary to address security 
vetting challenges. I am particularly interested in knowing whether 
there is a way to improve the vetting process to identify people that 
seek to do us harm, but on whom we have no derogatory information, 
which I understand was the case with one of the San Bernardino 
perpetrators.
    As we consider reviews of the refugee and visa security processes, 
we need to make sure that if there are improvements that need to be 
made, Congress commits to funding them. We cannot make substantial 
changes to these programs if they are not properly funded.
    Finally, in December, the House came together and passed 
legislation to strengthen the Visa Waiver program. I understand that 
next week the committee will hold a hearing on the VWP, and 
specifically how the administration intends to implement language 
included in the recently enacted omnibus appropriations bill to 
prohibit individuals with citizenship in or recent travel to Iraq, 
Iran, Sudan, or Syria from coming to the United States under the VWP. 
Instead, such travelers would have to obtain a visa.
    I strongly support giving the Secretary discretion to waive the 
visa requirement when doing so is in the interest of our National 
security, as provided for under the law, and in fact supported some 
discretion for certain individuals, on a case-by-case basis, who had 
traveled to 1 of the 4 countries for verifiable, legitimate purposes.
    However, I am concerned about recent statements indicating the 
Departments of State and Homeland Security may attempt to exempt broad 
categories of travelers from the requirements of the new law. I look 
forward to hearing more from these agencies next week about their plans 
for implementing the law and their efforts to further enhance the 
security of the VWP generally.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Chairman McCaul. I thank the Ranking Member.
    Other Members are reminded that opening statements may be 
submitted for the record.
    [The statement of Hon. Jackson Lee follows:]
                Prepared Statement of Sheila Jackson Lee
                
                            February 3, 2016
    I thank Chairman McCaul, Ranking Member Thompson, thank you for 
holding this morning's hearing entitled a ``Crisis of Confidence: 
Preventing Terrorist Infiltration through U.S. Refugee and Visa 
Programs.''
    Today's hearing in part concerns terrorist infiltration of U.S. 
refugee and visa programs in response to a number of incidents both in 
the United States and abroad over the last several months.
    The committee through the witnesses we'll be hearing from can 
assess the on-going Syrian refugee crisis; the November 2015 Paris 
attacks and their possible relationship to a refugee; the arrest on 
terrorism-related charges last month of two Iraqi refugees accused of 
having ties to the Islamic State; and the December 2, 2015, mass 
shooting and attempted bombing in San Bernardino, California.
    I welcome and thank today's witnesses: The Honorable Francis X. 
Taylor, the under secretary for intelligence and analysis, Department 
of Homeland Security; The Honorable Leon Rodriguez, director of the 
U.S. Citizenship and Immigrations Services at the Department of 
Homeland Security; Mr. Lev J. Kubiak, the assistant director of the 
U.S. Immigration and Customs Enforcement of the Department of Homeland 
Security; and the Honorable Michele Thoren Bond, the assistant 
secretary, Bureau of Consular Affairs, Department of State (Democratic 
witness).
    The United States is a Nation of immigrants--something that I am 
particularly proud to say has been a tremendous benefit to the 
economic, social, and cultural diversity has been of tremendous benefit 
to the city of Houston, the State of Texas, and our Nation.
    Our Nation's heritage and leadership in protecting the rights of 
immigrants and refugees has established norms that are now 
international law.
    The legacy of immigration in the United States does not mean that 
all who come to our shores will not engage in activity that is 
unlawful--for this reason we have processes in place to screen persons 
seeking to enter the Nation.
    Today's hearing is on the topic of the Visa Waiver program (VWP), 
which is intended to explore the National security and law enforcement 
interest in assuring that this program functions as intended.
    In response to Congressional concerns regarding the VWP, H.R. 158, 
on December 8, 2015, the Visa Waiver Program Improvement and Terrorist 
Travel Prevention Act was passed by the House.
    H.R. 158, most notably prohibiting people from traveling to the 
United States under the VWP who were, since March 1, 2011, present in 
Iraq or Syria, any country designated as a state sponsor of terrorism, 
or any country deemed appropriate by the Secretary of Homeland 
Security. Currently, 4 countries meet that definition: Iraq, Iran, 
Sudan, and Syria.
    The bill also makes anyone who is a dual national of a VWP country 
and one of the specified countries ineligible to travel to the United 
States under the VWP. Such individuals would not be prohibited from 
traveling to this country, but would have to obtain a visa to do so. 
The Senate did not act on H.R. 158.
    On December 18, 2015, the House passed the Consolidated 
Appropriations Act, 2016, which included VWP language based on H.R. 
158, the final text of which resulted from bipartisan negotiations 
between the White House, House and Senate Leadership, and committees of 
jurisdiction.
    Like H.R. 158, Section 203 of the Act prohibits travel to the 
United States under the VWP for those who have traveled to Iraq, Iran, 
Sudan, or Syria since March 1, 2011, or who are citizens of those 
countries.
    Section 203 of the Act exempts from this prohibition anyone who 
traveled to one of the specified countries in order to perform military 
service in the armed forces of a VWP country or to carry out official 
duties as a full-time employee of the government of a VWP country.
    It was generally understood that CBP would have to make changes to 
its ESTA questionnaire to ascertain whether an ESTA applicant is 
prohibited by the Act from traveling under the VWP or whether such an 
individual is exempt because the prior travel to a specified country 
was for military or government service.
    The bill has been passed and signed into law and I do not believe 
nor has any evidence been presented that the administration is in 
violation of the law.
    It is important to commit ourselves to the facts and let them lead 
us in the development of policy or better clarity on what the 
administration is in fact doing.
    I do want to ensure that all of our Nation's immigration programs 
work as intended and that should they not identify threats because no 
indication that one exist that law enforcement and Homeland Security 
have the tools necessary to intervene to stop incidents before they 
happen.
    In the city of Houston it was reported last month by the FBI that 
Omar Faraj Saeed Al Hardan a Palestinian national; born in Iraq in 
1991; who had entered the United States as a refugee in November 2009 
was charged with 3 terrorism counts.
    He was granted Legal Permanent Residence status in the United 
States in 2011.
    He submitted an application for citizenship in August 2014. Mr. Al 
Hardan was indicted on 3 charges:
  <bullet> Unlawfully and knowingly attempting to provide material 
        support and resources as defined in Title 18, U.S.C. Section 
        2339A(b)(1), including personnel, specifically himself, 
        training, and expert advice and assistance to ISIL;
  <bullet> Procurement of citizenship or naturalization unlawfully 
        because he lied on Form N-400, which is the application for 
        U.S. Citizenship that he completed on August 18, 2014.
    <bullet> He lied about his prior association with a terrorist 
            organization ISIL which the indictment said existed with 
            ISIL throughout 2014, and al-Nusrah Front during 2013 
            throughout 2014 in violation of Title 18, U.S.C., Section 
            1425(a).
  <bullet> Finally, he was charged on making a false statement or 
        representation to an agency of the United States in violation 
        of 18 U.S.C. Section 1001(a)(1) on or about October 27, 2015.
    This was not the only arrest made in connection with a person who 
had entered the country as a refugee.
    In San Bernardino a fiance visa was used by Syed Rizwan Farook to 
bring Tashfeen Malik into the United States as his wife.
    Farook was an American-born U.S. citizen of Pakistani descent, who 
worked as a health department employee.
    Malik was a Pakistani-born lawful permanent resident of the United 
States.
    On December 2, 2015, the couple killed 14 people and wounded 22 in 
a terrorist attack in San Bernardino, California.
    These are disturbing accounts of the challenges faced by those 
charged with defending and securing our Nation against of Homeland 
Security threats.
    Some threats are known by the public because of incidents that have 
occurred at home and abroad, while other threats will remain for as 
long as possible outside of our Nation through the tireless efforts of 
the men and women of the agencies represented by our witnesses.
    The United States as the greatest democracy in the free world must 
and always lead.
    As a Nation of immigrants, providing for the least among us is an 
American value which makes us a leader in the world as well as promotes 
our credibility in the world in other matters related to foreign policy 
and our dealings with our international allies.
    Indeed, as a world leader, our country carries the burden of 
leading the international community in addressing the dire humanitarian 
crisis we face across our world from Syria to Nigeria and the world 
over, just as we did during World War II by playing an instrumental 
role in the formation of the United Nations, on which we now sit as 1 
of the 5 permanent members of Security Council.
    We must refrain from knee-jerk anti-refugee rhetoric and policies 
even as we grapple with the recent attacks in Beirut, Paris, Baghdad, 
and Sana'a.
    It is important to note that the VWP works in both directions--our 
Nation's Government officials, business community, tourists, academic 
researchers, and students can travel around the world with little more 
than a commercial ticket and a U.S. Passport.
    Should our allies decide to establish their own VWP prohibitions 
based on a perceived threat from a small subset of our Nation's 
populations this could have serious repercussions for our economic 
interest.
    If anything, the recent attacks and headlines should compel us not 
to stoop to the level of the evil perpetrators of violence but rather 
to prepare ourselves to redouble our efforts to address the refugee 
crisis the world faces by making good on our promises to provide refuge 
to Syrians seeking peace and security from the war-torn society they 
have fled.
    Putting up walls and fences and closing borders to prevent members 
of the human race from sanctuary do not provide any short- or long-term 
solutions to the challenges we face as it relates to solving the threat 
of ISIS or the challenge of the refugee crisis in Syria.
    The circumstance for refugees that may enter the United States is 
not the conditions people entered Europe from the conflict area.
    They came by foot and could cross narrow bodies of water to be on 
European soil.
    The United States' entire refugee process has been completely 
revised based on lessons learned from September 11, 2001 and the unique 
threats posed by terrorism.
    The process can take up to 2 years.
    The United States can hand-pick who it will allow to enter.
    The policy of the administration is that only the most vulnerable 
are under consideration--women with minor-age children; persons with 
dire medical conditions and those who have been victims of violence.
    Yes, there are challenges--we do not have access to records on 
persons who are coming from Syria.
    This is why the policy regarding refugees entering the country 
takes almost 2 years and is so selective.
    We should also be aware of burden sharing.
    As the world's sole superpower we must do what other nations are 
doing--accept Syrian refugees.
    The United States has agreed to accept 10,000 Syrians through 2016, 
which to some may seem to be a great number of refugees to accept.
    However, when compared to other nations, our contributions toward 
relieving the suffering caused by ISIS/ISIL the number is small, for 
example:
  <bullet> To date the United States has accepted 1,500 Syrian refugees 
        since the start of the conflict in 2011 and will receive 
        another 10,000 by 2016.
  <bullet> Turkey has accepted over 1.9 million Syrians accounting for 
        almost half of the Syrian refugees.
  <bullet> Lebanon has received 1.1 million refugees which marks a 25% 
        increase in the country's 4.4 million population.
  <bullet> Jordan has provided shelter to 629,000 refugees from Syria, 
        Iraq, Somalia, and Sudan, but Syrians constitute the majority 
        of Jordan's refugee population.
  <bullet> Iraq has received 249,000 Syrians even though like Syria, 
        Iraq has been torn by attacks perpetrated by ISIS.
  <bullet> Egypt has provided refuge to 132,000 Syrians, with no 
        refugees living in camps in Egypt and Egyptian billionaire 
        Naguib Sawiris, one of the region's wealthiest men, offering to 
        buy an island for refugees and his name for the proposed island 
        home: Hope.
  <bullet> Germany has accepted 98,700 Syrian refugees as the European 
        country that faces the largest share of Syrian requests for 
        asylum in Europe.
  <bullet> Sweden has provided refuge for 64,700 Syrians.
  <bullet> France has accepted 6,700 refugees and as of September 2015, 
        has committed to hosting 24,000 refugees over the next 2 years.
  <bullet> The United Kingdom has accepted 7,000 Syrian refugees and 
        has committed to take up another 20,000 Syrian refugees over 
        the next 5 years.
  <bullet> Denmark and Hungary have received 29,000 Syrians combined.
  <bullet> Serbia has received 49,500 asylum requests from Syrian 
        refugees.
  <bullet> Italy, where many migrants have made the perilous 
        Mediterranean crossing from North Africa also receives 
        refugees.
  <bullet> Greece, which lies on a popular transit route from Turkey 
        north through the Balkans to Northern Europe, has seen more 
        than 250,000 people arrive on its shores this year.
    Today's witnesses tell many of us what we need to know about visa 
and refugee processes for entering the United States.
    It is ironic and sad that the single greatest casualty group of 
terrorist organizations like Boko Haram and ISIS/ISIL are Muslims--
especially women, children, disabled, and the elderly.
    Violent extremism is not new--those who struggle to hold onto an 
idyllic past or rigid view of their faith that does not tolerate non-
conformism has plagued societies throughout history.
    The only tools that have succeed in overcoming violent extremism is 
the commitment of those most affected by their violence to stand 
against them.
    We must remember that after the battles are fought and won that the 
underlying causes for so many willing souls to commit themselves to 
kill and die for ISIS/ISIL and Boko Haram must be addressed.
    Where there is poverty, corruption, a sense of not having value or 
social worth, violence and systemic disparity in living conditions and 
insurmountable forces to resist upward mobility by poor communities 
lays fertile ground for recruiting, training, and turning young minds 
toward violence.
    Some would argue that these problems are not ours to solve.
    The counter argument is that the cost of not solving these 
underlying problems makes the ability to win a lasting end to violent 
extremism nearly impossible.
    We cannot kill ideas with bombs--we must change hearts and minds.
    I am a firm supporter of getting to the source of problems that 
come from the complexity of our interconnected world.
    We have new challenges to secure our Nation from threats.
    There will likely be new challenges ahead, but we must persevere to 
succeed in developing the tools, skills, knowledge, and personnel to 
succeed.
    Part of the struggle for peace we have today is a direct 
consequence of invading Iraq without provocation or reason.
    Paraphrasing Secretary of State Colin Powell's advice to President 
George W. Bush: ``If we break it--we will own it.''
    He was warning President Bush about the folly of entering into a 
war of choice with Iraq and the complexities of that region of the 
world that could spiral out of control.
    Added to the challenge of violent extremists is their technological 
savvy in the use of the tools of social media to reach far beyond the 
battlefield to influence young people to join their cause.
    I believe firmly that the United States can win this fight, but we 
must be wise and learn from our past as well as inform ourselves on the 
world that is generating these hyper-violent extremist groups.
    I thank today's witnesses and look forward to their testimony. 
Thank you.

    Chairman McCaul. We are pleased to have a distinguished 
panel here before us today.
    First, Mr. Francis Taylor assumed his post as under 
secretary for intelligence and analysis at the Department of 
Homeland Security in April 2014. In this role, he provides 
Secretary Johnson, DHS senior leadership, DHS components, and 
State, local, Tribal, private-sector partners with the homeland 
security intelligence and information they need to keep the 
country safe, secure, and resilient.
    Thank you for being here, and thank you for your service.
    Previously, he served as assistant secretary of state for 
diplomatic security and director of the Office of Foreign 
Missions.
    Mr. Leon Rodriguez was confirmed by the United States 
Senate in June 2014 as the director of the United States 
Citizenship and Immigration Services. He previously served as 
the director for the Office of Civil Rights at the Department 
of Health and Human Services, a position he held from 2011 to 
2014. Prior to that time, he served as chief of staff and 
deputy assistant attorney general for civil rights at the 
Department of Justice.
    Mr. Kubiak assumed the role, our next witness, of assistant 
director for international operations at the U.S. Immigration 
and Customs Enforcement on June 30, 2014. In this position, he 
is responsible for a budget of more than $130 million and 
operational oversight of 63 offices in 46 countries and 8 
Department of Defense liaison offices with over 400 personnel.
    Finally, Ms. Michele Bond was sworn in as assistant 
secretary of state for consular affairs on August 10, 2015. She 
leads a team of 13,000 consular professionals in almost 300 
locations across the United States and around the world who 
protect the lives and interests of U.S. citizens abroad.
    I want to thank all of you for being here today.
    I now recognize Mr. Taylor for his testimony.

 STATEMENT OF THE HON. FRANCIS X. TAYLOR, UNDER SECRETARY FOR 
INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Taylor. Chairman McCaul, Ranking Member Thompson, thank 
you and distinguished Members of the committee for allowing us 
to appear before you this morning to discuss DHS's refugee, 
visa, and other admissions screening and vetting efforts. I 
have prepared a statement for the record, sir, but I would just 
highlight in my oral comments a few other items.
    DHS, together with our law enforcement and intelligence 
colleagues, leverage a range of information and processes to 
carry out screening and vetting supporting our operational 
missions, including preventing terrorism. Screening and vetting 
are key to refugee, visa, and other admissions processes.
    Every day, DHS, with our interagency partners, vet millions 
of individuals traveling to, from, or within the United 
States--those applying for citizenship and immigration benefits 
and those applying for credentials and special accesses. Our 
screening and vetting efforts include biometric and biographic 
information collection, in-person interviews, detailed research 
and analysis, database vetting and bulk data screening, 
publicly-available information vetting, including social media, 
and identity verification.
    Because of the technological advances and the evolving 
nature of the threat environment that we face, we have efforts 
continuously underway to enhance our screening and vetting 
processes. Additionally, in December, Secretary Johnson asked 
me to lead a review of the Department's current use of social 
media in our vetting and identity processes to develop a future 
state that optimizes the use of social media vetting across our 
Department.
    Our review found that, while social media efforts are 
underway across the Department, social media use as a vetting 
tool by components is varied and could benefit from a unified 
approach that leverages the strength of the entire Department 
and state-of-the-art technological capabilities.
    The next step for us is to address these issues, which we 
are aggressively working to do. While I cannot get into the 
specifics of many aspects of our screening and vetting efforts 
in an open hearing, these are the broad steps DHS is taking to 
further improve our screening and vetting of refugees and visa 
applicants:
    First, developing policies and a framework to 
systematically leverage all information and intelligence 
available to the U.S. Government to inform our vetting programs 
and adjudication decisions.
    Second, continuously screening applicants against U.S. 
Government holdings at every stage of the vetting process to 
ensure that new information regarding applicants informs our 
admission decisions.
    Third, continuously refining and enhancing our policies, 
processes, capabilities, and systems, as we have since 9/11, to 
ensure that we leverage emerging technologies and capabilities 
and adapt to a constantly-evolving threat environment while we 
are protecting privacy and civil liberties.
    Fourth, determining the appropriate DHS investment strategy 
needed to automate a process that enables bulk data screening 
and analysis in a manner that protects both individual 
liberties but produces information of value.
    These are just a few of the steps DHS is taking to meet 
this challenge, and we will continue to seek new ways to solve 
our most pressing National security issues and fulfill our 
border security, immigration and travel security, and other 
Homeland Security missions.
    Chairman McCaul, Ranking Member Thompson, and Members of 
the committee, thank you again for the opportunity to appear 
before you. I look forward to answering your questions.
    
    [The prepared statement of Mr. Taylor follows:]
                Prepared Statement of Francis X. Taylor
                
                            February 3, 2016
    Chairman McCaul, Ranking Member Thompson, and distinguished Members 
of the committee, thank you for the opportunity to appear before you 
today to discuss DHS refugee, visa, and other admissions screening and 
vetting efforts. I am pleased to appear alongside my Department of 
Homeland Security (DHS) colleagues from U.S. Citizenship and 
Immigration Services (USCIS) and U.S. Immigration and Customs 
Enforcement (ICE) to discuss the holistic Department-wide approach to 
screening and vetting that we are moving towards in support of DHS's 
Unity of Effort.
    For several years, DHS, together with our law enforcement and 
intelligence community colleagues, have leveraged a range of 
information and processes to carry out screening and vetting supporting 
our operational missions, to include preventing terrorism. Screening 
and vetting are key to refugee, visa, and other admissions adjudication 
processes. Every day, DHS, along with our interagency partners, vets 
millions of individuals traveling to, from, or within the United 
States; applying for citizenship and immigration benefits; or applying 
for credentials or other special accesses. Our screening and vetting 
efforts include biometric and biographic information collection, in-
person interviews, detailed research and analysis, database vetting and 
bulk data screening, publicly-available information vetting (including 
social media), and identity verification. Director Rodriguez and 
Associate Director Kubiak have detailed many of these screening and 
vetting efforts in their statements.
    We recognize that technological advances and the evolving nature of 
the threat environment require us to continuously re-evaluate and 
improve our screening and vetting processes. That is why we have 
efforts underway to evaluate how we might enhance the way we elicit 
information during in-person interviews and on our forms, identify new 
information and data relevant to vetting that is available to the U.S. 
Government, develop new methods to ingest data into our existing 
systems, and better calibrate information provided to adjudicators.
    Additionally, Secretary Johnson asked me to convene a task force to 
examine our current use of social media expand its use for operational 
purposes across the Department, consistent with law. Social media is 
currently used for over 30 different operational or investigative 
purposes by U.S. Customs and Border Protection, ICE, Transportation 
Security Administration, Federal Emergency Management Agency, the U.S. 
Coast Guard, U.S. Secret Service, the Office of Intelligence and 
Analysis, and other components. The Task Force is examining the 
resource and technical challenges involved with more extensive use of 
social media, as well as its effectiveness as a component of the review 
process for applicants for various immigration benefits.
    While I cannot discuss specifics regarding many aspects of our 
screening and vetting efforts in an open hearing, I will outline the 
broad steps DHS is taking to further improve our screening and vetting 
of admissions applicants:
    1. We are developing a framework and policies to further leverage 
        information and intelligence available to the U.S. Government 
        to inform our vetting programs and adjudication decisions.
    2. We are continuously screening applicants against U.S. Government 
        holdings at every stage of the vetting process to ensure that 
        new information regarding applicants informs our admissions 
        decisions.
    3. We are continuously refining and enhancing our processes, 
        capabilities, and systems, as we have since 9/11, to ensure 
        that we leverage emerging technology and capabilities and adapt 
        to a constantly-evolving threat environment, while also 
        protecting privacy and civil liberties.
    4. We are working to resource needs and determine the appropriate 
        DHS investment strategy needed to automate a process that 
        enables bulk data screening and analysis in a manner that 
        protects individual liberties.
    To give an example of enhancements we are exploring, as part of our 
Social Media Task Force, the Office of Science and Technology and USCIS 
initiated a pilot to assist DHS with understanding the value of social 
media data sources with respect to vetting certain applications under 
the K-1 (fiance) Visa program and Syrian refugee processing. The pilot 
allows experienced USCIS immigration officers to access commercial 
state-of-the-art social media analytics capability to enhance our 
screening methodology. The pilot began in December 2015 and will run 
through June 2016. This pilot is an example of how we are leveraging 
DHS's Unity of Effort and represents dedicated DHS collaboration with 
industry technology leaders. We will use this pilot as a template for 
future unified screening and vetting efforts. This pilot builds on 
previous efforts to enhance admissions application processing by 
leveraging social media, a matter Director Rodriguez addresses in his 
testimony.
    Secretary Johnson has asked us to apply a unified Departmental 
approach to screening and vetting in support of our varied missions and 
as part of his broader priority of strengthening Departmental Unity of 
Effort. The efforts my colleagues and I have outlined are just a few 
steps we have taken in meeting this challenge, and we will continue to 
seek new ways to bring to bear our strength as a Department to solve 
the most pressing National security issues and fulfill our border 
security, immigration, travel security, and other homeland security 
missions.
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you again for the opportunity to appear before you 
today to discuss this important matter. I look forward to answering 
your questions.

    Chairman McCaul. Thank you, Secretary Taylor.
    The Chair now recognizes Director Rodriguez.

  STATEMENT OF LEON RODRIGUEZ, DIRECTOR, U.S. CITIZENSHIP AND 
   IMMIGRATION SERVICES, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Rodriguez. Good morning, Chairman, Ranking Member, 
Members of the committee. Thank you all for convening this very 
important hearing.
    Chairman and Ranking Member, as both of you observed, there 
are very active and dangerous individuals and organizations who 
are sworn to the destruction of our country. Every morning when 
I wake up to begin to do my work, I think about exactly that.
    I want to talk about where the refugee program sits in the 
context of those threats. We have heard the refugee program 
described as a purely humanitarian and optional undertaking. I 
am here this morning, among other things, to suggest to you 
that the refugee program is, in fact, a vital part of both our 
foreign policy and our National security.
    Let's talk about the specific Syrian case. The 4 million 
refugees now dispersed throughout the Middle East and Europe 
are, on the whole, the victims of the very individuals who are 
sworn to destroy us here in the United States. They are now 
scattered throughout both the Middle East and Europe. Four 
hundred thousand Syrian refugee children are not in school. I 
do not need to dwell too long on what the consequences of that 
could be, in terms of human trafficking, potential for 
radicalization, a long list of other risks and harms which 
should be intuitive to this body.
    So, therefore, refugee admissions are a critical element of 
regional stability, stabilizing the regions where these 
individuals are located, which, in turn, has important 
consequences to the United States, and standing together with 
our European allies, who, in fact, are facing this problem very 
imminently. While we are talking about taking 10,000, roughly, 
here in the United States, many of my European colleagues are 
dealing with many, many times that already in their borders 
and, in fact, in many cases, without any control at all.
    The 10,000 we are talking about is merely a quarter of a 
percent of the 4 million who are currently refugees and an even 
smaller fraction of the number of Syrians who are displaced 
either within Syria or elsewhere in the world. They also 
represent about 1/300th of 1 percent of the overall population 
of the United States.
    So I would suggest, to fail to admit refugees, who are, in 
fact, the most immediate and most severe victims of that sort 
of terrorism, of those sorts of threats, would cede a vital 
part of the battlefield to the very people who are seeking to 
destroy us.
    Now, in order to admit those refugees, we need to do it 
safely, and that is really the critical topic of this hearing 
today. I am here to talk both about refugees and more generally 
about our immigration system and what we do and have been doing 
for a very long time to ensure that those who seek the benefit 
of coming to the United States and staying in the United States 
are not those who mean us harm, either as threats to our 
National security or otherwise as threats to our society.
    In fact, refugees go through a very lengthy process 
involving multiple interviews, multiple screenings. They are 
checked against databases of United States law enforcement, the 
intelligence community, Customs and Border Protection, State 
Department advisory services. Many of these are tools that, for 
example, when we talk about September 11 did not exist at that 
time, were not in utilization at that time. Even when we talk 
about individuals who came in 2009, 2010, some of the most 
powerful tools we use now are tools that were not in existence 
at that time.
    Let me talk about one particular example. It is a tool that 
we call the Interagency Check that is now used in the case of 
virtually every Syrian who is admitted as a refugee, in the 
case of every Iraqi who is admitted as a refugee. That sort of 
check goes against the entire universe of intelligence holdings 
and law enforcement holdings of the United States.
    As evidence of the effectiveness of the use of those tools, 
alongside the 2,000 or so Syrians who have now been admitted 
there were also 30 individuals who were denied outright because 
they failed either the check or the interview process. There 
are several hundred who are on hold as our Fraud Detection and 
National Security Directorate conducts a more thorough 
investigation of those cases before we make a final decision. 
In fact, many of those may end up being denied because we are 
unable to resolve the concerns that we have about those 
individuals.
    I look forward to talking in more detail. These are indeed 
vital issues. I do want to provide both this committee and the 
American people the reassurance that they require so we can 
engage in this strategically important effort of refugee 
admission.
    Thank you.
    
    [The prepared statement of Mr. Rodriguez follows:]
                  Prepared Statement of Leon Rodriguez
                  
                            February 3, 2016
    Chairman McCaul, Ranking Member Thompson, and distinguished Members 
of the committee, thank you for the opportunity to testify at today's 
hearing. While my colleagues from the Department of State and the 
Department of Homeland Security's Immigration and Customs Enforcement 
and Intelligence and Analysis will discuss security screening in the 
visa process, my testimony will focus specifically on the U.S. Refugee 
Admissions Program (USRAP). As the director of U.S. Citizenship and 
Immigration Services (USCIS), I work with the talented and dedicated 
professionals at USCIS and throughout the Federal Government to meet 
the USRAP mission to offer resettlement opportunities to eligible 
refugees while safeguarding the integrity of the program and our 
National security. USCIS works in close partnership with colleagues at 
the Department of State's Bureau of Population, Refugees, and Migration 
(PRM), other components within the Department of Homeland Security 
(DHS), and colleagues in the law enforcement and intelligence 
communities.
    While my statement focuses exclusively on refugee security, I do 
want to take one moment to also mention that USCIS plays a significant 
role in visa security as well. From the visa petition stage to post-
entry applications for immigrant benefits, USCIS works closely with the 
State Department, the DHS partners represented on this panel and others 
to ensure that those wishing to enter the United States are screened 
thoroughly and repeatedly.
    As you know, the United States has a proud and long-standing 
tradition of offering protection, freedom, and opportunity to refugees 
from around the world who live in fear of persecution and are often 
left to languish in difficult conditions of temporary asylum. USCIS 
remains dedicated to fulfilling this mission, in partnership with PRM, 
and to continuing the United States' leadership role in humanitarian 
protection. An integral part of this mission is to ensure that refugee 
resettlement opportunities go to those who are eligible for such 
protection and who do not present a risk to the safety and security of 
our country. Accordingly, we are committed to deterring and detecting 
fraud to maintain the integrity of the refugee resettlement program, 
and we continue to employ the highest security measures to protect 
against risks to our National security.
    As the director of USCIS, I can assure you that this commitment to 
our humanitarian and National security mandates is shared inside and 
outside of DHS. The refugee resettlement program has forged strong and 
deep relationships with colleagues in the law enforcement, National 
security, and intelligence communities, and we continue to benefit 
enormously from their expertise, analysis, and collaboration. It simply 
would not be possible for us to support a resettlement program of the 
size and scope that the United States maintains without this critical 
interagency infrastructure.
    My testimony today will describe USCIS' role in refugee 
resettlement generally, and I will discuss the screening measures and 
safeguards that the USRAP developed and enhanced over time. While many 
of these enhancements were first deployed in connection with the Iraqi 
refugee resettlement program, they are now being applied more broadly 
to applicants of all nationalities, including Syrians who represent a 
growing portion of our caseload.
                  refugee resettlement case processing
    As I previously mentioned, the USRAP is a shared operational 
responsibility of the State Department and USCIS, among other agencies. 
The State Department is responsible for the overarching coordination 
and management of the USRAP, including the decision on which refugees 
around the world are granted access to the USRAP for resettlement 
consideration. As contemplated by section 207 of the Immigration and 
Nationality Act, this work is guided each year by a Presidential 
determination, which sets the refugee admissions ceiling following 
consultations with Congress. USCIS is responsible for conducting 
individual, in-person interviews abroad with applicants to determine 
their eligibility for refugee status, including whether they meet the 
refugee definition and are otherwise admissible to the United States 
under U.S. law.
    To maximize flexibility and program integrity, in 2005, USCIS 
created the Refugee Corps, a cadre of specially-trained USCIS officers 
who are dedicated to adjudicating applications for refugee status 
overseas. These officers are based in Washington, DC, but they travel 
to multiple locations around the world. In addition, USCIS has a small 
number of officers posted at embassies overseas who conduct refugee 
adjudications, and we assign specially-trained officers from other 
programs--such as the Asylum Corps, Office of the Chief Counsel, and 
Administrative Appeals Office--to supplement the Refugee Corps. Using 
this model, USCIS has been able to respond to an increasingly diverse 
refugee admissions program, working in 64 countries in fiscal year 
2015.
    Recognizing that a well-trained cadre of officers is critical to 
protecting the integrity of the refugee process, we have focused our 
efforts on providing the highest quality training to our adjudicators. 
In addition to the basic training required of all USCIS officers, 
refugee officers receive 5 weeks of specialized training that includes 
comprehensive instruction on all aspects of the job, including refugee 
law, grounds of inadmissibility, fraud detection and prevention, 
security protocols, interviewing techniques, credibility analysis, and 
country conditions research. Before deploying overseas, officers also 
receive pre-departure training, which focuses on the specific 
population that they will be interviewing. This includes information on 
the types of refugee claims that they are likely to encounter, detailed 
country of origin information, and updates on any fraud trends or 
security issues that have been identified. With the advent of large-
scale processing of Iraqi applicants in 2007, USCIS officers who 
adjudicate Iraqi refugee applications began receiving an additional 2-
day training on country-specific issues, including briefings from 
outside experts from the intelligence, policy, and academic 
communities. This training has since expanded to a 1-week training in 
order to include Syria-specific topics as well.
    In order to fully explore refugee claims and to identify any 
possible grounds of ineligibility, specially-trained USCIS officers 
conduct an in-person, in-depth interview of every principal refugee 
applicant. The officer assesses the credibility of the applicant and 
evaluates whether the applicant's testimony is consistent with known 
country conditions. These adjudicators also interview each accompanying 
family member age 14 and older to determine their admissibility to the 
United States. In addition, refugee applicants are subject to robust 
security screening protocols to identify potential fraud, criminal, or 
National security issues. All refugee status determinations made by 
interviewing officers undergo supervisory review before a final 
decision is made. Refugee Affairs Division policy requires officers to 
submit certain categories of sensitive cases--including certain 
National security-related cases--to Refugee Affairs Division 
Headquarters to obtain concurrence prior to the issuance of a decision. 
This allows for Headquarters staff to conduct additional research, 
liaise with law enforcement or intelligence agencies, or consult with 
an outside expert before finalizing the decision.
                            security checks
    Security checks are an integral part of the USRAP process for 
applicants of all nationalities, and coordinating these checks is a 
shared responsibility between the State Department and DHS. Refugee 
applicants are subject to the highest level of security checks, and a 
refugee applicant is not approved for travel until the results of all 
required security checks have been obtained and cleared.
    All available biographic and biometric information is vetted 
against a broad array of law enforcement, intelligence community, and 
other relevant databases to help confirm a refugee applicant's 
identity, check for any criminal or other derogatory information, and 
identify information that could inform lines of questioning during the 
interview. Biographic checks against the State Department's Consular 
Lookout and Support System (CLASS)--which includes watch list 
information--are initiated at the time of prescreening by the State 
Department's Resettlement Support Center (RSC) staff. In addition, the 
RSC initiates requests for Security Advisory Opinions (SAOs) from the 
law enforcement and intelligence communities for those cases meeting 
certain criteria.
    In the fall of 2008, USCIS launched a new biographic check with the 
National Counterterrorism Center (NCTC), which we now refer to as 
Interagency Checks or ``IACs.'' Initially the IAC was required only for 
Iraqi applicants, but the IAC is now required for all refugee 
applicants within a designated age range, regardless of nationality. In 
addition, expanded intelligence community support was added to the IAC 
process in July 2010. In 2015, all partners coordinated to launch IAC 
recurrent vetting. With recurrent vetting, any intervening derogatory 
information that is identified after the initial check has cleared but 
before the applicant has traveled to the United States will be shared 
with USCIS without the need for a subsequent query.
    In addition to these biographic checks, which screen information 
such as an applicant's name and date of birth, USCIS conducts biometric 
checks against 3 sets of data using mobile fingerprint equipment and 
photographs that are typically collected at the time of the USCIS 
interview. These fingerprints are screened against the vast biometric 
holdings of the Federal Bureau of Investigation's Next Generation 
Identification system, and they are screened and enrolled in DHS's 
Automated Biometric Identification System (IDENT). Through IDENT, 
applicant fingerprints are screened not only against watch list 
information, but also for previous immigration encounters in the United 
States and overseas--including, for example, cases in which the 
applicant previously applied for a visa at a U.S. embassy. Starting in 
2007, USCIS began to work with the Department of Defense (DoD) to 
augment biometric screening by checking against the DoD Automated 
Biometric Identification System (ABIS). ABIS contains a variety of 
records, including fingerprint records captured in theatre in Iraq, and 
it is a valuable resource to identify a wide array of relevant 
information. Today, ABIS screening has been expanded to refugee 
applicants of all nationalities who fall within the prescribed age 
ranges.
    In accordance with DHS policy, USCIS is currently using social 
media for review of applications for certain immigration benefits. To 
date, USCIS has conducted 4 pilots using social media in connection 
with refugee applications and is exploring using social media for other 
adjudications. For these pilots, USCIS has been working with members of 
the intelligence community, through the DHS Office of Intelligence & 
Analysis (I&A), to conduct social media analysis on select refugee 
applicants. Given the potential value of social media vetting, DHS 
continues to evaluate the results of these pilots in order to expand 
its appropriate use.
    In addition to the existing suite of biometric and biographic 
checks that are applied to refugees regardless of nationality, USCIS 
has instituted an additional layer of review for Syrian refugee 
applications, taking into account the myriad actors and dynamic nature 
of the conflict in Syria. Before being scheduled for an interview by a 
USCIS officer in the field, Syrian cases are reviewed at USCIS 
headquarters by a Refugee Affairs Division officer. All cases that meet 
certain criteria are referred to the USCIS' Fraud Detection and 
National Security Directorate (FDNS) for additional review and 
research. FDNS conducts open-source and Classified research on referred 
cases and synthesizes an assessment for use by the interviewing 
officer. FDNS also checks social media as part of this enhanced review 
process. This information provides case-specific context relating to 
country conditions and regional activity, and it is used by the 
interviewing officer to inform lines of inquiry related to the 
applicant's eligibility and credibility.
    Throughout the review process of Syrian refugee applicants, FDNS 
engages with law enforcement and intelligence community members for 
assistance with identity verification, acquisition of additional 
information, or deconfliction to ensure USCIS activities will not 
adversely affect an on-going law enforcement investigation. When FDNS 
identifies terrorism-related information, it makes the appropriate 
nominations or enhancements to the Terrorist Identities Datamart 
Environment (TIDE), using standard interagency watch-listing protocols. 
Additionally, USCIS drafts and disseminates reports to U.S. law 
enforcement and intelligence agencies alerting the interagency to 
information that meets standing intelligence information requirements.
    USCIS continues to work with DHS's I&A and other intelligence 
community elements to identify options for new potential screening 
opportunities to enhance this already robust suite of checks. Finally, 
in addition to the checks that I have described, refugee applicants are 
subject to screening conducted by DHS colleagues at U.S. Customs and 
Border Protection's National Targeting Center-Passenger and the 
Transportation Security Administration's Secure Flight program prior to 
their admission to the United States, as is the case with all 
individuals traveling to the United States, regardless of the 
immigration program.
                    the refugee admissions pipeline
    Given the wide geographic scope of the USRAP, including remote and 
sometimes dangerous locations, and the complexities of refugee 
resettlement processing, USCIS coordinates closely with PRM to develop 
a schedule for refugee interviews each quarter of the fiscal year. This 
yields a ``pipeline'' of refugee applicants who can be admitted to the 
United States, once all required security checks, medical examinations, 
and other pre-travel steps are completed.
    In fiscal year 2015, USCIS officers conducted refugee status 
interviews for applicants from 67 countries. The leading nationalities 
admitted to the United States were Burmese, Iraqis, and Somalis, as the 
multi-year program for Bhutanese nationals in Nepal continued its 
downward trend. Admissions from Africa continued their multi-year 
increase, notably including larger numbers of Congolese from the Great 
Lakes region of Africa.
    Refugee processing operations in the Middle East, which have been 
primarily focused on Iraqi nationals since 2007, expanded to include a 
larger number of Syrian referrals from the United Nations High 
Commissioner for Refugees (UNHCR). As of mid-January 2016, the USRAP 
has received approximately 26,500 referrals of Syrian applicants from 
UNHCR, primarily in Turkey, Jordan, and Egypt. The USRAP continues to 
interview large numbers of Iraqi applicants in these same 3 locations, 
and also resumed processing Iraqi nationals in Baghdad in spring 2015, 
after a break in operations since June 2014. USCIS was not able to work 
in Lebanon in fiscal year 2015--but for one exceptional, one-officer 
visit--due to space constraints at the embassy, where officers are 
required to both live and work due to the security conditions. However, 
we are scheduled to return to Beirut to conduct refugee adjudications 
in the second quarter of fiscal year 2016.
    In fiscal years 2013, 2014, and 2015, USCIS and the State 
Department have succeeded in meeting the annual refugee admissions 
ceiling of 70,000. This accomplishment reflects a world-wide commitment 
to refugee protection, as well as intense and committed efforts by all 
the interagency partners to improve, refine, and enhance the security 
vetting regime for refugee applicants, while maintaining its integrity 
and rigor. We will continue these interagency efforts to improve the 
quality and efficacy of the USRAP security screening regime, including 
progress toward more automated processes.
    USCIS is prepared to work closely with the State Department and 
other interagency partners to support a larger refugee admissions 
program of 85,000 arrivals in fiscal year 2016, including at least 
10,000 Syrian refugees, while assiduously maintaining the integrity of 
the program and our National security.
    I would be happy to answer your questions.

    Chairman McCaul. Thank you, Director Rodriguez.
    The Chair now recognizes Assistant Director Kubiak.

     STATEMENT OF LEV J. KUBIAK, ASSISTANT DIRECTOR, U.S. 
    IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Kubiak. Good morning, Chairman McCaul, Ranking Member 
Thompson, and distinguished Members. Thank you for the 
opportunity to discuss ICE's international engagement and 
security efforts to confront dangerous challenges on a global 
stage.
    Today, I am honored to provide an overview of our 
international operations and to highlight a program I believe, 
based on my 20 years as a law enforcement officer, is one of 
the most critical and important U.S. security programs that we 
have at this point in our history. It will provide a little 
more granularity to Director Rodriguez's comments about new 
programs that have been instituted since 9/11 that increase the 
vetting process that we have overseas.
    Currently, ICE is focused on detecting and deterring 
threats before they reach our Nation's borders. To that end, we 
deploy approximately 250 special agents and 170 support and 
investigative staff to 62 offices in 46 countries. Our 
international staff works in conjunction with their foreign law 
enforcement counterparts to detect, disrupt, and dismantle 
transnational criminal organizations and individuals that 
intend harm.
    As you know, the Homeland Security Act of 2002 authorizes 
the deployment of DHS officers to diplomatic posts to perform 
visa security activities and provide advice and training to our 
State Department Consular Affairs colleagues. This critical 
mission is accomplished by the Visa Security program, which we 
refer to as VSP.
    The VSP's primary purpose is to identify terrorists and 
criminals or other aliens ineligible for a visa prior to their 
travel or application for admission to the United States. VSP 
places our investigators on the front line of defense so that 
they can exploit terrorist and criminal organizations through 
the visa adjudication process, which is one of our first 
opportunities to assess whether a potential visitor or 
immigrant poses a potential threat.
    The U.S. Government continuously vets applicants from the 
time they submit their application through the time they make 
their travel arrangements to the time that they appear at our 
border and beyond. As new information becomes available through 
our screening processes, it is provided to the appropriate 
decision makers, which can be State, CIS, CPB, or ICE, to 
ensure we use all of our tools and authorities to protect the 
United States from individuals who may present a security 
concern.
    Recently, in 2014, we instituted the Pre-Adjudicated Threat 
Recognition Intelligence Operations Team, which we call 
PATRIOT, Initiative as an important part of the screening 
process. ICE personnel, in coordination with State and CBP, use 
the results of the automated screening process to identify 
individuals of concern. Those individuals are then referred 
specifically to specially-trained ICE special agents currently 
deployed to 26 high-risk locations in 20 countries.
    One of the most effective aspects of this program is its 
use of automated screening tools which identify individuals of 
concern early in the visa application process, which then 
allows us to utilize our law enforcement tools in country to 
participate in interviews and to engage international law 
enforcement partners to identify additional information that 
would not otherwise be available to the United States 
Government.
    At the VSP locations, ICE conducts targeted in-depth 
reviews of high-risk applicants prior to visa issuance and 
makes recommendations to consular officers to refuse visas when 
warranted. ICE actions complement the consular officers' 
screening, applicant interviews, and reviews of applications 
and supporting documentation. At the same time, VSP also 
facilitates the travel of individuals who, as a result of the 
enhanced screening, are determined not to be our targets of 
interest.
    In fiscal year 2015 alone, VSP screened approximately 2 
million visa applicants from these designated high-risk 
locations and made recommendations contributing to the refusal 
of over 8,000 visas by State. Of those refusals, over 2,200 
applicants had some suspected connection to terrorism. Last 
year alone, we were able to create or enhance 760 records in 
the United States terrorist database as a result of VSP 
operations globally.
    With the $18 million enhancement to VSP that Congress 
provided ICE in fiscal year 2015, VSP operations expanded to 6 
additional visa issuing posts last year. This is the single 
largest expansion of the VSP program in its 13-year history. 
Further, using the same fiscal year 2015 money, ICE will expand 
to 4 additional locations in 2016, which will result in a 50 
percent increase in expansion of the program globally in just 2 
years.
    This record expansion is made possible by the additional 
Congressional funding, by CBP and ICE's joint initiative to 
centralize PATRIOT screening and vetting in the National 
Capital region, and collaboration with the Department of State 
on site selection, post selection, and expansion. Together, ICE 
and State are now jointly training overseas personnel and 
integrating staff at embassies to enhance regular and timely 
information sharing. ICE, CBP, and State Department personnel 
are collectively identifying ways to further improve screening 
and vetting constantly and to identify the most critical 
embassies for future expansion.
    Thank you very much for inviting me to testify today and 
for your continued support of the ICE mission and its law 
enforcement mission overseas. HSI remains committed to working 
with this committee to help prevent and combat threats to our 
Nation. I look forward to your questions.
    [The prepared statement of Mr. Kubiak follows:]
                  Prepared Statement of Lev J. Kubiak
                            February 3, 2016
                              introduction
    Chairman McCaul, Ranking Member Thompson, and distinguished Members 
of the committee: Thank you for the opportunity to discuss the 
international engagement and security enhancement of U.S. Immigration 
and Customs Enforcement (ICE). At ICE, we strive to uphold our homeland 
security mission by confronting dangerous challenges on a global stage, 
with a particular focus on those emanating from beyond America's 
physical borders. Today, I am honored to provide an overview of our 
international operations and to highlight our security programs that 
guard the United States against diverse and global threats.
    First, I would like to briefly outline the structure of ICE to help 
you understand our mission and responsibilities. ICE is divided into 3 
operational components: Enforcement and Removal Operations (ERO), 
Homeland Security Investigations (HSI), and the Office of the Principal 
Legal Advisor (OPLA). The role of ERO is to identify, apprehend, and 
remove aliens unlawfully present in the United States in accordance 
with Federal law and policy. HSI investigates transnational crime by 
conducting a wide range of domestic and international criminal 
investigations, often in coordination with other Federal agencies, 
targeting the illegal movement of people and merchandise into, within, 
and out of the United States. OPLA is the exclusive legal 
representative for the U.S. Government in exclusion, deportation, and 
removal proceedings before the U.S. Department of Justice's Executive 
Office for Immigration Review, and litigates immigration-related 
hearings on behalf of the United States involving criminal aliens, 
terrorists, and human rights abusers.
    HSI has extremely broad authorities and jurisdiction over the 
investigation of crimes with a nexus to U.S. borders and ports of 
entry. HSI's 3 operational priorities are border security, public 
safety, and counterterrorism/National security. We investigate offenses 
that stem from our traditional customs and immigration authorities, 
including smuggling of illicit goods and people and illicit finance 
associated with global criminal organizations.
    One of ICE's most important priorities is to detect and deter 
threats before they reach our Nation's borders. To achieve this goal, 
ICE currently deploys approximately 250 special agents and 170 support 
staff to 62 offices in 46 countries. Our international staff works in 
conjunction with international law enforcement counterparts to detect, 
disrupt, and dismantle transnational criminal groups and individuals 
who seek to cause harm to the security of the United States.
                 the visa security program and patriot
    The Homeland Security Act of 2002 authorizes the deployment of the 
Department of Homeland Security (DHS) officers to diplomatic posts to 
perform visa security activities and provide advice and training to 
Department of State (DOS) consular officers. This critical mission is 
accomplished by the Visa Security program (VSP). The VSP's primary 
purpose is to identify terrorists, criminals, and other aliens 
ineligible for a visa prior to their travel or application for 
admission to the United States.
    VSP is our first line of defense in the visa process against 
terrorists and criminal organizations by preventing foreign nationals 
who pose a threat to National security from entering the United States. 
The visa adjudication process is often the first opportunity to assess 
whether a potential visitor or immigrant poses a threat to the United 
States. Furthermore, the visa adjudication process is an on-going and 
continuous vetting process of applicants in search of derogatory 
information--a visa recipient is not simply granted admittance at only 
one review point.
    Visa security is an important, interagency collaboration function, 
shared by both DOS and DHS, including the component offices of ICE, 
U.S. Customs and Border Protection (CBP), and U.S. Citizenship and 
Immigration Services (USCIS). Our components constantly seek to enhance 
our systems and processes to improve visa security efforts. Through the 
Pre-Adjudicated Threat Recognition Intelligence Operations Team 
(PATRIOT) initiative, we conduct automated screening of visa 
application information against DHS holdings as well as holdings of 
other U.S. agencies prior to the applicant's interview and visa 
adjudication. The process includes in-depth vetting of applicants 
identified as potentially having derogatory information who may be of 
investigative interest, or ineligible to receive U.S. visas. The 
PATRIOT initiative takes a risk-based approach and uses interagency 
resources from ICE, CBP, DOS, and the intelligence community to 
identify National security and public safety threats.
    VSP differs from other U.S. Government screening efforts in that it 
leverages its capabilities, such as in-person interviews and working 
with international law enforcement partners to investigate suspect 
travelers, enhance existing information, and identify previously 
unknown threats, instead of simply denying visas and any potential 
travel. In fiscal year 2015, the VSP reviewed over 2 million visa 
applications, including approximately 8,600 cases in which visas were 
refused. Of these denials, over 2,200 applicants had some suspected 
connection to terrorism or terrorist organizations.
    In addition, VSP enhances visa vetting by increasing automated data 
exchange between DOS and the CBP National Targeting Center (NTC), the 
latter of which provides tactical targeting and analytical research to 
prevent terrorists from entering the United States. The flow of on-line 
visa information to DHS systems is now automated and information is 
sent back to DOS using an automated interface.
    Furthermore, ICE deploys personnel to the NTC to augment and expand 
current operations. The co-location of ICE personnel at the targeting 
center helps increase both communication and information sharing. The 
NTC conducts pre-departure vetting of all travelers on flights bound 
for the United States. Vetting identifies high-risk passengers who 
should be the subject of no-board recommendations to carriers, 
including those whose visas have been revoked.
    Within ICE's VSP international footprint, we deploy specially-
trained agents overseas to screen and vet visa applications at 26 high-
risk locations in 20 countries, augmenting vetting mechanisms in place 
world-wide in order to enhance efforts at these critical posts to 
identify potential terrorist and criminal threats before they enter the 
United States. ICE accomplishes this crucial function by conducting 
targeted, in-depth reviews of individual visa applications and 
applicants prior to visa issuance, and making recommendations to 
consular officers to refuse or revoke visas when warranted. ICE actions 
complement the consular officers' screening, applicant interviews, and 
reviews of applications and supporting documentation. As a result of 
additional Congressional funding in fiscal year 2015, HSI expanded VSP 
operations to 6 new visa-issuing posts.
             coordination with the u.s. department of state
    Effective border security requires broad information sharing and 
cooperation among U.S. Government agencies. In October 2006, ICE 
entered into a memorandum of understanding (MOU) with the DOS Bureau of 
Consular Affairs in order to exchange visa and immigration data. The 
agreement allows ICE and DOS to exchange information contained in each 
other's electronic databases pertaining to foreign persons seeking 
entry into the United States. This exchange of information allows 
Consular Affairs personnel to query and access ICE and CBP records. 
Consular Affairs personnel can then consider prior violations when 
adjudicating visa applications for foreign persons who have applied to 
enter the United States. Similarly, the exchange of information allows 
ICE personnel to query the DOS Consular Consolidated Database and to 
access passport and visa application information of persons under 
investigation by ICE. This information sharing also acts as an exchange 
for on-going criminal investigations. If, for example, a suspect of an 
on-going Federal criminal investigation applies for a visa, ICE and DOS 
employees can collaborate to conduct additional investigation and/or 
queries prior to visa adjudication.
    In January 2011, ICE signed an MOU outlining roles, 
responsibilities, and collaboration between ICE, Consular Affairs, and 
the Diplomatic Security Service. To facilitate information sharing and 
reduce duplication of efforts, ICE and DOS conduct collaborative 
training and orientation prior to overseas deployments. At overseas 
posts, ICE and DOS personnel work closely together in working groups, 
meetings, training and briefings, and engage in regular and timely 
information sharing. Additionally, ICE and DOS personnel work side-by-
side to identify embassies for potential future expansion of the VSP 
and routinely travel together and provide briefings to U.S. embassy 
personnel prior to commencement of operations.
                               conclusion
    I am grateful for the opportunity to appear before you today and 
for your continued support of ICE and its law enforcement mission. I am 
confident that we will continue to build upon the momentum we have 
generated as a result of our considerable operational achievements 
around the world. HSI remains committed to working with this committee 
to forge a strong and productive relationship going forward to help 
prevent and combat threats to our Nation.
    I would be pleased to answer any questions.

    Chairman McCaul. Thank you, Director Kubiak.
    The Chair now recognizes Assistant Secretary Bond to 
testify.

 STATEMENT OF MICHELE THOREN BOND, ASSISTANT SECRETARY, BUREAU 
         OF CONSULAR AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Bond. Thank you. Good morning, Chairman McCaul, Ranking 
Member Thompson, and distinguished Members of the committee. 
Thank you for this opportunity to testify today on the topic of 
security vetting for visa applicants.
    The Department of State and our partner agencies throughout 
the Federal Government take our commitment to protect America's 
borders and citizens seriously, and we constantly analyze and 
update our clearance procedures. My written statement, which I 
request be put into the record, describes the rigorous 
screening regimen that applies to all visa categories.
    The vast majority of visa applicants and all immigrant and 
fiance visa applicants are interviewed by a consular officer. 
Every consular officer completes an extensive training course 
with a strong emphasis on border security, fraud prevention, 
interagency coordination, and interviewing techniques.
    All visa applicant data are vetted against databases, 
including terrorist identity databases that contain millions of 
records of individuals found ineligible for visas or regarding 
for whom potentially derogatory information exists. We 
fingerprint nearly all visa applicants and screen them against 
the DHS and FBI databases of known and suspected terrorists, 
wanted persons, immigration law violators, and criminals. All 
visa applicants are screened against photos of known or 
suspected terrorists and prior visa applicants.
    When the interagency screening process shows potentially 
disqualifying derogatory information, the consular officer 
suspends visa processing and submits a request for a 
Washington-based interagency security advisory opinion review 
conducted by Federal law enforcement, intelligence agencies, 
and the Department of State.
    The Department of Homeland Security's PATRIOT system and 
visa security program, as described, provide additional 
protections at certain overseas posts. DHS Immigration and 
Customs Enforcement special agents assigned to more than 20 
embassies and consulates in high-threat locations provide on-
site vetting of visa applications and other law enforcement 
support to our consular officers.
    Security reviews do not stop when the visa is issued. The 
Department and partner agencies continuously match new threat 
information with our records of existing visas. Now, we refuse 
more than a million visa applications a year, and since 2001 
the Department has revoked more than 122,000 visas based on 
information that surfaced after issuance of the visa. This 
includes nearly 10,000 visas revoked for suspected links to 
terrorism--again, based on information that surfaced after 
issuance.
    Mr. Chairman, Ranking Member Thompson, and distinguished 
Members of the committee, the Department of State has no higher 
priority than the safety of our fellow citizens at home and 
overseas and the security of the traveling public. Every visa 
decision we make is a National security decision.
    We appreciate the support of Congress as we work to 
strengthen our defenses. I encourage each of you to visit our 
consular sections when you are abroad to see how we do this on 
a daily basis.
    I look forward to your questions. Thank you.
    [The prepared statement of Ms. Bond follows:]
               Prepared Statement of Michele Thoren Bond
                            February 3, 2016
    Good morning Chairman McCaul, Ranking Member Thompson, and 
distinguished Members of the committee. The Department of State is 
dedicated to the protection of our borders. We have no higher priority 
than the safety of our fellow citizens at home and abroad. We and our 
partner agencies throughout the Federal Government have built a layered 
visa and border security screening system, and continue to refine and 
strengthen the 5 pillars of visa security: Technological advances, 
biometric innovations, personal interviews, data sharing, and training.
    This layered approach enables us and our interagency partners to 
track and review the visa eligibility and status of foreign visitors 
from their visa applications throughout their travel to, sojourn in, 
and departure from the United States. Lessons learned through the years 
have led to significant improvements in procedures and capabilities. At 
the same time, the tragic events that transpired most recently in San 
Bernardino demonstrated that no system is perfect. We must constantly 
analyze, test, and update our clearance procedures. We will never stop 
doing so.
                  a layered approach to visa security
    In coordination with interagency partners, the Department has 
developed, implemented, and refined an intensive visa application and 
screening process. We require personal interviews in most cases, 
including all immigrant and fiance cases, employ analytic interviewing 
techniques, and incorporate multiple biographic and biometric checks in 
the visa process. Underpinning the process is a sophisticated global 
information technology network that shares data among the Department 
and Federal law enforcement and intelligence agencies. Security is our 
primary mission. Every visa decision is a National security decision. 
The rigorous security screening regimen I describe below applies to all 
visa categories.
    All visa applicants submit on-line applications--the on-line DS-160 
nonimmigrant visa application form, or the on-line DS-260 immigrant 
visa application form. On-line forms enable consular and fraud 
prevention officers, and our intelligence and law enforcement partners, 
to analyze data in advance of the visa interview, including the 
detection of potential non-biographic links to derogatory information. 
The on-line forms offer foreign language support, but applicants must 
respond in English, to facilitate information sharing among the 
Department and other Government agencies.
    Consular officers use a multitude of tools to screen visa 
applications. No visa can be issued unless all relevant concerns are 
fully resolved. The vast majority of visa applicants are interviewed by 
a consular officer. During the interview, consular officers pursue 
case-relevant issues pertaining to the applicant's identity, 
qualifications for the particular visa category in question, and any 
information pertaining to possible ineligibilities related to criminal 
history, prior visa applications or travel to the United States, and/or 
links to terrorism or security threats.
    As a matter of standard procedure, all visa applicant data is 
reviewed through the Department's Consular Lookout and Support System 
(CLASS), an on-line database containing approximately 36 million 
records of persons found ineligible for visas, or regarding whom 
potentially derogatory information exists, drawn from records and 
sources throughout the U.S. Government. CLASS employs sophisticated 
name-searching algorithms to identify accurate matches between visa 
applicants and any derogatory information contained in CLASS. We also 
run all visa applicants' names against the Consular Consolidated 
Database (CCD, our automated visa application record system) to detect 
and respond to any derogatory information regarding visa applicants and 
visa holders and to check for prior visa applications, refusals, or 
issuances. The CCD contains more than 181 million immigrant and 
nonimmigrant visa records going back to 1998. This robust searching 
capability, which takes into account variations in spelling, is central 
to our procedures.
    We collect 10-print fingerprint scans from nearly all visa 
applicants, except certain foreign government officials, diplomats, 
international organization employees, and visa applicants over the age 
of 79 or under the age of 14. Those fingerprints are screened against 
two key databases: First, the Department of Homeland Security's (DHS) 
IDENT database, which contains a watch list of available fingerprints 
of known and suspected terrorists, wanted persons, and immigration law 
violators; and second, the Federal Bureau of Investigation's (FBI) Next 
Generation Identification (NGI) system, which contains more than 75.5 
million criminal history records.
    All visa photos are screened against a gallery of photos of known 
or suspected terrorists obtained from the FBI's Terrorist Screening 
Center (TSC), and against visa applicant photos contained in the 
Department's CCD.
    In 2013, in coordination with multiple interagency partners, the 
Department launched the ``Kingfisher Expansion'' (KFE) counterterrorism 
visa vetting system. While the precise details of KFE vetting cannot be 
detailed in this open setting, KFE supports a sophisticated comparison 
of multiple fields of information drawn from visa applications against 
intelligence community and law enforcement agency databases in order to 
identify terrorism concerns. If a ``red-light'' hit is communicated to 
the relevant consular post, then the consular officer denies the visa 
application and submits it for a Washington-based interagency Security 
Advisory Opinion (SAO) review by Federal law enforcement and 
intelligence agencies. In addition to this KFE ``red-light'' scenario, 
consular officers are required to submit SAO requests in any case with 
applicable CLASS name check results, or with particular nationality, 
place of birth, or residence information. In any case in which 
reasonable grounds exist regardless of name check results, a consular 
officer may suspend visa processing and institute SAO procedures. 
Consular officers receive extensive training on the SAO process, which 
requires them to issue an interim denial of a visa application and 
engage in interagency review for any case with possible security 
ineligibilities. An applicant subject to this review may be found 
eligible for a visa only if the SAO process resolves all concerns.
    DHS's Pre-adjudicated Threat Recognition and Intelligence 
Operations Team (PATRIOT) and Visa Security Program (VSP) provide 
additional law enforcement review of visa applications at designated 
overseas posts. PATRIOT is a pre-adjudication visa screening and 
vetting initiative that employs resources from DHS/Immigration and 
Customs Enforcement (ICE), Customs and Border Protection (CBP), and the 
Department of State. It was established to identify National security, 
public safety, and other eligibility concerns prior to visa issuance. A 
team of agents, officers, and analysts from ICE and CBP perform manual 
vetting of possible derogatory matches.
    PATRIOT works in concert with the Visa Security Units (VSU) located 
in more than 20 high-threat posts and is being deployed to more visa-
issuing posts as rapidly as available resources will support. ICE 
special agents assigned to VSUs provide on-site vetting of visa 
applications and other law enforcement support to consular officers. 
When warranted, DHS officers assigned to VSUs conduct targeted, in-
depth reviews of individual visa applications and applicants prior to 
issuance, and recommend refusal or revocation of applications to 
consular officers. The Department of State works closely with DHS to 
ensure that no known or suspected terrorist inadvertently receives a 
visa or is admitted into our country. The Department of State has not 
and will not issue a visa for which the VSU recommends refusal.
                                training
    Consular officers are trained to take all prescribed steps to 
protect the United States and its citizens when making visa 
adjudication decisions. Each consular officer completes an intensive, 
6-week Basic Consular Course. This course features a strong emphasis on 
border security and fraud prevention, with more than 40 classroom hours 
devoted to security, counterterrorism, fraud detection, and visa 
accountability programs. Adjudicators receive extensive classroom 
instruction on immigration law, Department policy and guidance, and 
consular systems, including review of background data checks and 
biometric clearances.
    Students learn about the interagency vetting process through 
briefings from the Bureau of International Security and 
Nonproliferation; Consular Affairs' (CA) Office of Screening, Analysis 
and Coordination; CA's Counterfeit Deterrence Laboratory; Diplomatic 
Security; and the DHS/ICE Forensic Document Laboratory.
    In addition, officers receive in-depth interviewing and name-check 
technique training, spending more than 30 classroom hours critiquing 
real consular interviews, debriefing role plays, and other in-class 
activities. Basic interviewing training includes instruction in 
techniques for questioning an applicant to elicit information relevant 
to assessing visa eligibility. Officers use verbal and non-verbal cues 
to judge an applicant's credibility and the veracity of the applicant's 
story. They examine and assess documentation, including electronic 
application forms, internal background check information, passports, 
and required supporting documents during the interview.
    Officers receive continuing education in all of these disciplines 
throughout their careers. All consular officers have Top Secret 
clearances, and most speak the language of the country to which they 
are assigned and receive training in the culture of the host country.
                          visas viper program
    U.S. missions overseas report information about foreign nationals 
with possible terrorist connections through the Visas Viper reporting 
program. Following the December 25, 2009, attempted terrorist attack on 
Northwest Flight 253, we strengthened the procedures and content 
requirements for Visas Viper reporting. Chiefs of Mission are 
responsible for ensuring that all appropriate agencies and offices at 
post contribute relevant information for Viper nominations. Visas Viper 
cables must include complete information about all previous and current 
U.S. visas. On December 31, 2009, we updated instructions regarding 
procedures and criteria used to revoke visas. We added specific 
reference to cases that raise security and other concerns to the 
guidance regarding consular officers' use of the authority to deny visa 
applications under section 214(b) of the Immigration and Nationality 
Act (INA), if the applicant does not establish visa eligibility to the 
satisfaction of the consular officer. Instruction in appropriate use of 
this authority has been a fundamental part of officer training for 
several years.
                 continuous vetting and visa revocation
    Federal agencies have been matching new threat information against 
existing visa records since 2002. We have long recognized this function 
as critical to managing our records and processes. This system of 
continual vetting evolved as post-9/11 reforms were instituted, and is 
now performed in cooperation with the TSC, the National 
Counterterrorism Center (NCTC), FBI, DHS/ICE, and CBP's National 
Targeting Center (NTC). All records added to the Terrorist Screening 
Database (TSDB) and Terrorist Identities Datamart Environment (TIDE) 
are checked against the CCD to determine if there are matching visa 
records. Vetting partners sends these matches electronically to the 
Department of State, where analysts review the hits and flag cases for 
possible visa revocation. We have visa information-sharing agreements 
under which we widely disseminate our data to other agencies that may 
need to learn whether a subject of interest has, or has ever applied 
for, a U.S. visa.
    The Department of State has broad authority to revoke visas, and we 
use that authority widely to protect our borders. Cases for revocation 
consideration are forwarded to the Department of State's Visa Office by 
embassies and consulates overseas, NTC, NCTC, and other entities. As 
soon as information is established to support a revocation (i.e., 
information that surfaced after visa issuance that could lead to an 
ineligibility determination, or otherwise indicates the visa holder 
poses a potential threat), a ``VRVK'' entry code showing the visa 
revocation, as well as lookout codes indicating specific potential visa 
ineligibilities, are added to CLASS, as well as to biometric identity 
systems, and then shared in near-real time (within approximately 15 
minutes) with the DHS lookout systems used for border screening. As 
part of its enhanced ``Pre-Departure'' initiative, CBP uses VRVK 
records, among other lookout codes, to recommend that airlines not 
board certain passengers on flights bound for the United States. Every 
day, we receive requests to review and, if warranted, revoke visas for 
aliens for whom new derogatory information has been discovered since 
the visa was issued. The Department of State's Operations Center is 
staffed 24 hours a day, 7 days a week, to address urgent requests, such 
as when a potentially dangerous person is about to board a plane. In 
those circumstances, the Department of State can and does use its 
authority to revoke the visa immediately.
    Revocations are typically based on new information that has come to 
light after visa issuance. Because individuals' circumstances change 
over time, and people who once posed no threat to the United States can 
become threats, continuous vetting and revocation are important tools. 
We use our authority to revoke a visa immediately in circumstances 
where we believe there is an immediate threat, regardless of the 
individual's location, after which we will notify the issuing post and 
law enforcement or immigration stakeholders. We are mindful, however, 
not to act unilaterally, but to coordinate expeditiously with our 
National security partners in order to avoid possibly disrupting 
important investigations. In addition to the hundreds of thousands of 
visa applications we refuse each year, since 2001, the Department has 
revoked approximately 122,000 visas, based on information that surfaced 
following visa issuance, for a variety of reasons. This includes 
approximately 10,000 visas revoked for suspected links to terrorism.
                             going forward
    We face dangerous and adaptable foes. We are dedicated to 
maintaining our vigilance and strengthening the measures we take to 
protect the American public and the lives of those traveling to the 
United States. We will continue to apply state-of-the-art technology to 
vet visa applicants. While increasing our knowledge of threats, and our 
ability to identify and interdict those threats, the interagency acts 
in accordance with the rules and regulations agreed upon in key 
governance documents. These documents ensure a coordinated approach to 
our security as well as facilitating mechanisms for redress and privacy 
protection.
    We are taking several measures to confront developing threats and 
respond to the despicable terrorist attacks in Paris and San 
Bernardino.
    With our interagency partners, particularly DHS, we conducted a 
thorough review of our K-visa process. As we constantly do, we analyzed 
our current K-visa processes, including security vetting, to identify 
areas where we could improve. We are further exploring and implementing 
several adjustments and recommendations, especially in regard to our 
processing of applicants from countries of concern. These adjustments 
and recommendations include, but are not limited to, working with the 
Department of State's Diplomatic Security Service to explore assigning 
additional Regional Security Officers in direct support of consular 
sections and visa adjudications; working with DHS to explore expanding 
the use of ICE's PATRIOT screening in certain countries of concern 
where it is not already present; and taking another opportunity to 
review prior K-visa adjudications and our internal standard operating 
procedures to determine what we can learn and use to inform our 
processes and training.
    Additionally, we are working closely with DHS and the interagency 
to explore and analyze the use of social media screening of visa 
applicants. In addition to learning from our DHS colleagues, we began a 
pilot exploration of social media screening at 17 posts that adjudicate 
K-visa applications and immigrant visa applications for individuals 
from countries of concern. We expect to learn a great deal from this 
pilot and are confident we will have a much better understanding of the 
implications of using social media vetting for National security and 
immigration benefits. At the same time, we continue to explore methods 
and tools that could potentially assist in this type of screening and 
potentially provide new methods to assess the credibility of certain 
information from applicants. We believe these endeavors will provide us 
insights to continue to ensure the visa process is as secure, 
effective, and efficient as possible.
    Information sharing with trusted foreign partners is an area that 
has seen significant development in recent years. For example, ``to 
address threats before they reach our shores,'' as called for by the 
President and the Prime Minister of Canada in their February 4, 2011, 
joint declaration, Beyond the Border: A Shared Vision for Perimeter 
Security and Economic Competitiveness, the Departments of State and 
Homeland Security have implemented arrangements for systematic 
information sharing with Canada. The established processes provide for 
nearly real-time access to visa and immigration data through matching 
of fingerprints, as well as through biographic name checks for 
information that an applicant previously violated immigration laws, was 
denied a visa, or is a known or suspected terrorist. Canadian officers 
currently access the U.S. records of Syrian nationals seeking refugee 
resettlement in Canada, among other populations of visa and immigration 
applicants.
    As part of our long-term strategic planning to improve efficiency 
and accuracy in visa adjudications, while ensuring we can meet surging 
visitor visa demand, we are investigating the applicability of advanced 
technology in data analysis, risk screening, and credibility 
assessment. Keeping abreast of high-tech solutions will help us reduce 
threats from overseas while keeping the United States open for 
business.
    I assure you that the Department of State continues to refine its 
intensive visa application and screening process, including personal 
interviews, employing analytic interview techniques, incorporating 
multiple biographic and biometric checks, and interagency coordination, 
all supported by a sophisticated global information technology network. 
We look forward to working with the committee staff on issues 
addressing our National security in a cooperative and productive 
manner.

    Chairman McCaul. Thank you, Secretary Bond.
    I now recognize myself for questioning.
    I think the most important mission as I look at the 
Department's mission, it involves travel and it involves 
identifying threats and keeping bad people and bad things 
outside the United States, keeping them from coming into this 
country.
    We are here today primarily as a result of the San 
Bernardino shooting and the fact that Malik, a Pakistani 
foreign national, was granted a visa, came into the United 
States, and then it was divulged that her social media had not 
been reviewed prior to coming into the United States or as part 
of the visa application process, something as fundamental--that 
really any employer, before they hire someone, that I am aware 
of, check--is someone's social media, and that we seem to have 
this antiquated system that we want to bring now into the 21st 
Century when it comes to something so vitally important as the 
Nation's security.
    I understand that there is nothing derogatory on her 
Facebook account. I think that is worth mentioning. But, Mr. 
Taylor, your predecessor, Mr. Cohen, raised this as an issue as 
well, that the Department was not looking at social media.
    It is my understanding that since that time there have been 
3 pilot programs launched looking specifically at the Syrian 
refugee program. It is important to note that since May more 
than 40 suspected jihadists have been caught entering Europe 
through the Syrian refugee process. Many, if not all, had links 
to ISIS.
    So I guess my first question is, and I think mainly to our 
Homeland Security witnesses, is--and I understand there are 
10.5 million visa applicants per year. It is an enormous 
number. There are hundreds of thousands of refugees. But when 
we look at the 10,000 Syrian refugees I think the American 
people are most concerned with, and the Congress, can you tell 
us now, in light of the San Bernardino shooting, what are we 
doing with respect to the admittance of those 10,000 Syrian 
refugees into the United States? Are we checking their social 
media accounts?
    Mr. Taylor.
    Mr. Taylor. Thank you for the question, sir. I think 
Director Rodriguez can address that specific question. But I 
would like for the record to be clear that Mr. Cohen's 
suggestion that there was a prohibition on the use of social 
media in the Department of Homeland Security is false. We have 
had policy in place since 2012, and, to date, there are 33 
instances within the Department where our components are using 
social media.
    The challenge the Secretary recognized was that we were not 
doing it comprehensively as a Department. As you know, one of 
his big pushes has been to organize Departmental information in 
a way that complements the various missions of our components. 
That is what our task force is focused on: How can we organize 
ourselves to use this in a most effective way across all of the 
missions that the Department performs?
    Director Rodriguez.
    Chairman McCaul. I want to give you the opportunity to 
respond, because that has been made a big deal in the media.
    Mr. Taylor. Yes, sir.
    Chairman McCaul. When was the task force formed?
    Mr. Taylor. My task force was formed on the 15th of 
December. The policy in the Department was written in 2012 that 
authorized the use of social media across the components.
    Mr. Rodriguez. So, at this point, with respect to the 
Syrian refugee stream, we are reviewing social media in those 
cases where there are existing flags of concern. We are 
building as quickly as we can to build to a point where we 
would, in fact, be screening the entire body of Syrian refugee 
applicants.
    As we bring new resources on-line, we are prioritizing 
those areas where we detect the greatest risk. I think we 
hopefully discussed some of that yesterday in the Classified 
briefing.
    I think it is important, as we talk about social media, to 
place it in the right context of the overall screening that we 
do. It is one tool among a battery of tools that we use in 
order to screen individuals. So it is used in conjunction with 
the information that we derive from intelligence databases. It 
is used in conjunction with the multiple interviews that are 
conducted of these individuals before they are granted 
admission. Particularly important to recognize that those 
interviews are done with the benefit of intense briefing to our 
officers, based on both Classified and non-Classified sources, 
on the country conditions to a great degree of granularity that 
exist in the countries from which they are coming, whether we 
are talking about Syria or Iraq.
    The other thing I want to emphasize is we are not only 
going to be talking about Syria as we bring this capability on 
but also Iraq. If we look at the history of the individuals who 
have been arrested for terrorist plots, there is more of a 
history, certainly, of individuals having terrorist plots----
    Chairman McCaul. My time is expiring, but--and in those 
cases, where we did have intelligence, we brought in 
terrorists.
    Mr. Rodriguez. Again, that is why the importance--and I 
would like an opportunity to answer that at some other point. 
That is why the importance of the Interagency Check, which was 
not used in the same manner at the time of the----
    Chairman McCaul. I understand all of that. This is about 
social media. When the director of the FBI testified here, and 
the Secretary of Homeland, they raised concerns about the lack 
of databases to query to properly vet.
    So my question again is: Are we checking the social media 
for the 10,000 Syrian refugees that we are bringing into the 
United States?
    Mr. Rodriguez. Yeah, no, and that is what I was meaning to 
address at the beginning. We are doing that in cases of flags 
of concern. We are adding resources quickly so that we use 
that, in fact----
    Chairman McCaul. But not all of them.
    Mr. Rodriguez [continuing]. Over the entire body of----
    Chairman McCaul. Just the high-risk? Or all of them?
    Mr. Rodriguez. Right now. Then we are going to be moving to 
covering the entire population.
    Chairman McCaul. Which leads me to my next question. So 
these visa security units where ICE is located in the embassy, 
these are really the high-risk countries. It seems to me you 
don't quite have the capability yet on the--we get the 
algorithms to check the social media. But my recommendation 
would be that this be expanded, the social media checking and 
vetting, not just to the 10,000 Syrian refugees but to all the 
visa security units across the globe.
    Mr. Taylor. Sir, that is our intent, to be as comprehensive 
as we can in capability to allow the maximum amount of vetting 
against that particular data set for the purposes of our 
Department's mission.
    So it is not limited--we have started with the K-1s and the 
refugees because that is a starting set, but the longer-term 
plan is to apply that capability against all of the vetting 
responsibilities that we have.
    Chairman McCaul. Well, you certainly have my strong support 
for that expansion. Anything we can do to help you, let us 
know.
    Mr. Taylor. Yes, sir.
    Chairman McCaul. With that, I will recognize the Ranking 
Member.
    Mr. Thompson. Thank you, Mr. Chairman.
    Taking off on your line of questioning, Mr. Kubiak, 
relative to the visa security programs, we historically have 
had 6--there were 6 new high-risk visa-issuing ports 
authorized, bringing it to 26. Now, it is my understanding that 
in the 2016 omnibus appropriation it did not provide adequate 
funding to operate the expanded number of visa security 
programs.
    If we are mandating, as Congress, for you to do more and 
don't provide money, how are you going to expand that visa 
security program?
    Mr. Kubiak. Thank you for the question.
    The funding that we were provided in fiscal year 2015 also 
was accompanied by an ability to carry some of that money over 
into fiscal year 2016. So we have been very judiciously using 
the money and reapportioning the money around the globe to 
cover off on the larger threats as we see them developing. So 
we are able to use some of the money that Congress gave us in 
2015 in 2016 for that expansion and to continue the expansion 
of VSP and the enhancements of the PATRIOT screening and 
vetting process as we move forward.
    Obviously, we are always able to do more with more, and so, 
for future appropriations, we are always looking for the way to 
expand the VSP program. But for now, we are fine for 2015 and 
2016 as we move forward.
    Mr. Thompson. Because you are able to use the prior year's 
funding to support the present year's mission?
    Mr. Kubiak. Yes, sir. That was an important enhancement 
that Congress gave us last year, was to be able to carry over 
that funding.
    Mr. Thompson. General Taylor, following that line of 
questioning with respect to the platforms for social media and 
other things that there is interest on this committee, have we 
identified the resources to complete those projects related to 
establishing the new platforms on social media?
    Mr. Taylor. Sir, that is a part of our charter, to develop 
an investment strategy around that capability. This committee 
has been very supportive of certainly I&A's efforts at using 
data within DHS. That funding has been very useful for us in 
moving that forward. But we don't know yet what the exact 
amount will be, and once we have that completed, we will get it 
through the process and get it back up to the Hill.
    Mr. Thompson. Well, can you kind-of talk to us a little bit 
about whether or not you have identified the personnel 
necessary to carry out that mission? Are we going to have to 
depend on outside contractors to complete that mission?
    Mr. Taylor. You know, sir, my experience in this is that at 
the beginning we probably won't have enough capability on board 
in the Government to do this robustly and that we will have to 
do some contracting, particularly for linguists, when one is 
talking about social media. All social media is not in English, 
so we need language skills and those sorts of things, which are 
more readily available initially in the private sector.
    But long term, I think we will build a capability that 
mirrors our Department's responsibility to review this type of 
data and do so with Government employees that are trained and 
able to do it. But my sense is the initial investment will be 
heavily contractor.
    Mr. Thompson. Thank you.
    Ms. Bond, for the record, there has been some discussion 
about the San Bernardino individual, Malik's Facebook page. In 
a public setting, can you kind-of clarify whether or not the 
presence or the lack of derogatory information was on her 
social media?
    Ms. Bond. Sir, to my knowledge, there was nothing that was 
publicly accessible that indicated jihadist or other 
threatening beliefs. I don't believe there was anything on a 
Facebook page or something else that one would have been able 
to find.
    Mr. Thompson. Thank you.
    I yield back, Mr. Chairman.
    Chairman McCaul. The Chair recognizes Mr. Smith from Texas.
    Mr. Smith. Thank you, Mr. Chairman.
    Secretary Bond, let me return to the subject of Syrian 
refugees. What percentage of Syrian refugees are males overall?
    Mr. Rodriguez. Yeah, actually, I think I should take that 
question.
    Mr. Smith. Okay. Director Rodriguez, then.
    Mr. Rodriguez. Yeah, I believe that it's a minority of 
the----
    Mr. Smith. The U.N. High Commissioner for Refugees says 62 
percent are male.
    Mr. Rodriguez. Well, are we talking about ones that we have 
actually admitted to the United States, or are we talking about 
the overall refugee stream? Because normally what is referred 
to the United States, most typically, are family units.
    Mr. Smith. Okay. Let's go by admitted Syrian refugees. What 
percentage are males and what percentage are males of military 
age, whether they are connected to families or not?
    Mr. Rodriguez. I don't have that specific data in front of 
me, but I can make it available to this committee.
    Mr. Smith. Okay. Well, let me tell you what I think the 
answer is. According to the U.N. High Commissioner for 
Refugees--that is the source for 62 percent are male. Your own 
data says about 25 percent are males of military age, whether 
they are connected to families or not.
    Do you have any reason to believe that that is not the 
case?
    Mr. Rodriguez. I have no reason to believe that that is not 
the case. I would like to get you the exact figures based on 
our experience, but I have no reason to think that that is not 
the case.
    Mr. Smith. The State Department tries to, I think, skew the 
data a little bit, and they say only 2 percent are males 
connected to families. But if you leave off the ``connected to 
families,'' it suddenly expands to about a quarter are males of 
military age. If you don't find any problem with that, that is 
good.
    Let me go to Secretary Taylor for a second.
    Secretary Taylor, what percentage of Syrian refugees are 
you unable to conduct any background check involving third-
party or independent data? In other words, what percentage of 
Syrian refugees in effect have a clean slate except for what 
they themselves tell you?
    By the way, I don't mean by ``clean slate'' that they are 
innocent of any wrongdoing. I am just saying, what percentage 
are you unable to conduct any kind of a background check 
involving independent data?
    Mr. Taylor. We are able to conduct a background check on 
100 percent of----
    Mr. Smith. Right. That wasn't my question. I know you 
conduct background checks. I am just saying, what percentage 
are you able to vet that have independent, third-party data 
that you have access to?
    Mr. Taylor. Sir, I am not sure I understand.
    Perhaps, Director Rodriguez, you would----
    Mr. Rodriguez. Yeah. I think the essence of your question, 
Congressman, is, when we query the various databases that both 
General Taylor and I have described, what percentage of those 
individuals don't show up on those databases at all.
    Mr. Smith. Right. Again, meaning blank slate, you have no 
information on them----
    Mr. Rodriguez. Right.
    Mr. Smith [continuing]. Whatsoever.
    Mr. Rodriguez. I have described to you the cases where 
individuals are in those databases because there is derogatory 
information about them on those databases, and you are asking 
what portion. Happily, actually, a very large portion don't 
have derogatory information about them. I think your question 
is----
    Mr. Smith. Oh, no, I am not--yeah, my question----
    Mr. Rodriguez. No, no. But do we have----
    Mr. Smith. When you have no information about somebody, 
what percentage of Syrian refugees fall into that category?
    Mr. Rodriguez. Well, we generally do have information that 
is beyond just what that individual provides. In other words, 
we are checking also against country conditions. We are----
    Mr. Smith. I know. Again, let me go to my question, and I 
hope you will answer it. What percentage of Syrian refugees do 
you have no independent data on?
    Mr. Rodriguez. A large percentage do not have derogatory 
information in those databases. There is other documentation 
that they present in just about every case.
    Mr. Smith. Okay. I know they don't have any derogatory, but 
I am saying--you are finding nothing. A large percentage, you 
have no information about, one way or the other. You assume, 
because you have no information, that there is nothing 
derogatory. Is that right?
    Mr. Rodriguez. We have other sources of information in 
order to check the veracity of the information that they are 
giving us in the interview context.
    Mr. Smith. Okay. By ``information,'' I am not talking about 
general country conditions. I am talking about on that specific 
individual. Are you saying that in most cases you have no 
third-party, independent data?
    Mr. Rodriguez. Part of what--it depends on what you are 
calling third--in other words, it is true, most of them will 
not appear in the databases because they have done nothing 
wrong----
    Mr. Smith. Right.
    Mr. Rodriguez [continuing]. In those cases.
    Mr. Smith. But if they had done----
    Mr. Rodriguez. We do have----
    Mr. Smith. You don't know for sure whether they have done 
something wrong or not. Is that correct?
    Mr. Rodriguez. Is----
    Mr. Smith. There is no way to guarantee that they don't 
have something in their background that would be suspicious.
    Mr. Rodriguez. We can never 100 percent eliminate risk in 
anything that we do in this life. That is a truth. The fact is 
that we do have a very intensive process to mitigate risk in 
this particular case.
    Mr. Smith. Right. But, again, I think the answer to my 
question is that you said the great majority are individuals 
about whom you have no specific independent data about.
    Mr. Rodriguez. We have other documentation with which to 
check the information that they are giving us in their 
interviews. That is really the point that I am trying to make, 
sir.
    Mr. Smith. Yeah. I guess I am saying, again--and I don't 
hear you contradicting it--yes, you don't have any negative, 
but I am saying you don't have any information whatsoever on a 
majority of them.
    Mr. Rodriguez. No, we do, because the individuals bring 
extensive Government--often bring extensive Government 
documentation. We interview multiple family members; we 
interview multiple members of communities. So there is actually 
a benchmark with which to test the information that they are 
giving us in interview. I think that is a critical fact here.
    Mr. Smith. Right. But, again, that is general information. 
It is not necessarily about that specific individual.
    Mr. Rodriguez. It is both general information and specific 
information about that individual, about that individual's 
community, about that individual's family unit.
    Mr. Smith. But, again, you said most you have no specific 
information about that is negative, shall we say.
    Mr. Rodriguez. That is correct. That is correct.
    Mr. Smith. But, again, you don't know whether there could 
be something else out there that is negative that you don't 
have access to.
    Mr. Rodriguez. Certainly if they are----
    Mr. Smith. Okay.
    Mr. Rodriguez [continuing]. If they are not in the--if the 
derogatory information about them is not in the databases, 
then, yeah, we wouldn't know it unless we got it some other 
way.
    Mr. Smith. Okay. That is what I am looking for.
    Thank you, Mr. Chairman.
    Chairman McCaul. Thank you, Mr. Smith.
    Mr. Keating is recognized.
    Mr. Keating. Thank you, Mr. Chairman.
    I would like to thank all of you for your service to our 
country and helping us keep us safe.
    I did have a question, and it is a really important--I 
think the Ranking Member was going down this line of concern by 
the committee, and that is the resource concern.
    One of the things that I wanted to ask, I guess, Assistant 
Secretary Bond or anyone else who could answer this is the fact 
that we are reviewing social media now, but do we have enough 
linguists available to do the job right now? I have a concern 
that, resource-wise, we are not there yet. Could you address 
that? Is that a problem of resources for you?
    Ms. Bond. In terms of our ability to vet documents, social 
media, other information that is in the local language or in 
another language, for the most part our consular officers are 
trained in the language of the country where they are working, 
and we also have local employees who are, you know, fluent in 
the language and often assist with interpretation and other 
things.
    If need be, we would be able to hire additional people. In 
the case of the State Department's consular work, we are fee-
funded, and we would be able to find the resources if we needed 
to amp them up.
    Mr. Keating. Well, I thought we are expanding in those 
areas beyond the pilots. So if we are, is there enough in the 
pipeline?
    Ms. Bond. Let me ask the colleagues from DHS to talk about 
their programs.
    Mr. Rodriguez. From the perspective of USCIS in, for 
example, the social media screening, as we increase the 
capabilities in that area, we do have access to language 
assistance contracts in whatever the relevant languages might 
be.
    I think you understand that our funding model is 
fundamentally different than everybody else at this table. The 
work we do with respect to refugees and asylees, that the 
resources for that are drawn from the fees that we collect from 
fee-paying immigrants, be they naturalizing citizens, green 
card holders----
    Mr. Keating. All right. Let me just rephrase it then. Do 
you have enough linguists? Forget about your ability to get----
    Mr. Rodriguez. We have access to enough linguists----
    Mr. Keating. For the expansion?
    Mr. Rodriguez. In the near term, we do have----
    Mr. Keating. What about----
    Mr. Rodriguez [continuing]. Enough linguists.
    Mr. Keating [continuing]. If we are planning an expansion, 
which is what I am hearing, do you have enough that you are 
getting in the pipeline now for this expansion, or is there 
going to be a clogging of that?
    Mr. Rodriguez. What we are building right now, yes, we do 
have access to enough resources. We are assessing what our 
long-term needs are going to be, Congressman, to directly 
answer the question I know you are trying to ask.
    Mr. Keating. Thank you.
    I had a question too--I mean, there is a difference, you 
know, with the refugees that are coming in; they don't have the 
same Constitutional rights that an American has. So along the 
lines, Assistant Secretary Bond, with the interview process, I 
am curious, have you tried to incorporate technology into that 
process, in terms of lie detection and other issues, for this? 
Were those things implemented at all in the interview process?
    Because we use those in our country, you know, if there is 
a waiver of someone's--and I was a district attorney before, 
you know, doing investigations, and we incorporate those things 
here. Are they being incorporated as part of your vetting 
process?
    Ms. Bond. Sir, if you are asking specifically about the 
interviews of the refugees, that is a program that is--again, 
we all keep going back to our friend, Mr. Rodriguez, but it is 
his agency that does those interviews. I can answer questions 
with respect to the----
    Mr. Keating. Okay. I should probably--Mr. Rodriguez. I am 
sorry. Thank you.
    Mr. Rodriguez. Yeah. I think your question is do we have 
enough resources for----
    Mr. Keating. No. It is, are you incorporating technological 
devices and equipment that are pretty advanced now, in terms of 
lie detection, as part of that process?
    Mr. Rodriguez. Yeah, I would not talk about the specifics 
of how we use technology in an open hearing, sir. I would be 
happy in a closed setting to describe what we are doing, what 
we are thinking about doing, but I would not venture into that 
area in this setting.
    Mr. Keating. Okay. I can understand the Classified side. 
However, the person that--I understand it, but I think you are 
being a little broad in not answering the question. Because the 
people that are going through it are going to know that it is 
there, so it is not going to catch people by surprise. But we 
will go there and----
    Mr. Rodriguez. So, yeah, I mean----
    Mr. Keating [continuing]. I will do that Classified.
    Mr. Rodriguez [continuing]. Do we use polygraphs in the 
refugee setting? The answer is no, more directly. Again, there 
are other things that I think you would want to know about that 
I would not try to discuss here. But if your direct question 
is: Are we using polygraphs? The answer is no.
    Mr. Keating. Okay. Thank you.
    I just wanted to quickly, in a few seconds--the time frame 
for moving some of these pilots for the social media review in 
these critical areas, can you give us just an idea, a time 
frame when you would be able to expand and how much in the 
future?
    Mr. Rodriguez. Right now, we are conducting manual vetting. 
In other words, we are literally just going into Facebook and 
Google and other sources to identify the social media 
information. That is very slow-going.
    So, in the short term, we are going to be focusing adding 
as quickly as we can just for the Syrians as soon as possible 
so we cover as much of that 10,000 that we are seeking to admit 
this year as we can.
    Longer term, we are looking for technological solutions 
that will permit us to look at that more broadly. I don't know 
what the time line is going to be for actually identifying and 
deploying those technological solutions more broadly.
    Mr. Keating. Okay. Well, thank you. My time is up. Thank 
you again for your service.
    Chairman McCaul. If I could just add to that, in our Visa 
Waiver bill, we did put that the Department needs to look at 
these new technologies for truth detection, if you will.
    Mr. Rogers from Alabama.
    Mr. Rogers. Thank you.
    Mr. Taylor, back in October, we had Director Comey from the 
FBI here, and he was asked if he could tell us with a high 
degree of certainty that he, through the vetting process, could 
assure us that ISIL would not be able to move some of their 
terrorist members into our countries through these refugee 
movements. He basically said, no, that the problem was we 
didn't know what we don't know.
    Here we are, 4 months later, and, to my knowledge, we are 
still in that same situation. So why are you insisting that we 
continue to visit this topic of these 10,000 refugees?
    Mr. Taylor. Well, sir, I believe there are two questions. I 
will ask Director Rodriguez to answer the question on the 
refugee screening, which is more in his line. But I believe 
what Director Comey was referring to was the data that he had 
available within the FBI and within the intelligence community 
about this particular population.
    We know a lot more today about this population than we did 
when he testified back in October, and we continue to learn 
every day. That is our system. I wouldn't want to go 
specifically into how that knowledge base grows, but it grows 
every day. It has grown since 9/11. I would welcome the 
opportunity in a closed session or another session to speak to 
that capacity.
    Mr. Rogers. Well, it grows because we had a lot of room for 
improvement. The problem is we still can't say with a high 
degree of certainty that they won't be able to sneak ISIL 
members in through those groups.
    I have to tell you, Mr. Rodriguez, I have been here--this 
is my 14th year to be honored to serve in Congress. I haven't 
heard an opening statement from a witness I disagree with more 
than yours. I don't know why in the world you think that we 
should have a sense of urgency to accept these refugees, moral 
or otherwise. The fact is the refugees who have left Syria are 
no longer in danger. Our moral obligation is to help make sure 
they have a place to stay, health care, food until we can get 
them safely back into their country.
    We have millions of them in Lebanon, Jordan, Turkey. I can 
understand why you think we would want to be good Americans, 
like we always are, very generous Americans, and help them in 
those areas. But why should we move them into our country? I 
can't understand why you think that is necessary.
    You know, one of the things that came up in the hearing 
when Director Comey was here was we had a group of refugees 
that came up through South America, through Mexico, and came to 
our Southern Border and turned themselves in, wanted asylum. 
Now, those people weren't in danger. They were looking for 
economic opportunity. That is what I think is happening with a 
lot of these people. It is happening in Western Europe, as 
well. These people are not--once they are out of Syria, they 
are not looking for safety anymore; it is all about economic 
security.
    I had the Ambassador from Romania in my office this 
morning, along with a member of parliament. I asked them--
because they were talking about the migration issues have 
really upset Western Europe and Eastern Europe. I asked them, I 
said, well, have you all had a problem with refugees in 
Romania? He started laughing. He said, we are way too poor. The 
only refugees that have come to Romania were there by accident, 
and once they realized they were in Romania, they left and went 
to Germany or someplace with economic opportunities.
    So tell me why we are focused on this instead of removing 
Bashar al-Assad from power so these people can go back home? 
Why are we not working on helping the refugees stay in their 
neighborhood, in encampments or in cities, and bringing them to 
our country, where we know ISIL intends to use them to kill us?
    Mr. Rodriguez. So I think an important starting point for 
this discussion is the fact that since September 11, we have 
admitted 785,000 refugees, 128,000 of those have come from 
Iraq, a number of them have come from other places where there 
is, in fact, an active terrorist threat, Somalia, other parts 
of North Africa. Not a single one of them has actually ever 
engaged in an active attack on the homeland. There have been 
plots that have been disrupted by U.S. law enforcement.
    Mr. Rogers. What percentage of that number has happened in 
the last few months since Paris, and since we have had the 
problem, the attempted attack in Berlin, the attack in San 
Bernardino? You are conflating this into a completely different 
picture. The world has changed dramatically over the last 
several months, and you know that. We now have to be focused on 
where ISIL is and the efforts they are using to get people into 
this country now. I agree, we are a country of immigrants, we 
have had a great, rich history with immigrants, but we have a 
new dynamic right now, and that is not relevant, what you are 
describing is not relevant to this dynamic.
    Mr. Rodriguez. Well, I guess, Congressman, where you and I 
do actually disagree, and I appreciate your highlighting the 
disagreement, is I do not believe that refugee admission is 
purely a moral and humanitarian undertaking. It is that, but it 
is much, much, much more. Has a critical strategic National 
security and foreign policy role.
    If we are not seen as offering opportunity to the very 
victims of ISIL and al-Nusra, then we will have--we will have 
given away a vital part of the battlefield. We have----
    Mr. Rogers. Why do we owe them opportunity?
    Mr. Rodriguez. I am sorry?
    Mr. Rogers. Why do we owe them opportunity?
    Mr. Rodriguez. Because right now, those individuals are 
displaced. They may be safe over the short term. There are 
400,000 children who are not in school.
    Mr. Rogers. We can provide them an opportunity for safety 
in their neighborhood, in Turkey, in Jordan, in those areas. We 
don't have to have them in our country to make sure they stay 
safe, well-fed, and cared for.
    Mr. Rodriguez. That is certainly one reason why the numbers 
that we are taking are relatively small compared to the overall 
number who are in refugee status, and it is something that we 
are doing alongside the other English-speaking countries that 
have made commitments to accept refugees, the other European 
countries that have made commitments. That is also critical. We 
need to work with our allies to deal with this problem 
together. We cannot place ourselves in a posture where we are 
saying it is their problem and not ours.
    That, in my mind, actually does have a National security 
implication if we do not look at it that way, but I understand. 
That is a point on which you and I disagree, sir.
    Mr. Rogers. Thank you, Mr. Chairman.
    Chairman McCaul. The Chair recognizes Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank the 
panel for your testimony today and the work you are doing to 
protect the American people.
    General Taylor, Secretary Bond, you have both highlighted 
some processes that the Federal Government is implementing or 
has already implemented to tighten screening of these 
applicants and refugees, and I think we can all agree that this 
is a--this is vital to ensure that security reviews are as 
thorough as possible and thorough enough to flag any applicant 
with derogatory information in Government databases. However, I 
remain concerned about applicants for whom there is no U.S. 
source intelligence, but for whom there may be intelligence 
from our partners.
    Do you share these concerns? What barriers remain to free 
flow of information between counterterrorism agencies here and 
those abroad, particularly in Europe, which I know have 
stricter or different privacy laws that we have that may 
restrict that information sharing, and we have had testimony, 
both in Classified and open sessions expressing that concern, 
but what can we do to remove them?
    Mr. Taylor. Congressman, thank you very much for that very 
pertinent question. I think I would start out with the 
legislation that recently passed in December, which has 
strengthened the Visa Waiver program to include the HSPD-6 
requirements for information sharing, which not all countries 
in Visa Waiver were--had an HSPD-6 agreement with the United 
States. By the end of this year, all countries will have that 
agreement, and I think that strengthens the intelligence and 
law enforcement exchange that is so vital to this global 
problem.
    The one thing that has been crystal clear to me is that 
terrorists do not honor borders, they do not honor law 
enforcement, they move anywhere that they believe they can move 
with impunity, and the way in which information sharing allows 
our governments and our allies to be more effective in spotting 
those movements, and so that exchange is rich, it is continuing 
and I sense a new sense of urgency in our partners, 
particularly in Europe, to collect the data that is necessary 
to protect their country, and in collecting the--their 
country's collecting that data, to make that data available to 
U.S. authorities on a reciprocal basis.
    Mr. Langevin. So under the agreements that you say is going 
to be in place by the end of the year, you are confident that 
that takes care of all of the problems, that there would be 
no----
    Mr. Taylor. Oh, no, sir.
    Mr. Langevin [continuing]. Information sharing on the 
European side, that they need to change their laws in any way 
to accommodate more robust intelligence sharing?
    Mr. Taylor. All I can say is we have made it very clear to 
our partners in the Visa Waiver program that a necessary 
ingredient in that agreement for Visa Waiver is that we have an 
information-sharing agreement, and that we are insisting on it. 
That begins a process. It is not an end game, but--you know, 
these relationships grow over time, but the framework for those 
relationships will be in place with all of the countries that 
we currently have Visa Waiver agreements with.
    Mr. Langevin. Thank you. Secretary Taylor, in your 
testimony, you state that the Department recognizes the 
technological advances and the evolving nature of the threat 
environment require you to continuously reevaluate and improve 
our screening and vetting process. Can you further elaborate on 
how you are evaluating, and how you are going to enhance the 
way the Department elicits information from applicants, 
identifying new kinds of data that might be valuable, and 
developing new methods to efficiently incorporate this data in 
the Department's systems?
    Mr. Taylor. Well, I would answer that in two ways: First, 
this committee has been very supportive of the initiative of 
the Secretary to create a DHS data framework, and for that 
framework to be effective in sharing data across all of our 
components as opposed to just individual components, which is a 
big step towards how we organize ourselves to use information 
that may be available in one component that is not available in 
another. So that is the first step.
    The second step is these issues are becoming much more 
complicated. In many cases, components will solve their initial 
issue that they want to do with social media, but not solve a 
more broader issue. So what we have--our task force is designed 
to create really a center of excellence for vetting in the 
Department where we are continually striving to look for new 
techniques, tools, processes that help us get better at this, 
not at a suboptimal level in our components, but as a 
Department, and that is our goal going forward.
    Mr. Langevin. Yeah. I think it is essential to be nimble 
and to recognize this technology, especially changes so rapidly 
that we are doing everything we can to incorporate those new 
capabilities into our vetting system to----
    Mr. Taylor. That is our--that is the Secretary's direction, 
and we are moving with all deliberate speed.
    Mr. Langevin. Very good.
    Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. Mr. Duncan from South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman.
    I want to refute one thing that Mr. Rodriguez just said. 
There hadn't been an act of terror, I won't refute it, but I 
want to applaud law enforcement for actually stopping the acts 
of terror that could have been committed by refugees that have 
been granted refugee status in the country. January 7, Texas 
and California, prime examples of Iraqi refugees granted 
refugee status in this country, 2006, 2009, whatever the year 
was. Law enforcement got it right. They actually stopped it, 
and I applaud them for that.
    I thank your men for your service, but the glaring example 
that I just mentioned shows that if you don't vet refugees 
coming into this country, the potential, the possibility of an 
act of terror happening on U.S. soil from someone that comes 
from Iraq or Syria is real.
    Last week, back in the district, I had an opportunity to 
testify before the South Carolina State Senate, possibly the 
first time a United States Congressman has ever testified in 
the general assembly of South Carolina, myself and Congressman 
Mick Mulvaney, on the Syrian refugee issue. South Carolina does 
not want unvetted Syrian refugees to locate in their State, but 
yet the Obama administration continues to try to make that 
happen.
    Since the Syrian civil war broke out, the numbers I have 
are 2,693 Syrian refugees have been admitted into this country. 
For the record, 53 of those were Christian, 33 were non-Muslim, 
the remaining of those were Muslim.
    Mr. Chairman, I would like to submit for the record my 
testimony in the South Carolina Senate last week.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
 Testimony before the SC Senate General Committee by Congressman Jeff 
                             Duncan (SC-03)
                            January 27, 2016
    Chairman Bryant and Members of the General Committee, I want to 
thank you for inviting me to testify before you today on an issue that 
is concerning to me and that poses a grave threat to our National 
security--the refugee resettlement program.
    The United States has been and will continue to be a compassionate 
Nation. We have a long and proud history of welcoming those fleeing 
oppression and persecution in their home nations. However, the safety 
of our citizens must be our No. 1 priority. We must be compassionate, 
but we must also remain cognizant of the threats against our country 
and our citizens. Americans should not be put at risk, nor should we 
sacrifice our National security in that name of compassion. Especially 
when abuse of the refugee resettlement program is a known tactic of 
terrorist groups, keeping Americans safe should be our No. 1 priority.
    In light of the recent attacks by Islamist extremists around the 
world and in our country, I believe that the refugee resettlement 
program should be paused, not only for those coming in from Syria, but 
from any country with strong ties to terrorism--countries that are a 
terrorist sanctuary or safe haven. Most recently what comes to mind are 
the two Iraqi-born refugees arrested in Houston, Texas and Sacramento, 
California. One refugee came into the United States via the refugee 
resettlement program in 2012 and left to fight in Syria with various 
terrorist groups only to come back to the United States in 2014 and 
settle in California. The Houston-settled refugee came to the United 
States in 2009 and is believed to have been radicalized within the 
States. He was arrested for providing material support to ISIS. This is 
precisely why we cannot be too careful when it comes to our National 
security. It is unacceptable that we are unable to monitor those coming 
into the United States and leaving the States to fight for terrorism. 
Until we can ensure that our citizens are safe, the refugee 
resettlement program should be halted.
    In February 2015, Assistant Director of the FBI's Counterterrorism 
Division, Michael Steinbach, testified before the House Homeland 
Security Committee on which I serve. Mr. Steinbach was very blunt and 
honest when it came to the threat here at home of those who have fought 
with terrorist groups overseas such as ISIS and then come to the United 
States: ``We don't have it under control . . . it's not even close to 
being under control.'' Additionally, Steinbach said that the databases 
on the ground in Syria just do not have the information needed to 
properly vet refugees coming into the United States. According to 
Steinbach, it's impossible to screen out terrorists that could be 
hiding among refugees. They are a ``population of concern.'' U.S. 
National Intelligence Director James Clapper has stated that ISIS 
infiltrating the refugee process is a ``huge concern of ours.'' Most 
recently, in October of 2015, FBI Director James Comey testified before 
our committee and said that our vetting process of refugees will not 
identify a terrorist who willfully avoids the obvious checks in place 
to identify them; in fact, through one of the only means we have to 
identify the threats--state documents of fallen, warring, or 
distrustful countries. Furthermore, he says that the records on people 
in Syria are lacking. ``You can only query what [information] you've 
collected. We can query our databases until the cows come home, but . . 
. nothing will show up because we have no record on that person.'' Even 
with decades of information on Iraqi refugees, we still cannot screen 
out potential terrorists, as seen with the arrest of the 2 Iraqi 
refugees in 2009 in Kentucky and the arrests made just this year. How 
then can we be sure that with so little information on Syrian refugees 
that terrorists are being screened out? The answer is simple: We 
cannot. When our top National security officials admit statements like 
these, and terrorists are being arrested already in the States that 
entered through the resettlement program, and then the President says 
that the United States will accelerate the resettlement of Syrian 
refugees in fiscal year 2016 to admit 10,000 refugees into the States, 
I see a President who is more concerned with his legacy than he is with 
the safety of American citizens and our National security.
    Another area of resettling Syrian refugees that is deeply 
concerning is how readily available fake Syrian passports have become. 
Fake passports are of course not a new issue, but because so many 
countries have said that they will accept more Syrian refugees, the 
demand for Syrian passports have increased. In Paris, one of the 
attackers had a fake Syrian passport. The Washington Post has reported 
extensively on the thriving black market for Syrian passports. People 
from Egypt, Iran, India, Albania, Somali, Kosovo, Pakistan, and Tunisia 
have all falsely identified as Syrian to attempt to gain entry into 
Europe or the United States. When President Obama announces that the 
process for admitting Syrian refugees will be expedited, we are 
essentially laying out a welcome mat for terrorists to enter the United 
States by simply obtaining a fake passport. I have provided a copy of 
that article for your convenience.
    As a Member of the House Homeland Security Committee, I am working 
with my colleagues in order to ensure the safety of the Third District, 
South Carolina, and the United States. In early October last year, I 
cosigned a letter led by Representative Schweikert from Arizona 
requesting more information from the administration on the vetting 
process of refugees. As of today, we have yet to receive a response. 
Furthermore, I am a cosponsor of Representative Babin's legislation 
which would pause the resettlement of refugees within the United States 
until Congress passed a joint resolution giving the Department of 
Homeland Security (DHS) the authority to resume the program. I am also 
a cosponsor of Representative Poe's bill which prohibits the Office of 
Refugee Resettlement from resettling any refugee in a State whose 
government has communicated to the Office that the State government 
does not consent to such resettlement. This would include South 
Carolina.
    In November of last year, by a vote of 289-137, the House passed 
the American Security Against Foreign Enemies Act introduced by the 
Chairman of the Homeland Security Committee, Michael McCaul. While this 
bill is not the final solution, it is a good first step in the right 
direction. Under this legislation, background checks of refugees are 
strengthened, the resettlement process is slowed down, and 
accountability and Congressional oversight is increased on refugees 
entering the United States. This legislation now awaits a vote in the 
Senate.
    The issue of keeping our country safe and not putting American 
lives at risk is of great concern to me and many of my colleagues in 
Congress. I have heard from many of my constituents and I share their 
concerns. It is because of their feedback and our concern for South 
Carolina and the United States that I have introduced legislation along 
with my friend and colleague, Senator Cruz, that would empower States 
to use their Tenth Amendment authority to opt out of the National 
refugee resettlement process. Under our legislation, the Federal 
Government must notify States of its intent to place refugees within 
their borders and allows Governors to reject that resettlement if a 
Governor believes that refugee poses a security threat.
    I applaud the work that you have done and continue to do to protect 
the citizens of South Carolina. When the President is more concerned 
about his accomplishments rather than safeguarding our National 
security, more of the burden rests on the States to ensure the safety 
of its citizens. I believe that S. 997, a bill regarding refugees and 
voluntary resettlement organizations, takes significant steps to ensure 
the safety of South Carolina. National security officials admit that 
our vetting process is not adequate; significant risks remain; Syrian 
refugees are a population of concern. I am supportive of any 
legislation that slows down to process for encouraging refugees to be 
resettled in South Carolina and gives ample time for the public's 
concerns to be not only heard but acknowledged. Until these concerns 
and threats are mitigated, we have an obligation to take these 
necessary steps to protect American citizens.
    Ensuring the safety and security of the American people is a 
continuous responsibility and of utmost importance. We must be 
constantly vigilant. The President has yet to lay out a clear strategy 
to combat ISIS, and continues to show a complete lack of seriousness to 
the complex and destructive dangers lurking in the threat of an 
unaccountable vetting process. When our Government fails to combat 
Islamist extremism--an ideology that goes directly against our values 
and ideals as Americans--but instead opens the doors for refugees 
potentially infiltrated by terrorists to come into the United States, 
you at the State and local level must take a stand against this 
irresponsible policy and ensure that our States are safe.
    Once again, thank you for inviting me to testify here today. May 
God continue to bless South Carolina and may God bless America.

    Mr. Duncan. Thank you.
    In 2011 or 2012, Mr. Chairman, you and I traveled to 
Afghanistan, and there, at a forward operating base, we met a 
gentleman that was assisting the United States military as a 
translator. His name was Hollywood. After we left, we were 
contacted by a former Member of Congress, Charles Djou from 
Hawaii, who served with that unit at that forward operating 
base, knew Hollywood well, saw him want to pick up a gun and 
fight the Taliban, who was threatened by the Taliban for being 
an interpreter for this country. Charles Djou asked us, former 
Congressman Djou asked us to assist Hollywood with coming into 
this country under the asylum program for interpreters that 
help our country.
    It took over 2 years for this gentleman, who was verified 
by the general of the Third Army 10th Mountain Division, who 
was verified by the unit that he assisted, who had Members of 
Congress writing letters for him, who had General Petraeus, for 
goodness sakes, had met the gentleman and vouched for him, took 
2 years to get that gentleman here under that program. We 
scrutinized his background, but we are going to allow unvetted 
Syrian refugees from an area that ISIS, who has declared war on 
the United States, whether we have declared war on them or not, 
has said they will infiltrate that refugee program and also 
exploit the migration program in Europe, and that is a whole 
other topic, of foreign fighter flow, of Visa Waiver program, 
of Schengen, of the ability for someone who has a long-term 
vision to get into Europe and eventually come into this country 
under those programs, but we are going to allow unvetted Syrian 
refugees into this country? These policies of the Obama 
administration put Americans at risk, because we don't know who 
is coming into that country by allowing unvetted Syrian 
refugees.
    You guys can say we are doing the best job we can, we are 
vetting, but Director Comey refutes that. He said we are trying 
to do better, we got it on testimony, but we are not very good 
at it. We can't tell you that we have vetted these folks, 
because the information isn't available. The records have been 
destroyed, they have been stolen. Someone from Syria can travel 
into Turkey, and for $600, buy a new identity, a new passport.
    So Mr. Chairman, I appreciate us continuing to raise 
awareness of this issue with Syrian refugees. I am amazed that 
an administration that wants to expand background checks for 
law-abiding American citizens exercising their Second Amendment 
Constitutional rights will refuse to do the background checks 
necessary on possibly Syrian refugees.
    With that, Mr. Chairman, I yield back.
    Chairman McCaul. I thank the gentleman. The Chair 
recognizes Mrs. Torres from California.
    Mrs. Torres. Thank you, Mr. Chairman. I want to begin by 
asking--I would like to ask unanimous consent for statements 
from a coalition of faith-based and advocacy groups to be 
entered into the record.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]
      Statement of the American-Arab Anti-Discrimination Committee
                            February 3, 2016
                              introduction
    I am writing to you on behalf of the American-Arab Anti-
Discrimination Committee (ADC), the country's only National Arab-
American organization. ADC has a long history of supporting the human 
and civil rights of all Americans and opposing racism, discrimination, 
and bigotry in any form. ADC was founded by former U.S. Senator James 
Abourezk in 1980. Today, ADC is the largest grassroots Arab-American 
civil rights and civil liberties organization in the United States. ADC 
is non-profit, non-sectarian, and non-partisan, with members in every 
State of the United States. ADC routinely works with a broad coalition 
of National organizations and Government agencies to address 
immigration, refugee, and humanitarian crisis in the Middle East and 
Arab region. ADC respectfully takes this opportunity to provide a 
statement for the record to U.S. House Homeland Security Committee 
hearing entitled Crisis of Confidence: Preventing Terrorist 
Infiltration Through U.S. Refugee and Visa Programs.
                               statement
    The passage into law of the Visa Waiver Program Improvement and 
Terrorist Travel Prevention Act is a poor reflection of America, and 
the fundamental rights and principles we are obligated to respect, 
protect, and defend. The ideal aim of strengthening the security of our 
Nation does not equate to shutting down our borders, abandoning our 
American values, and turning our backs on human beings in need because 
of their National origin, ethnicity, and/or religion. Isolation and 
discrimination has never been and should never be the solution.
    National origin and dual citizenship alone does not predicate a 
National security threat. It is not black and white, nor simple to 
suggest that the bill just requires individuals to get a visa. The bill 
is not just a visa requirement, it is discriminatory. Section 3 imposes 
a mandatory bar to all persons whom are dual citizens of Syria, Iraq, 
Sudan, and Iran is blatant profiling on its face. Only nationals of 
particular countries regardless of whether they have traveled to a 
terrorist support country or not, have to meet additional requirements 
they would not otherwise have to go through if they were not Arab. 
There is no separate assessment and/or security review done that 
determines that specific person on a case-by-case basis is a security 
threat, non-related to their identity, place of birth, or country of 
National origin.
    Historically immigration programs with sweeping powers to exclude 
people based on nationality, race, ethnic origin, or religion have 
proven to be ineffective. In 2002, the U.S. Government established the 
special-registration program under National Security Entry-Exit 
Registration System (NSEERS) requiring heightened registration and 
scrutiny of people in the United States who came from mostly Arab and 
Muslim countries. NSEERS was initially portrayed as an anti-terrorism 
measure which required male visitors to the United States from 25 Arab 
and Muslim countries to be fingerprinted, photographed, and questioned 
by immigration officers. Many whom complied with registration were 
arbitrarily detained and deported. NSEERS proved to be an ineffective 
counter-terrorism tool, and has not resulted in a single known 
terrorism-related conviction. We also should not forget the detrimental 
ramifications of blanket immigration exclusion and discrimination 
against Asians with the Chinese Exclusion Act.
    Our Governmental agencies--the U.S. Department of Homeland Security 
(DHS), the Federal Bureau of Investigations (FBI), the Department of 
Defense (DOD), and the National Counterterrorism Center (NCTC) have the 
capacity to properly screen visa holders and refugees and prior to 
entrance into the United States.\1\
---------------------------------------------------------------------------
    \1\ See U.S. Refugee Admission Program, http://www.state.gov/j/prm/
raiadmissions/index.htm.
---------------------------------------------------------------------------
    The United States has a rigorous security vetting system for 
refugees. The United States selects refugees for protected status that 
are living outside of war-torn/armed conflict areas, mainly women, 
children, and torture victims whom have fled for their lives to U.N. 
refugee camps and resided in refugee camps for years. Refugees undergo 
multiple levels of rigorous security checks by all our Federal 
immigration and intelligence agencies immediately prior to their entry 
into the United States even after status approval. DHS conducts several 
security checks and interviews overseas to make sure refugees meet the 
legal definition for a refugee--requiring demonstrable proof that were 
persecuted or feared persecution in their home country. Plus additional 
strenuous security provisions have been put in place for a 2-year 
special screening and examination of each refugee application.\2\
---------------------------------------------------------------------------
    \2\ Elise Foley, Refugee Screenings Are More Intensive Than Some 
Politicians Would Have You Think, Huff Post, Nov. 17, 2015, http://
www.huffingtonpost.com/entry/refugee-screening-
processsyrians_564b55ece4b045bf3dtDece7.
---------------------------------------------------------------------------
    The United Nations Refugee Agency also has a robust vetting 
process. The United Nations Refugee Agency conducts an extensive 
vetting process that can take several months to a year with multiple 
levels of clearances before the U.S. vetting and security checks 
process even begins. Strict security measures implemented include 
mandatory biometrics--eye scans and fingerprinting, collection of all 
biographical data, fact and corroboration in-person interview checks 
and extensive identity research through inter-Government intelligence 
and criminal databases.
    ``Empirically, historically, we don't see terrorists trying to 
embed people in refugee flows exactly because they are so highly 
vetted,'' agreed Gary Shiffman, former chief of staff for Customs and 
Border Protection at DHS and the CEO of Giant Oak, a company that 
analyzes large data sets to help address terrorism and crime 
problems.\3\ Congress must uphold its responsibility to help the 
millions of human beings that have fled for their lives and many whom 
have died trying to escape indiscriminate violence, on-going civil war, 
rape, torture, and death. We are undisputedly facing a global refugee 
crisis.
---------------------------------------------------------------------------
    \3\ Rachel Oswald, GOP, Democrats Gear Up to Clash Over Refugee 
Program, CQ NEWS, Nov. 12, 2015.
---------------------------------------------------------------------------
    Congressional actions that contradict and/or attempt to undermine 
the purpose and existence of the refugee program to save human lives, 
through measures to effectively shut down the refugee program and/or 
engage in National origin and/or religious profiling of refugee 
applications must be prohibited. Refugee status is granted and/or 
extended to provide temporary protection in the United States for all 
persons subjected to persecution or in fear of persecution based on a 
protected characteristic including religion and national origin. The 
United States cannot pick and choose based upon a person's race, 
national origin, or religion whether to grant refugee status. How can 
we single out and treat people differently who are seeking protection 
for the exact same reason?
                               conclusion
    All refugees fear terrorism as much if not more than Americans, 
like any human being. Refugees are the daily targets and victims, 
suffering immense direct persecution by terrorists. We cannot allow and 
perpetuate the automatic exclusion of legitimate visa holders based 
upon their national origin, ethnicity, and/or religion. The reactionary 
Government actions following the Pearl Harbor attack--Japanese 
internment camps and 9/11--arbitrary detention and surveillance of 
Arabs--are cautionary tales that we must heed to now and remember that 
we cannot let fear erode respect and protection of civil and human 
rights.
                                 ______
                                 
                   Statement of Church World Service
                            February 3, 2016
    As a 70-year old humanitarian organization representing 37 
Protestant, Anglican, and Orthodox communions and 33 refugee 
resettlement offices across the country, Church World Service urges the 
committee to affirm the importance of the current U.S. refugee 
resettlement program, which has the most robust National security and 
screening procedures in the world. CWS urges all Senators to reject any 
proposals that would stop, pause, or otherwise hinder, refugee 
resettlement or put at risk vital funding for refugee protection 
overseas and resettlement in the United States.
    To be considered a refugee, individuals must prove that they have 
fled persecution due to their nationality, ethnicity, religion, 
political opinion, or membership in a particular social group. Refugees 
face 3 options: Return to their home country, integrate in the country 
to which they first fled, or be resettled to a third country. For the 
millions who are unable to return home due to significant threats to 
their safety and rejection by the country to which they first fled, 
resettlement is the last resort. Indeed, resettlement saves lives and 
also helps encourage other countries to provide durable solutions for 
refugees within their borders, including local integration. While less 
than 1 percent of the world's estimated 19.5 million refugees are 
resettled to a third country, the United States is 1 of 28 countries 
that resettles refugees.\1\ The U.S. Refugee Admissions Program (USRAP) 
is a public-private partnership that helps rescue refugees who have no 
other means of finding safety, prioritizing refugees who are especially 
vulnerable. Of the Syrian refugees who have been resettled in the 
United States, 77 percent are women and children.\2\
---------------------------------------------------------------------------
    \1\ United Nations High Commissioner for Refugees. Resettlement. 
2016. http://www.unhcr.org/pages/4a16b1676.html.
    \2\ ``Myths and Facts: Resettling Syrian Refugees,'' U.S. 
Department of State. http://www.state.gov/r/pa/prs/ps/2015/11/
250005.htm.
---------------------------------------------------------------------------
    Security measures are intrinsic to the integrity of the U.S. 
refugee resettlement program, which is the most difficult way to enter 
the country. All refugees undergo thorough and rigorous security 
screenings prior to arriving in the United States, including but not 
limited to multiple biographic and identity investigations; FBI 
biometric checks of applicants' fingerprints and photographs; in-depth, 
in-person interviews by well-trained Department of Homeland Security 
officers; medical screenings; investigations by the National 
Counterterrorism Center; and other checks by U.S. domestic and 
international intelligence agencies. In addition, mandatory supervisory 
review of all decisions, random case assignment, forensic document 
testing, and interpreter monitoring are in place to maintain the 
security of the refugee resettlement program. Syrian refugees are also 
undergoing iris scans to confirm their identity, and must affirmatively 
prove that they are not affiliated with a terrorist group.\3\ As a 
result, refugees are the most vetted individuals to travel to the 
United States. Visa processing for other populations is separate and 
different than the resettlement process.
---------------------------------------------------------------------------
    \3\ Dara Lind, ``The US is so paranoid about Syrian refugees that 
it's letting barely any in.'' Vox. Nov. 16, 2015. www.vox.com/
explainers/2015/11/16/9745318/syrian-refugees-us-isis.
---------------------------------------------------------------------------
    In January 2016, the Department of Justice announced the arrest of 
2 Iraqi men, Aws Mohammed Younis Al-Jayab in Sacramento, California and 
Omar Faraj Saeed Al Hardan in Houston, Texas.\4\ While neither of the 
accused have been charged with attempting to commit any terrorist 
activities within the United States\5\, Al-Jayab was indicted for 
providing false statements in a terrorism investigation \6\ and Al 
Hardan was charged with making false statements to U.S. officials, 
unlawfully procuring immigration status, and providing ``material 
support'' to ISIL.\7\ CWS condemns the actions of these 2 individuals, 
and applauds the diligent work of the FBI and law enforcement agencies 
in bringing these individuals to justice. These individuals are in no 
way representative of refugees resettled in the United States, who 
continuously contribute to our society and communities, and we cannot 
blame an entire group of people for the actions of 1 or 2 individuals. 
Refugees are the most scrutinized group of travelers to enter the 
United States. The Department of Homeland Security continually works to 
strengthen the security screening process, including the addition of 
new interagency checks in 2011 that now run constantly while a case is 
being considered. Refugees also undergo additional rounds of security 
reviews when they apply for lawful permanent residency after 1 year of 
arriving in the United States and when they apply for citizenship after 
5 years.
---------------------------------------------------------------------------
    \4\ Dara Lind, Two Iraqis who came to the US as refugees arrested 
on terrorism charges: what we know. Vox. Jan. 8, 2016. http://
www.vox.com/2016/1/8/10735906/iraqi-refugees-isis-terrorism.
    \5\ Dara Lind, Two Iraqis who came to the US as refugees arrested 
on terrorism charges: what we know. Vox. Jan. 8, 2016. http://
www.vox.com/2016/1/8/10735906/iraqi-refugees-isis-terrorism.
    \6\ Compl. at  5-16, United States v. Al-Jayab, No. 2:16-MJ-1 
(E.D. Cal. Jan. 6, 2016). http://www.justice.gov/opa/file/811696/
download.
    \7\ [Illegible as provided to the committee].
---------------------------------------------------------------------------
    As a Nation, we must grapple with the fact that terrorist groups 
are attempting to recruit American youth from all walks of life, 
ethnicities, and statuses into their ranks, and this must be stopped. 
Most individuals who have been recruited are U.S.-born citizens. There 
are community-based programs that engage and educate youth about these 
dangers and have effectively dissuaded many young people from joining 
terrorist groups. These programs are central to protecting young people 
and preventing terrorist recruitment on our soil, and should be 
supported and replicated across the country. This is an issue that is 
bigger than refugees or immigrants, and we as Americans all need to 
face it together.
    Meanwhile, Syria is experiencing the worst humanitarian crisis the 
world has seen in 20 years, with approximately 4 million refugees and 8 
million internally displaced persons. Roughly three-quarters of those 
displaced are women and children. Lebanon, Jordan, Turkey, Iraq, and 
Egypt currently host more than 3 million Syrian refugees. This crisis 
is complex and requires a variety of solutions, including refugee 
resettlement, which plays a strategic role in alleviating pressure on 
host countries in the region, demonstrating international leadership, 
and providing durable solutions and opportunities for a new life for 
vulnerable populations fleeing persecution. The United States has a 
proud tradition of welcoming refugees and such leadership is needed now 
more than ever.
    CWS calls on Congress to support resettlement as a lifesaving 
program and affirm the need to increase the resettlement of Syrian 
refugees during this time of crisis. We call on our elected officials 
to stand with the millions of Americans across the country who are 
donating to help refugees abroad and volunteering to welcome refugees 
in their communities. CWS stands committed to working with both 
chambers of Congress and the administration to resettle refugees as 
part of the implementation of our foreign policy and humanitarian 
responsibilities to provide safety to vulnerable refugees from Syria 
and beyond.
                                 ______
                                 
        Statement of Disciples Refugee & Immigration Ministries
                            February 3, 2016
    As a North American Christian faith movement of over 600,000 which 
was birthed on the American frontier, our heritage of congregations 
assisting refugees goes back more than over 75 years. We are grateful 
to be part of a faith tradition that has spoken again and again of our 
key faith value of welcoming the stranger despite religious or cultural 
background. Since WWII, the Christian Church (Disciples of Christ) in 
the United States and Canada has worked through our Disciples Home 
Missions office of Refugee & Immigration Ministries, in partnership 
with Church World Service, to resettle over 40,000 refugees in the past 
6 decades.
    Now, in these days when our world is facing the worst humanitarian 
crisis since the end of World War II, we re-affirm strongly our 
readiness to continue to embrace refugees, and to welcome them without 
exclusion. We are ready to do so because we are called to love our 
neighbor as ourselves. Indeed, in light of the reality of over 60 
million displaced persons and 20 million refugees in the world, we 
strive for a greater goal of hospitality--one which our history has 
shown is attainable through strong public-private partnerships.
    We believe that, just as the United States admitted over 650,000 
European refugees during WWII, and between 100,000-200,000 Southeast 
Asian refugees for over a decade and a half after the Vietnam War, we 
are capable now to safely admit even greater numbers of refugees 
fleeing violence. We recognize that the multiple existing levels of 
refugee security screenings mean refugees are the most heavily 
scrutinized of all arrivals into the United States. As 1 of 28 
countries which resettles refugees, we are grateful for each of these 
security screenings pre-arrival; including many biographic and identity 
screenings, FBI biometric checks of fingerprints and photos, detailed 
interviews with trained DHS officers, medical screenings, identity 
research through the National Counterterrorism Center, as well as 
additional domestic and international intelligence checks.
    Syrian refugees likewise undergo additional iris screenings and 
tests to determine their non-affiliation with any terrorist group. This 
amount of security is appropriate and of greatest importance. 
Additionally, for U.S.-born and foreign-born youth in the United 
States, we emphasize the continuing need for youth programs which 
educate youth about the dangers of affiliating with any efforts of 
recruitment into terrorist activities. Yet, we remind Congress that the 
arrests of 2 Iraqi men in January 2016 from Houston and Sacramento are 
not characteristic of the tens of thousands of refugees who 
consistently contribute to the economic and social fabric of our 
communities.
    In our international partnerships in mission, we have consistently 
observed families struggling desperately to stay together, and even to 
remain alive, because of the spiral of violence in their homelands. We 
commend the U.S. commitment of $4.5 billion to the region. Yet, as we 
encourage other international communities to increase their 
contributions, we advocate for the United States to offer additional 
humanitarian aid to counter root causes in the Middle East, where the 
majority of refugees remain. Together with multiple faith partners, we 
urge that a negotiated solution to the Syria crisis be made a top U.S. 
diplomatic priority, and that armed involvement of partners must cease, 
together with provision of arms, and training of opposition groups.
    We see many Christians, Muslims, Jews, and families of other faiths 
persecuted. As we support relationships of peace and solidarity across 
religious divides internationally, in our own Nation we must counter 
anti-Muslim sentiment at every turn--allowing us to offer protection to 
refugees in great need. By so doing, we will welcome opportunities for 
relationship with hard-working doctors, lawyers, teachers, business 
owners, coaches, pastors, imams. There is a moral challenge directly 
before us. Our congregations are constantly expressing their 
willingness to help house, teach English, mentor, employ, and surround 
the world's most vulnerable people--and we are ready to continuing to 
partner in welcoming all who come to our shores.
                                 ______
                                 
                 Statement of Franciscan Action Network
                            February 3, 2016
    Franciscan Action Network, a national organization of Franciscan 
men and women, professed religious and lay persons, supports the United 
States refugee resettlement program and urges all legislators to reject 
any proposals that would stop or hinder resettlement of refugees in the 
United States. FAN also supports H.R. 4380, the bipartisan Equal 
Protection in Travel Act of 2016.
    To achieve refugee status, individuals must prove that they have 
fled persecution due to their nationality, ethnicity, religious, 
political opinion or membership in a particular social group. Images 
and stories of refugees from Syria fleeing violence and persecution 
appear in U.S. media almost every day, and the United States is 1 of 28 
countries that resettles refugees. Of the Syrian refugees that have 
been resettled in the United States, 77 percent are women and children.
    The Department of Justice announced the arrest of 2 Iraqi men in 
January, for providing false statements in a terrorist investigation, 
though neither was charged with attempt to commit terrorist activities 
in the United States. Their actions are to be condemned, but they do 
not represent the majority of refugees resettled in our country. 
Refugees are the most vetted group of travelers to the United States, 
undergoing a stringent scrutiny process which the Department of 
Homeland Security continually works to strengthen.
    Syria is experiencing one of the worst humanitarian crises the 
world has seen in modern history with at least 4 million refugees and 8 
million internally displaced persons trying to escape violence, 
persecution, and even hunger. Most of these are women and children. FAN 
urges Congress to support resettlement as a life-saving program.
    FAN also supports the Equal Protection in Travel Act of 2016 (H.R. 
4380), bipartisan legislation to repeal the travel restrictions 
targeting dual nationals included in the Fiscal Year 2016 Omnibus 
Appropriations Act passed in December, 2015. These changes to the U.S. 
Visa Waiver program were a reaction to the November 2015 terrorist 
attacks in Paris and discriminate against dual nationals of Iran, Iraq, 
Sudan, and Syria solely due to their ancestry and not to any decision 
or action on their part. Such discrimination violates American values 
and tradition. FAN commends the bipartisan group of legislators who 
introduced the Equal Protection in Travel Act of 2016 to repeal these 
travel restrictions for dual nationals and strongly urges Congress to 
pass this legislation.
                                 ______
                                 
Statement of Yasmine Taeb, Legislative Representative for Human Rights 
      & Civil Liberties, Friends Committee on National Legislation
                            February 3, 2016
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee: I am honored to submit this testimony for the record on 
behalf of the Friends Committee on National Legislation.
    Quakers are challenged to answer that of God in all people and 
therefore called to act with openness to all refugees, regardless of 
their country of origin or religion. The Friends Committee on National 
Legislation (FCNL) calls on Congress to treat refugees with the same 
dignity and respect and urges the committee to support the U.S. refugee 
resettlement program.
    Since 1943, FCNL has lobbied Congress to prevent war, protect 
vulnerable populations, and support effective, principled policies to 
help build a more peaceful world. Perhaps the most vulnerable 
population today is those who are displaced world-wide--approximately 
60 million people and the highest numbers since World War II. Syrian 
refugees seeking resettlement world-wide total nearly 4.6 million with 
another 8 million internally displaced. Turkey, Lebanon, Jordan, Iraq, 
and Egypt are currently hosting 4.45 million Syrian refugees while the 
United States has been able to resettle only around 2,000. Of the 
Syrian refugees who have resettled in the United States, 77 percent of 
them are women and children.\1\
---------------------------------------------------------------------------
    \1\ Myths and Facts: Resettling Syrian Refugees, U.S. Department of 
State, November 25, 2015, http://www.state.gov/r/pa/prs/ps/2015/11/
250005.htm.
---------------------------------------------------------------------------
    FCNL urges Members of Congress to reject any proposals that would 
stop, pause, or obstruct refugee resettlement in the United States. The 
United States has a history of welcoming refugees and immigrants. Since 
1975, the United States has successfully resettled more than 3 million 
refugees. The United States has the most secure, vetted, and robust 
refugee screening process in the world, which involves the Department 
of Homeland Security, the FBI, the Department of Defense and multiple 
intelligence agencies. The entire vetting process, which includes 
biometric and investigatory background checks, fingerprints, 
photographs, and in-person interviews, takes 18 to 24 months. Syrian 
refugees also undergo iris scans to verify their identities and must 
prove that they are not affiliated with any terrorist group.
    As a faith community, FCNL urges Members of Congress to speak up 
and speak out against derogatory, inflammatory, and fear-mongering 
rhetoric about refugees; it has no place in response to any 
humanitarian crisis. FCNL unequivocally opposes any legislation or 
proposal that prioritizes Christian refugees at the expense of Muslim 
refugees and individuals from other faiths resettling in the United 
States. It is our responsibility as Americans to welcome those most in 
need, offer refuge, and lift up our shared humanity.
    People around the United States are ready and willing to welcome 
refugees into their homes, communities, and hearts. Higher walls do not 
make our communities safe or thriving; building stronger bridges does. 
We are called as people of faith to work in community with and answer 
that of God in each person--we ask that Congress do the same and 
welcome refugees with open hearts and minds.
                                 ______
                                 
                           Statement of HIAS
                            February 3, 2016
    Throughout our history, America has been defined by our generosity 
toward those who seek a safe haven from oppression. Welcoming refugees 
honors both our country's history and reflects the deeply-held American 
and Jewish tradition of offering a chance at a new beginning to those 
who seek safety and freedom. Once given that opportunity, refugees and 
asylees become active and productive members of American communities.
    National security and resettling refugees are not mutually 
exclusive. Refugees are subject to the highest level of security checks 
of any other population applying to enter the United States. The U.S. 
Refugee Admissions Program can offer safety and maintain our position 
as a global humanitarian and resettlement leader while still protecting 
the United States from possible threats.
    HIAS, the global Jewish nonprofit that protects refugees, is deeply 
committed to preserving refugee resettlement in the United States. The 
Jewish community has been disheartened by attempts by Congress to pause 
or shut down refugee resettlement in the name of National security. 
This concern was reflected in the attached letter signed by nearly 
1,300 rabbis from across the country urging legislators to preserve the 
U.S. refugee resettlement program. The history of this program has 
shown its effectiveness in providing safety to refugees while keeping 
out those that seek to cause harm. The existing security vetting 
measures that are in place for refugees are extensive, intricate, and 
immensely effective.
    Most refugees are chosen based on vulnerability and referred by the 
United Nations to the United States. Most refugees do not choose where 
they are resettled. Once a refugee is referred to the United States for 
resettlement, his or her biographic and biometric data is collected. 
Highly-trained officers conduct in-depth interviews with to confirm the 
refugee's identity and eligibility for resettlement. All of the 
refugee's information is then compared to U.S. law enforcement and 
intelligence databases. The process usually takes between 18 and 24 
months. If there is doubt about a refugee's story or intentions for 
coming to the United States, that person is not admitted. Before 
refugees arrive they are provided with cultural orientation designed to 
help them better understand the United States and to help them cope 
with potential challenges.
    As new security concerns emerge, changes are made to the screening 
process to address them. Most recently, an additional layer of review 
was added for all Syrian refugees. The Department of Homeland Security 
oversees this ``enhanced review,'' which may result in the case being 
referred to the Fraud Department at U.S. Citizenship and Immigration 
Services (USCIS) and the National Security Directorate.
    Resettlement does not only benefit the refugees, who are often the 
victims of terrorism, but it also provides value to U.S. security. 
Maintaining our proud legacy of resettling refugees in the United 
States undermines the rhetoric of ISIS that says the West and Islam are 
at war and that Muslims are not welcome. Refugee resettlement also 
helps to provide stability to important allies in the region like 
Jordan in Turkey who are hosting millions of refugees.
    In the aftermath of World War II, when the price for keeping doors 
closed to refugees due to fear was made starkly clear. In 1939, the 
United States refused to let the S.S. St. Louis dock in our country, 
sending over 900 Jewish refugees back to Europe, where many died in 
concentration camps. We could not tell the difference between an actual 
enemy and the victims of an enemy. We can learn from our mistakes, 
continue to improve our systems, and make use of the tools available to 
keep our country safe without sacrificing protection of the most 
vulnerable.
                                 ______
                                 
         Statement of Lutheran Immigration and Refugee Service
                            February 3, 2016
    Lutheran Immigration and Refugee Service (LIRS) appreciates the 
opportunity to submit its views on the United States Refugee Admissions 
Program. As the national organization founded by Lutherans to serve 
uprooted people, LIRS is committed to helping those who have been 
forced to flee their homes find protection. Following God's call in 
scripture to uphold justice for the sojourner, LIRS serves as a leader 
in calling for the protection of vulnerable migrants and refugees, 
including children and families from Syria.
    For over 75 years, LIRS has worked to welcome over 500,000 refugees 
to the United States on behalf of the Evangelical Lutheran Church in 
America, the Lutheran Church-Missouri Synod and the Latvian Evangelical 
Lutheran Church in America. In fiscal year 2015, LIRS and its refugee 
resettlement network partners welcomed over 10,500 refugees to their 
new communities and empowered them to build new lives.
    Resettlement in a third country is considered a durable solution 
and a last resort for only a small fraction of the world's most 
vulnerable refugees. LIRS is proud to be 1 of 9 organizations that 
partners with the Federal Government, particularly the Department of 
State's Bureau of Population, Refugees, and Migration (PRM) and the 
Department of Health and Human Services' Office of Refugee Resettlement 
(ORR) to be a part of this solution.
    The United States Refugee Admissions Program (USRAP) that is 
located within the Department of Homeland Security (DHS), U.S. 
Citizenship and Immigration Services (USCIS) agency continually 
achieves its dual mission to offer resettlement opportunities to 
eligible refugees while safeguarding the integrity of the program and 
the United States' National security. To protect U.S. National 
security, DHS provides advanced training to its refugee adjudicators on 
security protocols, fraud detention, and fraud prevention. In addition, 
each refugee considered for resettlement in the United States goes 
through a multi-layered screening process before coming to the United 
States. These processes include multiple biographic and biometric 
checks by U.S. security vetting agencies which are routinely updated, 
in-person interviews with trained adjudication's officers and ``pre-
departure'' checks. No case is finally approved until results from all 
security checks have been received and analyzed.
    To add unnecessary security screening mechanisms to this already 
robust process would needlessly harm individuals who need protection by 
delaying their resettlement. ``Sadly, the Syrian refugee population 
includes severely vulnerable individuals: Women and girls at risk, 
survivors of torture and violence, and people with serious medical 
needs or disabilities,'' said Linda Hartke, LIRS president and CEO. 
``LIRS and our national network stand ready to do what it takes to 
welcome into U.S. communities the most vulnerable Syrian refugees who 
cannot return home or integrate in the countries currently hosting 
them.''
    The U.S. Refugee Admissions Program offers refugees safe haven and 
a chance at a new life, while also bringing tangible benefits to the 
communities that welcome them. Having endured incredible hardship and 
unimaginable horrors in their home countries, refugees often spend 
years exiled in host countries once they flee, awaiting the opportunity 
to rebuild their lives. Once they are resettled in a third country, 
refugees routinely become engaged and productive community members, 
contributing economically, socially, and spiritually to our 
communities. The support of welcoming communities, congregations, 
volunteers, employers, schools, foster families, and others makes 
resettlement a successful public-private partnership. The Federal 
Government, particularly PRM and ORR, and State governments play a 
vital role.
    In the case of Syrian refugees, the conflict continues to worsen 
and host countries in the region are increasingly strained and unable 
to offer benefits or stability. Desperate refugees are risking their 
lives and the lives of their entire families making dangerous journeys 
over land and sea to reach safety. Hundreds of thousands have arrived 
in Europe with the hope of a permanent solution. While most citizens in 
affected countries in the European Union have reacted with welcome, 
some governments are choosing to close and militarize their borders to 
keep refugees out. It is against this backdrop that LIRS and our 
partners will continue to call on the administration to resettle Syrian 
refugees. In response to past global crises, the United States has led 
the effort to resettle hundreds of thousands of refugees--a tiny 
fraction of those who are displaced--and America has always been better 
and stronger as a result. With the support of local churches and 
communities, our Nation has the capacity to continue to welcome these 
vulnerable refugees into the United States.
                                 ______
                                 
Statement of Most Reverend Eusebio Elizondo, M.Sp.S., Auxiliary Bishop 
    of the Archdiocese of Seattle, WA, Chairman, U.S. Conference of 
                Catholic Bishops Committee on Migration
                            February 3, 2016
    I am Reverend Eusebio Elizondo, M.Sp.S., auxiliary bishop of 
Seattle, Washington, and chairman of the United States Conference of 
Catholic Bishops' Committee on Migration (USCCB/COM). I would like to 
thank Chairman Michael McCaul (R-TX-10th), Ranking Member Bennie 
Thompson (D-MS.-2d), and committee Members for the opportunity to 
comment on the important issue of safe and secure refugee resettlement.
    Since its inception, the U.S. refugee program has enjoyed bi-
partisan support as a life-saving, humanitarian program, a proud 
expression of U.S. values as a refugee and immigrant nation and as a 
world leader in addressing humanitarian crises. It has also been 
recognized as a good example of a fiscally responsible public-private 
partnership that invests in America's future by building refugee 
newcomers' capacity of resilience and self-reliance, enabling refugees 
to support themselves and their families and give back to their new 
communities. It also helps to contribute to the strategic security and 
economic security of the primary refugee host countries by sharing 
hosting responsibility--often resettling the most vulnerable refugees 
to the United States.
    Regarding safety and security, before, and especially since, 
September 11, 2001, including due to frightening moments such as the 
Paris attacks, Congress has been vigilant, as it should be, about 
maintaining the safety and security of the U.S. resettlement program. 
This testimony will detail security bars to U.S. refugee protection, 
particularly those involving crime or terrorism. It will also detail 
how compliance with these bars are maintained through numerous and 
arduous interviews, administrative reviews, security checks, and 
background checks built into the refugee resettlement screening process 
by the Departments of State, Justice, and Homeland Security. In the 
testimony, we will also show how fiscally sound, safe, and secure 
resettlement fits in to the overall comprehensive humanitarian response 
to the world-wide refugee crisis, in general, and the Syrian crisis, in 
particular. USCCB/MRS has prepared a 2-page summary of the rigorous 
screening process. See Rigorous Screening of Refugees Resettled to the 
United States by USCCB/MRS.
    A delegation from the United States Conference of Catholic Bishops' 
Committee on Migration (USCCB/COM) travelled to the Syria region in 
October 2012 and completed a report titled, ``Mission to the Middle 
East: A Report of the U.S. Conference of Catholic Bishops on Syrian 
Refugees.'' We also traveled to the region more recently and released a 
report in January 2015 entitled, ``Refuge and Hope in the Time of ISIS: 
The Urgent Need for Protection, Humanitarian Support, and Durable 
Solutions in Turkey, Bulgaria, and Greece.'' Between 2012 and 2015, we 
have seen more than a 7-fold increase in the number of Syrian refugees 
fleeing to neighboring host countries. There were 550,000 Syrian 
refugees in the region when we visited in 2012. That number is now over 
4.5 million, with half of them being children and three-quarters of 
them being women and children.
    With the coming of ISIS we have also witnessed an enormous increase 
in the number of ethnic and religious minorities fleeing persecution. 
The conflict has also spread into Iraq, displacing some 3.2 million 
people in that country, as well, according to UNHCR. Mr. Chairman, I 
ask that the report of those trips be included in the hearing record. 
In this current statement, I will integrate and update our observations 
and recommendations from those reports.
    Mr. Chairman, in my testimony today regarding the U.S. resettlement 
program USCCB/COM will provide further details regarding the following 
recommendations. We urge that the United States:
  <bullet> Conduct U.S. resettlement in a safe, secure, and timely 
        manner.
  <bullet> Resettle to the United States 100,000 refugees from around 
        the world in fiscal year 2017.
  <bullet> Resettle an additional 100,000 Syrian refugees in the near 
        future.
  <bullet> Encourage the Department of State (DOS) to focus especially 
        on the most vulnerable refugees, including unaccompanied 
        refugee minors (URMs), other children at risk, women at risk, 
        refugees with serious health concerns, the elderly, victims of 
        torture and/or trauma, those with affiliations with the U.S. 
        Government or U.S.-based NGOs, media, and companies; members of 
        persecuted minority ethnic and religious groups; and refugees 
        in immediate danger.
  <bullet> Increase U.S. resettlement of vulnerable non-Syrian refugees 
        in the region, such as Iraqis, and urge other nations to do 
        likewise and thereby share the refugee protection 
        responsibility with the neighboring host countries.
    Further, Mr. Chairman, we recommend that resettlement be integrated 
into a comprehensive approach to the Syria crisis and urge that the 
United States:
  <bullet> Work with other governments to obtain a cease fire, initiate 
        serious peace negotiations, provide increased impartial 
        humanitarian assistance and allow safe passage for this 
        assistance within Syria and Iraq, especially for internally 
        displaced people (IDPs), and establish a peace that builds 
        inclusive societies in Syria and Iraq that protect the rights 
        of all its citizens, including majority ethnic and religious 
        groups and also minority ethnic and religious groups, including 
        Christians, enabling all the refugees who want to to return to 
        their homeland in the future with safety and dignity.
  <bullet> Provide more U.S. support and encourage more international 
        humanitarian and development support for refugees in the 
        region, especially children, for their basic necessities of 
        life, immediate protection, primary and secondary education, 
        and systems that lay the groundwork for durable solutions, 
        including employment for adults; and provide host countries 
        additional housing, food, water, sanitation, health, education, 
        and transportation infrastructure to allow them to host these 
        large numbers of refugees.
  <bullet> Encourage host countries in the region to maintain secure 
        border and migration enforcement policies and practices but at 
        the same time assure policies and practices that enable Syrians 
        and other refugee groups (such as Iraqis) to safely flee from 
        Syria and Iraq to find protection and humanitarian care without 
        improper rejection at the borders, deportation, or arbitrary 
        detention in poor conditions.
                      i. catholic social teaching
    The Catholic Church is a migrant and refugee church. The Catholic 
Church in the United States, for example, is made up of more than 58 
ethnic groups from throughout the world, including Europe, the Middle 
East, the Near East, Asia, Africa, and Latin America.
    We have a long history of protecting refugees, unaccompanied 
children and victims of human trafficking--both in the advocacy arena 
and in welcoming and integrating immigrants and refugees who continue 
to build up our Nation as one that embraces ethnic diversity while 
sharing common values. The work of the USCCB's Committee on Migration 
is carried out by Migration and Refugee Services (USCCB/MRS), which is 
the largest U.S. refugee resettlement agency, resettling 1 million of 
the 3 million refugees who have come to our country since 1975. It is a 
National leader in caring for unaccompanied refugee and migrant 
children and victims of human trafficking, working with over 100 
Catholic Charities across the United States to welcome and serve 
refugees and unaccompanied refugee and migrant children.
    The U.S. Catholic Church also relates closely with the Catholic 
Church in countries throughout the world, where our world-wide Catholic 
communion serves the needs of the most marginalized regardless of 
nationality, ethnicity, race, or religious affiliation. We serve many 
refugees, internally displaced persons, and many refugee host nations 
straining under the large migration of people fleeing persecution and 
war. The Church's deep experience in combating poverty and forced 
migration and their root causes in the Middle East and throughout the 
world also includes the work of, among others, Catholic Relief Services 
(CRS), the official overseas relief and development agency of the U.S. 
Catholic bishops, the International Catholic Migration Commission 
(ICMC), of which USCCB is the largest member, Caritas International, 
Jesuit Refugee Services (JRS), and the Catholic Near East Welfare 
Association (CNEWA).
    The Catholic Church's work of assisting all migrants everywhere 
stems from the belief that every person is created in God's image. In 
the Old Testament, God calls upon his people to care for the alien 
because of their own experience as aliens: ``So, you, too, must 
befriend the alien, for you were once aliens yourselves in the land of 
Egypt'' (Deut. 10:17-19). In the New Testament, the image of the 
migrant is seen in the life and teachings of Jesus Christ. In his own 
life and work, Jesus identified himself with newcomers and with other 
marginalized persons in a special way: ``I was a stranger and you 
welcomed me'' (Mt. 25:35). Jesus himself was an itinerant preacher 
without a home of his own, and as noted above, a refugee fleeing to 
Egypt to avoid persecution and death (Mt. 2:15).
    In modern times, popes over the last 100 years have developed the 
Church's teaching on migration, teaching that has been frequently 
applied by church leaders. Pope Pius XII reaffirmed the Catholic 
Church's commitment to caring for pilgrims, aliens, exiles, refugees, 
and migrants of every kind, affirming that all peoples have the right 
to conditions worthy of human life and, if these conditions are not 
present, the right to migrate.\1\
---------------------------------------------------------------------------
    \1\ Pope Pius XII, Exsul Familia (On the Spiritual Care of 
Migrants), September, 1952.
---------------------------------------------------------------------------
    In our joint pastoral letter, Strangers No Longer: Together on the 
Journey of Hope, A Pastoral Letter Concerning Migration,'' January 23, 
2003, the U.S. and Mexican Catholic bishops call for nations to work 
toward a ``globalization of solidarity.'' ``Refugees and asylum seekers 
should be afforded protection. Those who flee wars and persecution 
should be protected by the global community.'' No. 99. Also, 
``[b]ecause of their heightened vulnerability, unaccompanied minors 
require special consideration and care'' No. 82.
    During his first papal trip, Pope Francis defended the rights of 
refugees and migrants, traveling to Lampedusa, Italy, to call for their 
protection. He decried the ``globalization of indifference'' and the 
``throwaway culture'' that leads to the disregard of those fleeing 
persecution in order to seek refuge or a better life. Regarding Syrian 
refugees drowning at sea as they flee the crisis, he later exhorted the 
international community, ``We cannot allow the Mediterranean to become 
a vast cemetery!'' He urged solidarity with refugees and cooperation 
among the nations to address this challenge.
    In his recent trip to the United States in September 2015 Pope 
Francis further applied that important teaching in his speech to 
Congress, ``Our world is facing a refugee crisis of a magnitude not 
seen since the Second World War. This presents us with great challenges 
and many hard decisions . . . We must not be taken aback by their 
numbers, but rather view them as persons, seeing their faces and 
listening to their stories, trying to respond as best we can to their 
situation. To respond in a way which is always humane, just, and 
fraternal. We need to avoid a common temptation nowadays: to discard 
whatever proves troublesome. Let us remember the Golden Rule: `Do unto 
others as you would have them do unto you' (Mt 7:12).''
    Regarding the important matter of security, the focus of this 
hearing, another of Pope Francis' observations goes to the heart of the 
U.S. refugee program, ``If we want security, let us give security.''
ii. overview of the world-wide refugee crisis and syrian refugee crisis
    According to the United Nations High Commissioner for Refugees 
(UNHCR), the world has hit an all-time high of nearly 60 million people 
forcibly displaced by war and persecution. Some 19.5 million of these 
forcibly displaced people are refugees. Half of the refugees are 
children. The growing number of displaced people and refugees across 
the world is caused by some 15 armed conflicts.
    The Syrian conflict has created the largest number of internally 
displaced people (IDP) and refugees. It deserves the full attention and 
mobilization of the international community. The armed conflict has 
continued to escalate across Syria and has spread into Iraq. It has 
brought on-going large-scale destruction, human suffering, and death 
inside the country and threatens destabilization of the whole region. 
The size, scope, rapid growth, and complexity of Syria's forced 
migration are reasons for deep concern. With the brutal conflict and 
ever-growing forced migration, there is a serious lack of livelihood, 
shelter, food, water, sanitation, education, health care, and 
protection inside Syria and in neighboring countries that host Syrian 
refugees.
    As is often the case in refugee situations, the protection, 
humanitarian support, and pursuit of durable solutions for Syrians is 
important for humanitarian reasons but also as part of a strategy for 
maintaining the stability of the host countries and the region. This 
requires responsibility sharing from the international community both 
through generous assistance to support refugees in the host countries 
and also by providing refuge outside of the region for some of those 
fleeing the crisis. Fiscally sound, safe, and secure refugee 
resettlement plays a relatively small, but important, role in the 
overall strategy to address the Syria crisis and other refugee crises 
around the world. Before detailing the role of safe and secure 
resettlement, we want to describe the overall challenge that the Syria 
crisis presents to the international community.
    The conflict has led to the forced displacement of some 50% of the 
Syrian population, including 7.6 million internally displaced people 
(IDPs), with some 12.2 million of all Syrians being in dire need of 
humanitarian help.\2\ This constitutes a 30% increase in dire 
humanitarian need in 1 year and illustrates the deteriorating nature of 
this situation.
---------------------------------------------------------------------------
    \2\ Syria Complex Emergency Fact Sheet No. 5, March 31, 2015, 
accessed May 19, 2015, at http://www.usaid.gov/sites/default/files/
documents/1866/syria_ce_fs05_03-31-2015.pdf
---------------------------------------------------------------------------
    Over 4.59 million Syrian refugees have been forced to flee their 
country, with over 1.069 million seeking refuge in Lebanon, 635,000 in 
Jordan, 2.5 million in Turkey, 245,000 in Iraq, 118,000 in Egypt, and 
over 813,500 who have fled to Europe and applied for asylum.\3\ Besides 
the increase of Syrian refugees to neighboring countries, those 
countries also host large refugee populations of non-Syrians, 
including, for example, some 200,000 Iraqis in Turkey, according to 
UNHCR.
---------------------------------------------------------------------------
    \3\ Syrian Refugee Regional Response, accessed February 1, 2016, 
http://data.unhcr.org/syrianrefugees/regional.php.
---------------------------------------------------------------------------
    One UNHCR official in Turkey explained to the USCCB/COM delegation 
the impact of the refugee arrivals there over the last 4 years, ``It 
began as a migration emergency, became a protracted refugee situation, 
and is now a social crisis for our country.'' Almost 30% of Lebanon's 
population is made up of Syrian refugees; and some 10% of Jordan's 
population. Although very high, those numbers alone do not capture the 
challenge for host nations and communities. During the first 2 days of 
USCCB/COM's most recent trip to Turkey, some 130,000 Syrian Kurds fled 
from ISIS in Kobane, Syria, into southern Turkey, where Turkey 
generously provided them protection and humanitarian care. An enormous 
additional humanitarian and refugee protection challenge arises because 
over 80% of Syrian refugees in the region are so-called urban refugees 
who reside outside of camps, seeking refuge in widely-dispersed local 
communities.
    Some 75% of the Syrian refugees are women and children. Many, 
especially women and girls, face serious problems with gender-based and 
sexual violence in Syria and also often in the host countries. UNHCR 
reports that around half of the refugees are children, with 75% of them 
less than 12 years old.\4\ Some 60% do not attend school, including 80% 
in Lebanon and more than 50% in Jordan.\5\ Only 30% of Syrian, urban 
refugee children attends school in Turkey. This is due both to lack of 
education infrastructure and also because of widespread child labor--a 
strategy Syrian families have had to resort to for family survival. 
USCCB/COM also heard disturbing accounts of young girls resorting to 
early marriage and bride-selling as a means of survival.
---------------------------------------------------------------------------
    \4\ UNHCR, The Future of Syria: Children in Crisis, December 2013, 
p. 9.
    \5\ Assistant Secretary Anne Richard, Testimony, December 10, 2013.
---------------------------------------------------------------------------
    The most vulnerable refugees are unaccompanied children. UNHCR has 
so far identified 3,760 unaccompanied refugee minors (URMs) among the 
refugees in Lebanon and Jordan.\6\ The USCCB/COM delegation saw 
indications of many more than that during their recent trips. These are 
children alone in the world whose parents have died, or children who 
have been separated from their parents.
---------------------------------------------------------------------------
    \6\ UNHCR, The Future of Syria: Children in Crisis, December 2013, 
p. 9 (2440 URMs in Lebanon, 1320 in Jordan).
---------------------------------------------------------------------------
    We turn last to the vulnerability of some Syrian minorities. While 
75% of people in Syria \7\ and 90% of registered refugees fleeing from 
Syria are Sunni Muslims,\8\ there are also several ethnic and religious 
minority groups, including Christians and Yazidis, who are at risk as 
well. Christians make up an estimated 10% of the Syrian population, 
totaling about 2.2 million.\9\ These are among the most ancient and 
venerable Christian communities in the world that have a history of 
peaceful coexistence with their Muslim neighbors. They long to remain 
in Syria.
---------------------------------------------------------------------------
    \7\ USCIRF, Special Report Protecting and Promoting Religious 
Freedom in Syria, April 2013, p. 1 (available at www.uscirf.gov).
    \8\ USCIRF, Fact Sheet Syria; Syria's Refugee Crisis and its 
Implications, July 2013, p. 1 (available at www.uscirf.gov).
    \9\ USCIRF, Special Report: Protecting and Promoting Religious 
Freedom in Syria, April 2013, p. 1 (available at www.uscirf.gov).
---------------------------------------------------------------------------
    A growing number of ethnic and religious minorities from both Syria 
and Iraq are now fleeing as a result of ISIS violence. Besides the 
ethnic Kurds from Syria described above, the USCCB/COM delegation met 
many refugees during their trip who were fleeing religious persecution. 
Iraqi Christians had fled to Turkey from villages near Mosul, Iraq. 
They reported that they, as Christians, were given an ultimatum by ISIS 
to convert, pay a penalty for being Christian, or die. They understood 
the seriousness of the threat when the severed head of one of their 
noncompliant Christian neighbors was left on his doorstep. ``I fled my 
country for Jesus Christ,'' explained one middle-aged man. ``I left so 
I could freely follow Jesus.'' The delegation also met a young Syrian 
Christian convert seeking refuge in Bulgaria whose whole family had 
been killed after he explained to ISIS fighters why he had converted to 
Christianity. My fellow Bishop Oscar Cantu, chairman of USCCB's 
Committee on International Justice and Peace, rightly called religious 
persecution the ``crisis within a crisis'' in recent Senate 
testimony.\10\
---------------------------------------------------------------------------
    \10\ Testimony by Bishop Oscar Cantu, Chairman of the Committee on 
International Justice and Peace on behalf of the United States 
Conference of Catholic Bishops before the Subcommittee on State, 
Foreign Operations, and Related Programs of the Committee on 
Appropriations of the United States Senate, March 11, 2015.
---------------------------------------------------------------------------
                          iii. recommendations
    We commend the peoples and governments of the refugee host 
countries for their generous welcome of their Syrian brothers and 
sisters.
    We commend the donor countries of humanitarian assistance led by 
the United States, U.N. agencies led by UNHCR, nongovernmental 
organizations, and other humanitarian actors. Yet with the escalating 
brutality of the conflict in Syria, the continued reports of crimes 
against humanity by the Syrian government and ISIS, and the thousands 
of Syrians fleeing for their lives every week, an even greater effort 
is needed.
    We urge a comprehensive approach to addressing the crisis that 
recognizes the important role that humanitarian interventions play in 
addressing the safety and security of the situation. As you will note, 
we urge a still modest, but much more significant, role for U.S. 
resettlement as part of the solution. Up to now, the United States has 
resettled only some 2,000 Syrians.
    Mr. Chairman, we will provide details now of our 3 sets of 
recommendations for Congress--the first regarding safe and secure 
resettlement for the most vulnerable refugees, the second regarding the 
need for peace that builds inclusive societies in Syria and Iraq, and 
the third regarding the need for taking a comprehensive approach by 
including sufficient humanitarian and development support for the 
refugees and host countries.
A. Increase U.S. refugee resettlement of the most vulnerable refugees 
        and encourage other resettlement nations to do so as well.
    International refugee protection has 3 durable solutions to refugee 
situations: Voluntary repatriation in safety and dignity back to one's 
home when peace comes, local integration into the host country, and 
safe and secure resettlement to a third country. In most refugee 
situations and in the case of Syria, voluntary repatriation is the most 
viable solution for the vast majority of refugees. To make this 
possible, the international community needs to support neighboring host 
countries to be able to safely and humanely host refugees until peace 
arrives. A peace that builds inclusive societies in Syria and Iraq 
would enable all the refugees in neighboring countries, including 
refugees who are part of the Sunni majority and also ethnic and 
religious minorities, to be able to pursue voluntary return to their 
home countries. Such return is very important to most of the refugees. 
For example, for many Catholic and Christian leaders and Catholic and 
Christian communities forced to flee from Syria and Iraq, it would be a 
cherished opportunity to return and rebuild their ancient communities 
and maintain the vital and important role of Christianity in a region 
that is traditionally diverse both in ethnicity and religion. For some 
refugees, with the permission of the host countries, they will be able 
to pursue the second durable solution and make a new life permanently 
in the neighboring host countries.
    For a very small percentage of the refugees, especially the most 
vulnerable and those most victimized and traumatized, the most viable 
and humane durable solution is resettlement to a location outside the 
region.
    Resettlement of the most vulnerable refugees is a strategic, 
complementary measure to robust humanitarian support for refugees in 
host countries. Through it, the United States, a nation of immigrants 
and refugees, often demonstrates solidarity with refugees and host 
countries in far-away crises like Syria's. It is strategic for the most 
vulnerable refugees because removing them from danger keeps their 
vulnerable situation from becoming catastrophic. It is strategic for 
host nations because it often removes vulnerable people who otherwise 
cause a disproportionate drain on the host's already strained 
resources. It is strategic for the overall crisis because it shares the 
responsibility and spurs other nations to act--either to provide aid or 
to agree to do resettlement or another durable solution. The United 
States generally resettles as many refugees as all other resettlement 
countries in the world combined. The U.S. Conference of Catholic 
Bishops urges the United States to make meaningful and strategic use of 
resettlement for the most vulnerable Syrian and Iraqi refugees.
    Among the most vulnerable in Syria and other refugee situations are 
unaccompanied refugee minors (URMs) whose parents have died or who are 
separated from their parents. There is a great risk that many other 
URMs, as urban refugees, will not be identified at all and their needs 
will go unnoticed by the overwhelmed host government and international 
staff. There is a strong need for community-based systems to identify 
vulnerable, at-risk refugees, especially unaccompanied children, to 
screen them, to provide protection and care, and to prepare for 
resettlement or whatever durable solutions is in each child's best 
interest. URMs who are part of the Syria crisis and other URMs around 
the world should receive ``best interest determinations'' (BIDs) and 
on-going support from social workers.
    I must also call attention to some members of religious minorities 
from Syria and Iraq as being among the most vulnerable refugees. As 
described earlier, it continues to be the hope and plan for many 
Catholic and Christian refugees to return home in the future. But for 
others, their vulnerability, trauma, and loss is such that the most 
viable and humane durable solution for them is resettlement outside the 
region. Other at-risk groups for whom resettlement is most viable 
include women and children at risk, refugees with serious health 
concerns, the elderly, victims of torture and/or trauma, those with 
affiliations with the U.S. Government or U.S.-based NGOs/media/
companies; members of other minority persecuted groups, and refugees in 
immediate physical danger.
    Mr. Chairman, before turning to recommendations regarding 
resettlement, we want to focus on maintaining the security and 
integrity of the refugee program, a goal that we share with this 
subcommittee. The U.S. resettlement program is a public-private 
partnership between the refugees and the local communities that welcome 
them. The local Catholic Charities of dioceses across the country and 
other community resettlement affiliates work with thousands of 
volunteers from churches and the community to help refugees build new 
lives. They help establish refugees and their families with jobs and 
enrollment in schools, English language classes, and in some cases 
counseling and care to heal from their traumas. Building resilience and 
self-reliance are the hallmarks of the refugee programs whereby 
refugees build relationships within their new communities, heal, find 
work, support their families, and contribute to their communities.
    Before, and especially since, September 11, 2001, Congress has been 
vigilant about barring bad actors from U.S. asylum and refugee 
protection, particularly those involved in crime or terrorism. Among 
other bars, asylum or refugee protection in the United States cannot be 
granted to anyone who has persecuted others, been convicted of a 
particularly serious crime in the United States or a serious, 
nonpolitical crime in another country, engaged in terrorist activity, 
been a member of a terrorist organization, or otherwise posed a 
security threat to the United States.
    Compliance with these bars are maintained through numerous and 
arduous interviews, administrative reviews, security checks, and 
background checks built into the refugee resettlement screening 
process.\11\ Initially, most resettlement cases first involve a UNHCR 
refugee determination interview process that screens out individuals 
who have no grounds for refugee protection or who have committed 
heinous actions that fall under the exclusion clauses of the 1951 
Refugee Convention. UNHCR (or sometimes the U.S. Embassy or a trained 
staff from a nongovernment organization) refers the refugee applicant 
to a Resettlement Support Center (RSC) overseen by the U.S. Department 
of State (DOS), where detailed biographical and personal information is 
gathered that will be used for in-person interviews by the Department 
of Homeland Security (DHS) and for security and background checks. DOS 
submits the names of all refugees through the Consular Lookout and 
Support System (CLASS). Further security checks are done through U.S. 
interagency checks that have been conducted since 2010. If needed, a 
Security Advisory Opinion (SAO) is submitted to U.S. intelligence and 
law enforcement agencies. When DHS arrives for in-person interviews, 
they take fingerprints and photos that are run through certain U.S. 
Government databases. If the person demonstrates grounds for asylum and 
no security problems, DHS grants a conditional approval, pending final 
security and medical screening. Prior to departure, another U.S. 
interagency security check is conducted. If the person passes, he/she 
travels to the United States where another check is done by Customs and 
Border Protection (CBP) at the Port of Entry. If any of these checks 
reveal information that disqualify the person, that ends their ability 
to be admitted to the United States as a refugee. At the point of 
applying for legal permanent residency another round of security and 
background checks is conducted for refugees.
---------------------------------------------------------------------------
    \11\ ``Security Screening of Refugees Admitted to the United 
States: A Detailed, Rigorous Process,'' U.S. Committee for Immigrants 
and Refugees, accessed May 19, 2015, at http://www.rcusa.org/uploads/
pdfs/Refugee%20resettlement%20%20step%20by%20step%20USCRI.- pdf; ``Bars 
& Security Screening in the Asylum & Refugee Process,'' Human Rights 
First, accessed May 19, 2015,  http://www.humanrightsfirst.org/wp-
content/uploads/HRF-Security-Safeguards.pdf.
---------------------------------------------------------------------------
    At the point of applying for U.S. citizenship another round is 
conducted. If above described security problems are revealed, they will 
bar the person from gaining the status they seek and subject the person 
to removal. As is clear from the arduous process, DOS and DHS have put 
in many layers of security to help assure the security and integrity of 
the program that both provides a new life to deserving refugees and 
assures the safety of the U.S. communities that welcoming them. Despite 
Congress' best intentions, Republicans and Democrats alike have noted 
that certain U.S. security provisions create the unintended consequence 
of keeping certain deserving refugees from securing resettlement in the 
United States. For U.S. resettlement of Syrians and Iraqis and for 
virtually any other refugee population that is fleeing an armed 
conflict, the set of overly-broad U.S. immigration law provisions that 
bar entry to the United States, so-called TRIG (terrorism-related 
inadmissibility grounds). While having a laudable goal, TRIG provisions 
have been written and applied in such an overly-broad way that they 
have delayed or barred admission of many deserving refugees who have no 
connection to terrorism. Under the provisions, if a country has an 
armed, nongovernmental opposition group fighting against the 
government, that group is deemed to be involved in ``terrorist 
activities.'' It does not matter if the opposition includes noble 
freedom fighters supported by the U.S. Government to fight against a 
brutal regime that the U.S. condemns. If someone is a member, solicits 
funds, or provides material support for the armed opposition group, or 
has a parent or spouse so involved, that person is barred from entering 
the United States. It does not matter if the person never violated any 
rules of war or criminal laws or has a neutral, nonmilitary role in the 
community such as providing humanitarian assistance or health care or 
retail sales. It does not matter that the person poses no danger or 
threat to our country. In Syria's refugee crisis, there are armed 
opposition groups fighting against the Syrian government, a government 
that the United Nations has condemned for committing crimes against 
humanity. The opposition groups include some who have received 
nonmilitary aid from the U.S. Government. Because of these and other 
aspects of the Syrian crisis, the overly broad and unfair application 
of the TRIG provisions pose a serious impediment for the resettlement 
of Syrians unless the administration uses its exemption powers. These 
are measures painstakingly drawn up by a multi-agency, high-level team 
from the Departments of Homeland Security, State, and Justice. They are 
also meant to be carefully, judiciously applied during the resettlement 
screening process. DHS officials have told us that exemptions tailored 
to the Syrian crisis have been completed and are awaiting the final 
authorization.
    Mr. Chairman, to facilitate the small but crucial role of 
resettlement in addressing the massive humanitarian refugee crisis 
caused by the Syrian conflict, we urge the United States to:
  <bullet> Assure that U.S. resettlement is done in a safe, secure, and 
        timely manner by:
    <bullet> Maintaining the rigorous security and background checks in 
            the resettlement process while assuring that Congress 
            appropriates and the administration, through DHS and other 
            security screening agencies, allocates sufficient resources 
            and staff to increase the number of people for whom 
            security checks can be diligently conducted, thereby 
            speeding up the process for refugees facing significant 
            risks.
    <bullet> Increasing the nongovernmental and community capacity to 
            identify and screen the most vulnerable urban refugees in 
            host countries, including URMs, to meet their immediate 
            protection and humanitarian needs, and to prepare for their 
            durable solutions;
    <bullet> Increasing UNHCR's capacity for refugee status 
            determination, resettlement, and BIDs; and for U.S. 
            Resettlement Support Centers' refugee and URM processing 
            capacity;
    <bullet> Facilitating Best Interest Determinations (BIDs) for the 
            3,760 unaccompanied refugee minors identified in Jordan and 
            Lebanon and for all URMs identified in the region, and use 
            BIDs to pursue their short-term protection and durable 
            solutions;
    <bullet> Increasing DHS's capacity to do circuit rides to the 
            region to interview Syrian and other refugees for potential 
            resettlement; and
    <bullet> Allowing Syrians with noncurrent visa petitions to receive 
            refugee interviews while maintaining the same strict 
            security processing measures (this was one of the 
            successful strategies to increase Iraqi resettlement).
    <bullet> Urge DHS, in consultation with DOS and DOJ, to proactively 
            and expeditiously remove unjust impediments to U.S. 
            resettlement by fully authorizing the discretionary 
            authority to grant exemptions from TRIG provisions of U.S. 
            immigration law currently awaiting approval at DHS and by 
            judiciously interpreting the meaning of the ``material 
            support'' bar.
  <bullet> Resettle to the United States 100,000 refugees from around 
        the world in fiscal year 2017.
  <bullet> Resettle 100,000 additional Syrian refugees in the near 
        future.
  <bullet> Encourage DOS to focus especially on the most vulnerable 
        refugees, including unaccompanied refugee minors (URMs), other 
        children at risk, women at risk, refugees with serious health 
        concerns, the elderly, victims of torture and/or trauma, those 
        with affiliations with the U.S. Government or U.S.-based NGOs, 
        media, and companies; members of persecuted minorities, 
        refugees in immediate danger.
  <bullet> Increase U.S. resettlement of vulnerable, non-Syrian 
        refugees in the region, such as Iraqis, and urge other 
        resettlement nations to do the same, and thereby further share 
        the burden with host countries.
B. Pursue an inclusive peace in Syria.
    While resettlement is the main focus of this hearing, it is very 
important to also recognize the other elements that contribute to a 
holistic response to the crisis. During a public appearance on August 
25, 2013, Pope Francis denounced and called for an end to the 
``multiplication of massacres and atrocious acts'' in Syria. Later, 
Pope Francis urged ``the international community to make every effort 
to promote clear proposals for peace without further delay, a peace 
based on dialogue and negotiation, for the good of the entire Syrian 
people. May no effort be spared in guaranteeing humanitarian assistance 
to those wounded by this terrible conflict, in particular those forced 
to flee and the many refugees in nearby countries.'' Mr. Chairman, we 
urge Congress to:
  <bullet> Work with other governments to obtain a cease fire, initiate 
        serious peace negotiations, provide increased impartial 
        humanitarian assistance and allow safe passage for this 
        assistance within Syria, especially for internally displaced 
        people (IDPs), and establish a peace that builds inclusive 
        societies in Syria and Iraq that protect the rights of all its 
        citizens, including majority populations as well as minority 
        ones, making safe and dignified voluntary return a viable 
        future option for most refugees.
C. Support host countries to maintain generous protection and 
        humanitarian care for refugees, especially children.
    Given the huge influx of refugees, international support and 
special vigilance are needed to maintain border and migration 
enforcement and asylum policies that safeguard refugee protection and 
related humanitarian care for Syrians and also for Iraqis, and other 
refugees, while also maintaining the safety and security of the refugee 
host countries.
    Beyond maintaining access to protection beginning at the border, 
there are enormous political and logistical challenges involved in 
protecting and serving the 80% of Syrians who are urban refugees. When 
refugees reside in camps, the international community generally 
partners with host nations to create the camps' infrastructure and 
service delivery system parallel to that of local communities, with 
refugees and communities remaining insulated from one another. With 
urban refugees, the international community partners with the host 
country and local communities to expand local infrastructure and 
services and facilitates face-to-face interactions, problem solving, 
conflict resolution, and collaboration between the local communities 
and refugees.
    Lack of housing continues to be a chronic issue for Syrian urban 
refugees, most of whom were hard-working, middle-class people when they 
fled the conflict. Some fortunately still live with host families or 
friends. Others who lived in apartments--often 4-5 families per 
apartment--have already spent down what savings they had, and with few 
jobs, have insufficient money for rent. They, as well as new arrivals, 
are forced to find shelter in abandoned or unfinished buildings, or to 
create settlements of makeshift tents provided by NGOs. Many are also 
fleeing onward on dangerous maritime routes to seek refuge in Europe 
and beyond, with thousands losing their lives at sea. This dangerous 
onward migration has escalated alarmingly over recent months. Mr. 
Chairman, regarding the neighboring countries who host Syrian refugees, 
we urge Congress to:
  <bullet> Encourage host countries in the region to maintain secure 
        border and migration enforcement policies and practices but at 
        the same time refugee protection policies and practices that 
        enable Syrians and other refugee groups (such as Iraqis) to 
        safely flee from Syria and Iraq to find humane protection and 
        care without improper rejection at the border, deportation, or 
        arbitrary detention in poor conditions.
  <bullet> Provide additional U.S. support and encourage more 
        international humanitarian and development support for refugees 
        in the region, especially children, for their basic necessities 
        of life, immediate protection, primary and secondary education, 
        and systems that lay the groundwork for durable solutions, 
        including employment for adults; and provide host countries 
        additional housing, food, water, sanitation, health, education, 
        and transportation infrastructure to allow them to host these 
        large numbers of refugees.
                               conclusion
    Mr. Chairman, thank you for the opportunity to share our 
observations and recommendations.
RIGOROUS SECURITY SCREENING OF REFUGEES RESETTLED TO THE UNITED STATES 
                                  \1\
---------------------------------------------------------------------------
    \1\ See U.S. Committee for Refugees and Immigrants' Security 
Screening of Refugees Admitted to the United States: A Detailed, 
Rigorous Process, Human Rights First's ``Bars and Screening in the 
Asylum & Refugee Process,'' and the Department of Homeland Security's 
``United States Refugee Admissions Program.'' We thank USCRI. We used 
their framework and careful analysis to help lay out and detail the 
screening process and also benefited from the backgrounders of DHS and 
HRF.
---------------------------------------------------------------------------
    Refugee situations are traditionally resolved through three durable 
solutions: Voluntary repatriation whereby refugees flee to nearby 
countries and when peace comes they voluntarily return home in safety 
and dignity, local integration whereby the neighboring host country 
allows refugees to permanently settle as full-fledged members of the 
host country, and, resettlement whereby refugees are rigorously 
screened in neighboring host countries and referred to distant 
resettlement countries. Resettlement is a life-saving solution for a 
small percentage of refugees world-wide (less than \1/2\ of 1 percent). 
They are often the most vulnerable refugees. The United States has a 
proud tradition of taking over half of the world's resettled refugees. 
These are the stages of the rigorous U.S. resettlement screening 
process:
        stage 1 unhcr refugee status and exclusion determination
    For most refugees, the United Nations High Commissioner for 
Refugees (UNHCR) determines whether the person seeking refuge qualifies 
as a refugee, that is, as someone forced to flee because of a well-
founded fear of being persecuted for reasons of race, religion, 
nationality, membership of a particular social group, or political 
opinion. At this stage, UNHCR generally registers the refugee, collects 
identifying documents, biographical information, and biometric data 
(e.g., for Syrians they conduct iris scans), and interviews the 
applicant. Even if the person meets the high standard of the refugee 
definition, UNHCR reject them if they disqualify due to the ``exclusion 
clauses'' of the refugee convention for having committed certain 
serious, odious acts or serious crimes described in the clauses.
         stage 2 referral to the united states for resettlement
    A refugee who meets the refugee definition and has no exclusion bar 
may be eligible to be considered for resettlement to the United States 
only if he/she also falls within preference categories for U.S. 
resettlement. These categories include people with extreme 
vulnerabilities, characteristics of special concern to the United 
States, or immediate family member ties in the United States. UNHCR, a 
U.S. Embassy, or a trained Non-Governmental Organization may refer 
individuals if they meet both the refugee definition and the 
resettlement criteria.
          stage 3 resettlement support center case preparation
    The U.S. Department of State contracts with Resettlement Support 
Centers (RSC) in several refugee host countries around the world. The 
RSC interviews those who have been referred, organizes their on-site 
processing, orients them to the process, and prepares their files. The 
RSC gathers each refugee's personal data and background information for 
the security clearance process and to present the case to the Refugee 
Corp of the U.S. Citizenship and Immigration Services of the Department 
of Homeland Security (DHS/USCIS) in preparation for each in-person 
interview.
     stage 4 security screening--consular lookout & support system
    Using the information gathered by the RSC, the State Department 
checks the names of all the refugees that have been referred for U.S. 
resettlement through the Consular Lookout & Support System (CLASS) data 
base. CLASS contains extensive watch-list information.
         stage 5 security screening--security advisory opinion
    If needed, there is an additional security review known as a 
Security Advisory Opinion (SAO). If subject to an SAO review, an 
applicant can proceed with the U.S. resettlement process only if there 
is positive clearance from several U.S. law enforcement and 
intelligence agencies.
            stage 6 security screening--inter-agency checks
    The National Counterterrorism Center (NCTC) carries out Inter-
Agency Checks (IAC) on applicants who meet the minimum age requirement. 
Since the IAC is a ``recurrent vetting'' process, NCTC will notify DHS/
USCIS of any negative information about the applicant up until travel 
to the United States.
           stage 7 security screening--syria enhanced review
    Refugees from Syria who are referred to the United States for 
resettlement receive additional screening known as Syria Enhanced 
Review. A Refugee Affairs Division Officer at DHS/USCIS headquarters 
conducts this review prior to a Syrian refugee being interviewed by 
DHS/USCIS. If the review triggers fraud or security concerns, it is 
further referred to DHS's Fraud Detection and National Security 
Division (FDNSD) for further review. FDNSD conducts research of public 
and Classified sources related to the person's case, compiling a report 
that the interviewing officer can use in preparation for the interview.
               stage 8 dhs in-depth, in-person interview
    All refugee applicants are interviewed by the Refugee Corp of DHS/
USCIS. A trained Refugee Corp officer travels to the refugee host 
country, and conducts an in-depth, face-to-face interview with each 
refugee applicant being considered for resettlement and any 
accompanying family members over age 14. Based on the refugee's case 
file, the interview, and extensive country of origin information and 
other information available to DHS, the DHS/USCIS officer will 
determine if the individual qualifies as a refugee and is admissible 
under U.S. law.
                       stage 9 dhs determination
    The DHS/USCIS determines whether the individual meets the refugee 
definition and meets extensive U.S. admission requirements, including 
overcoming numerous bars triggered by criminal or terrorist activities. 
They determine whether the person meets the resettlement criteria. They 
also determine whether the person is barred as someone firmly resettled 
in the refugee host country. If the applicant meets this rigorous test, 
the officer conditionally approves the resettlement request, submitting 
it to the U.S. Department of State to finalize. The conditional 
approval does not become an approval unless and until the person has 
been cleared through all security checks (Stages 4, 5, 6, 7, and 10).
  stage 10 security clearance procedure--three u.s. government agency 
                            biometric checks
    At the time of the DHS interview, U.S. Government staff take 
fingerprints and photographs of all refugees applying for resettlement 
(who meet the minimum age requirement). DHS/USCIS coordinates vetting 
the fingerprints against biometric databases of the Departments of 
Defense and Homeland Security and the Federal Bureau of Investigation.
                       stage 11 medical screening
    The U.S. Government requires that all refugee applicants approved 
for resettlement undergo medical screening. Medical personnel are from 
the International Organization for Migration (IOM) or are designated by 
the local U.S. Embassy. They screen for communicable diseases that 
might prohibit the refugee's admission to the United States.
           stage 12 matching refugees with a voluntary agency
    Each refugee is assigned to a Voluntary Agency in the United 
States, such as the United States Conference of Catholic Bishops' 
Migration and Refugee Services (USCCB/MRS). USCCB/MRS works in 
partnership with local Catholic Charities and Catholic Social Service 
partners across the country to receive and place refugees, to help them 
build resilience and self-sufficiency, and to work side-by-side with 
local communities and States to build safe, welcoming communities for 
locals and newcomers alike. Over the 35 years of the U.S. resettlement 
program over 160 of 195 U.S. Catholic dioceses have joined to welcome 
refugees through this life-affirming public-private partnership.
                     stage 13 cultural orientation
    The RSCs or other designated trainers provide cultural orientation 
to refugees after they are approved for U.S. resettlement. The cultural 
training helps them prepare for their travel to America and their new 
life here.
                stage 14 admission to the united states
    When a refugee arrives at a U.S. airport designated as a port of 
entry for refugee admissions, the DHS Customs and Border Protection 
(DHS/CBP) officer reviews the refugee's documentation and conducts two 
additional security checks against the National Targeting Center 
Passenger Program and the Transportation Security Administration's 
Secure Flight Program. This assures that the arriving person is the 
same as the refugee who was screened and approved for U.S. admission 
and resettlement.
                                 ______
                                 
   Statement of Lavinia Limon, President and CEO, U.S. Committee for 
                    Refugees and Immigrants (USCRI)
                            February 3, 2016
    Chairman McCaul and honorable committee Members, on behalf of the 
U.S. Committee for Refugees and Immigrants (USCRI), a National non-
profit organization serving refugees and immigrants with a network of 
over 90 agencies and offices across the Nation, I submit our testimony 
in support of and to provide information on the U.S. Refugee 
Resettlement Program.
    For over 100 years, USCRI has protected the rights and addressed 
the needs of persons in forced or voluntary migration world-wide and 
supported their transition to a dignified life. We help the uprooted by 
facilitating and providing direct professional services and promoting 
the full participation of migrants in community life. USCRI is proud to 
do this work in the United States because our country is a world leader 
in providing protection to people who need it. The United States has a 
long history of showing compassion for victims of persecution, and that 
is what we must continue to do.
    The global refugee crisis requires strong leadership and the United 
States will inherently make a statement by our presence or absence. We 
must remember that for many vulnerable refugees, such as torture 
survivors, women at-risk, and those with complex medical situations, 
resettlement may be the only option. We must not let fear of terrorist 
acts cloud our judgment and make us turn our backs on children and 
families who desperately need our protection. We must not forget our 
own country was founded by refugees fleeing religious persecution.
    USCRI understands the consequences of terrorist acts because we 
have seen them first-hand in our work with refugees fleeing terrorist 
persecution. It is important to remember that those who have sought 
refuge in Europe and the Middle East are also the victims of the brutal 
actions of ISIS. USCRI shares the committee's interest in maintaining 
the security of the refugee program as our network of agencies and 
staff work with refugees every day. However, given the current vetting 
system for refugees referred to the United States for resettlement, we 
firmly believe that the program can continue without risking our 
National security.
                       a solutions-based approach
    Based on USCRI's experience, we have the following recommendations:
  <bullet> Support the U.S. Refugee Resettlement Program as a safe, 
        humanitarian, and foreign policy operation.
  <bullet> Increase funding for the Department of Homeland Security to 
        maintain the integrity of security checks.
  <bullet> Increase support for the Office of Refugee Resettlement to 
        enhance the integration of newly-arrived refugees.
   continue the u.s. refugee resettlement program because it is safe
    As the former director of the Federal Office of Refugee 
Resettlement, I am familiar with the security checks that refugees must 
undergo prior to their arrival to the United States and am confident 
that our vetting system works. Unlike the current situation in Europe, 
the United States gets to choose which refugees we admit. Refugees 
coming in through the U.S. Refugee Resettlement Program must pass 
through a rigorous, multi-layered review aimed at ensuring they will 
not pose a security risk to our country.
    The screening process includes an in-depth, in-person interview by 
a highly-trained Homeland Security officer. In addition, refugees must 
pass highly rigorous background checks, including biographic and 
biometric investigations. Information on a refugee is run through 
Department of State, Department of Homeland Security, Federal Bureau of 
Investigation, Department of Defense, and National Counterterrorism 
Center databases. The security screenings occur at multiple points in 
the process and there is on-going, recurring vetting. In addition, 
Syrian refugees referred to the United States for resettlement must 
pass through enhanced review procedures implemented by U.S. Customs and 
Immigration Services (USCIS). Prior to entry, refugees must pass a 
health screening to ensure they do not have a contagious medical 
condition. Finally, upon arrival at a U.S. port of entry for refugee 
admissions, a Customs and Border Protection Officer will review the 
refugee's documentation and conduct additional security checks. If 
there is doubt about whether an applicant poses a security threat, he 
or she will not be admitted to the United States.
    Less than 1 percent of refugees are resettled world-wide. There are 
more than 4 million Syrian refugees, and the United States has 
resettled a little over 2,700 Syrian refugees since the Syrian civil 
war began in 2011. While our resettlement impact has been small, it has 
demonstrated to other countries the importance of making opportunity 
for those who cannot return home.
    USCRI commends President Obama for his leadership in continuing to 
support the resettlement of refugees. USCRI stands with the President's 
statement that:

``The people who are fleeing Syria are the most harmed by terrorism. 
They are the most vulnerable as a consequence to civil war and strife. 
We do not close our hearts to these victims of such violence and 
somehow start equating the issue of refugees with the issue of 
terrorism.''
 increase funding for the department of homeland security to maintain 
                    the integrity of security checks
    Providing the Department of Homeland Security with increased 
funding for refugee security screening would allow it to maintain the 
reliability of the system while reducing inefficiencies in the current 
process.
    Beginning in 2011, additional security checks were implemented for 
refugees seeking admission to the United States. The additional 
measures have resulted in severe disruptions in refugee travel, unclear 
and erroneous results, and a ``looping'' effect where some checks 
expire while refugees wait in line for the next step in the process. 
This has made it nearly impossible for many refugees to travel, 
exposing them to further harm as they wait. Under the current system, 
there are 3 to 6 different biometric and biographic security checks 
performed depending on the applicant's age, gender, and country of 
nationality. The administration should consolidate security checks to 
eliminate the looping effect caused as checks expire while others are 
being conducted. A comprehensive biographic and biometric check 
acceptable to all agencies would improve efficiency, processing, and 
the protection of refugees.
    In addition, in instances where one individual's security checks 
are holding up a family or cross-referenced case, the individual should 
be informed in order to make realistic decisions about the family's 
future. Finally, increasing the number of USCIS interview officers 
would improve efficiency while allowing the system to maintain its 
comprehensive nature.
  increase support for the office of refugee resettlement to enhance 
                              integration
    Resettled refugees make significant economic and cultural 
contributions to their new communities. An increase in funding for the 
Office of Refugee Resettlement (ORR) to ensure adequate, stable, and 
sustainable resources and programming for newly-arrived refugees will 
only increase the ability of refugees to contribute to our Nation.
    Specifically, increased funding would allow ORR to further 
encourage and equip refugees for naturalization by increasing the 
number of civic engagement programs and access to English language 
training. Congress should also strongly consider funding the Matching 
Grant Program at higher levels. The Match Grant program enables 
refugees and other eligible individuals to become self-sufficient 
without resorting to Federal or State assistance programs. A variety of 
other programs support newcomers but are without sufficient or secure 
funding. This includes Ethnic & Community-Based Organizations, 
Preferred Communities, Elderly Programs, Home Childcare, Refugee 
Agricultural Partnership, Microenterprise, Individual Development 
Account, Cuban-Haitian, Technical & Training Assistance, and School 
Impact grants.
                            the need to act
    As a Nation of immigrants, we know better than most the importance 
of providing hope and opportunity to those fleeing persecution, and we 
expect our Government to continue to demonstrate leadership on this 
issue. As outlined above, our security screening process for refugees 
is incredibly thorough. Thus, we cannot let fear immobilize us and 
excuse inaction when refugees are in need of life-saving protection.
    I welcome any questions or opportunity to meet to discuss the 
program and our recommendations further. Thank you for your time and 
consideration.
                                 ______
                                 
 Statement of Andrea Cristina Mercado and Miriam Yeung, Co-chairs, We 
                            Belong Together
                            February 3, 2016
    Chairman McCaul, Ranking Member Thompson and Members of the 
committee, we are Andrea Cristina Mercado and Miriam Yeung, co-chairs 
of We Belong Together. Thank you for the opportunity to submit 
testimony for inclusion in the record for today's hearing.
    We Belong Together is a campaign co-anchored by the National 
Domestic Workers Alliance and the National Asian Pacific American 
Women's Forum to mobilize women in support of common-sense immigration 
policies that will keep families together and empower women. We Belong 
Together was launched on Mother's Day in 2010 and has exposed the 
dangerous impact of immigration enforcement on women and families, 
advocated for comprehensive immigration reform legislation and 
campaigned President Obama to take Executive Action to improve the 
broken immigration system.
    Women make up over half of all immigrants in our country today and 
it is estimated that there are over 5 million undocumented women in the 
United States. Over the past year, tens of thousands of women and 
children have fled gender-based violence and gang recruitment in 
Central America and sought refuge in the United States. Currently, 
Syria is experiencing a humanitarian crisis with 4 million refugees 
fleeing the country and 8 million internally-displaced persons. Over 
75% of these refugees are women and children and more than half are 
under the age of 18.
    Immigrant women who are community leaders, mothers, workers, and 
survivors of gender-based violence continue to get ensnarled in the 
over-funded and punishing immigration enforcement system. Across the 
country, immigrant women who lead our campaign have looked to National, 
State, and local officials for humane solutions that honor the dignity 
and human rights of migrants.
    We urge the United States to act as a true global leader and offer 
protection to refugees and treat all migrants within our borders with 
fairness and dignity--this would include those seeking protection at 
our borders as well as admitting refugees from Syria and around the 
world. This committee should ensure that growing anti-immigrant and 
anti-Muslim sentiment do not guide policy decisions--this would be un-
American, inhumane, and dishonorable to the dignity of migrants seeking 
safety and protection in the United States.

    Mrs. Torres. Thank you.
    So Mr. Rodriguez, Mr. Taylor, thank you so much for the 
briefing that we received yesterday, making yourselves 
available to us to brief us in a Classified setting. So I want 
to make sure that I understand this process. As you know, I 
have been very involved in the refugees that were placed in my 
home city. I have had meetings with them about the interview 
process and asked them directly from their perspectives as to 
what was their experience. Two families, very young children, 
and one has a male that was, I think, 15 or 16 years old when 
they started the process. He is 19 now, 19, 20 now.
    Now, social media, for a 3-year-old, obviously that 3-year-
old, unless it is an American 3-year-old, like my 1-year-old 
grandson, may not have a social media account, may not have a 
social media presence, right? So when we ask you to check all 
10,000 of those through a social media process, that could be 
impossible. Is that--can you explain that process to me?
    Mr. Taylor. I don't think it would be impossible. There may 
not be a social media presence----
    Mrs. Torres. Right.
    Mr. Taylor [continuing]. For all 10,000 of those 
individuals, but the capacity to determine that is something 
that is certainly within--where we are trying to drive 
towards----
    Mrs. Torres. Right.
    Mr. Taylor [continuing]. For the future.
    Mrs. Torres. So the male, the young male explained to me 
that for every one appointment, interview appointment that the 
family had, he had 2 or 3 additional appointments. Cell phone 
records, phonebooks, any information that he could provide to 
the Department was asked at--in very different meetings to 
ensure that he was telling the truth or to verify that he 
wasn't giving different types of statements.
    Mr. Rodriguez, that interagency check that you were 
beginning to explain earlier, can you provide a little bit more 
detail----
    Mr. Rodriguez. Sure.
    Mrs. Torres [continuing]. Information on that?
    Mr. Rodriguez. Sure. I think the example you are citing, 
and I am assuming that that was a refugee interview overseas, 
but it may have been some subsequent activity here in the 
United States.
    Mrs. Torres. No. It was overseas.
    Mr. Rodriguez. It illustrates the point that I was trying 
to make to Congressman Smith, which is, we don't just hear what 
the person has to say. Where there are reasons to, we go beyond 
and look for documentation that either helps us explore issues 
that may exist or help us corroborate information that is 
presented in the testimony.
    Speaking specifically about the interagency check, and I am 
not at liberty in an open setting to talk about everything that 
sort of sits behind that check, everything that is queried as 
part of that check, but the point of the interagency check is 
it gives us a one-stop place to access all intelligence 
holdings, all law enforcement holdings that could carry and, in 
fact, in some cases, have carried derogatory information about 
an individual. So that is----
    Mrs. Torres. I don't have a whole lot of time. I do want to 
ask you: Is it in the best interests of the United States to 
have a robust process there overseas rather than closing that 
process that would possibly encourage more Syrian refugees to 
take on a path to come through our Southern Border and present 
themselves, knowing that once they are here, they are here and 
we have to deal with them at our border?
    Mr. Rodriguez. I think that is one--another critical point, 
which is, we can either have an orderly internationally-based 
system of migration where we are working together with our 
allies and create an actual opportunity for permanent 
resettlement, or we can have hundreds of thousands and millions 
of people who are displaced without any prospect of immediate 
settlement, meaning their kids don't go to school, they don't 
have any kind of economic security. That will have consequences 
for the entire world if we allow that to happen.
    Mrs. Torres. Thank you. My time has expired and I yield 
back.
    Chairman McCaul. Mr. Barletta from Pennsylvania.
    Mr. Barletta. Thank you, Mr. Chairman.
    Director Rodriguez, my constituents in Pennsylvania are 
worried about their safety when they hear that the refugees are 
coming into the Commonwealth, because they simply don't trust 
the vetting process. To be honest with you, I have a lot of 
concerns too, and here is why: Here in this committee, 
according to former FBI Assistant Director Tom Fuentes, our 
human--and this is his quote--Our human resources in Syria are 
minimal, and we don't have a government we can partner with, 
and that is a key thing.
    No. 2, National Counterterrorism Center Director Nicholas 
Rasmussen explained that the intelligence picture that we have 
had of this Syrian conflict zone isn't what we would like it to 
be; you can only review data which you have.
    No. 3, FBI Assistant Director Michael Steinbach said that 
the concern in Syria is that we don't have the systems in place 
on the ground to collect the information. All of the data sets, 
the police, the intel services that normally you would go and 
seek that information from don't exist.
    No. 4, FBI Director James Comey said: We can query our 
databases until the cows come home, but nothing will show up, 
because we have no record of that person. We could only query 
what we--what you have collected.
    My question to you is: Can you confirm to us today that not 
one single refugee who doesn't show up on our databases is 
admitted into the United States?
    Mr. Rodriguez. I think that is the point that I was--if you 
don't show up on the databases, it means there isn't derogatory 
information. It means we don't have----
    Mr. Barletta. Well, that is not true. I don't think anybody 
here believes that. I don't think any--we have no database to 
check doesn't mean that there is no history, we have no records 
or we cannot count on the Syrian government to give us that 
database, so that doesn't mean that nothing exists----
    Mr. Rodriguez. We----
    Mr. Barletta [continuing]. It means that we just don't have 
any database to collect that information. I don't think anybody 
here believes that.
    Mr. Rodriguez. Well, I think one of the key parts that I 
have been trying to----
    Mr. Barletta. This is why--this is why the American people 
don't trust us allowing people in here, because they don't 
think we are getting a straight story.
    Mr. Rodriguez. I think I--if I had a couple moments to 
describe the entire process, which is a lengthy process that--
--
    Mr. Barletta. No. I would like you to answer my question 
first. Can you confirm today that not one single refugee from 
Syria will be admitted into the United States if they don't 
show up on a database? Can you confirm today that not one 
person will be allowed in?
    Mr. Rodriguez. If they don't--there are people who have 
been admitted who haven't shown up on databases.
    Mr. Barletta. Okay.
    Mr. Rodriguez. That doesn't mean we don't take other 
steps----
    Mr. Barletta. That doesn't mean--that doesn't mean----
    Mr. Rodriguez [continuing]. That there are other things we 
do to satisfy ourselves that the person we are admitting does 
not pose a threat. So I think you need to hear how the whole 
process works before focusing on one element of the process 
as----
    Mr. Barletta. See, it only takes one person. Doesn't--
doesn't take an army. Your family, my family, every single 
person here's family, that family is the most important people 
in the world to you. It only takes one person.
    I don't think we should allow one single refugee into the 
United States if we cannot confirm factually that we have 
checked the database and we can confirm that that person does 
not possess an intent or a threat to the American people. I 
want to go on, because I--I got the answer I wanted there.
    You know, I have been saying since I have been in Congress 
that--and I know sometimes I sound like a broken record, that 
the 9/11 Commission Report taught us many times that the best 
weapon that terrorists have is a valid travel document, because 
terrorists want two things: They want to get into the country, 
and then they want to stay here just long enough to carry out 
their mission. More than 40 percent of illegal immigrants that 
are present in this country came here legally and they have 
their visa expire, and then they never left, and we can't find 
them. You know, if your State is home to an international 
airport, I believe you are a border State.
    Of approximately 400 individuals who have been convicted in 
the United States as a result of international terrorism-
related investigations conducted from September 2001 through 
March 2010, approximately 36 were visa overstays. I don't 
believe there is a strong enough deterrent to--for anyone who 
wants to overstay their visa, and that is one reason I 
introduced a bill of visa overstay, which brings the visa 
overstay laws in line with current law for crossing a border 
unlawfully, makes them parallel, making it a crime to overstay 
your visa, and there is more of a deterrent.
    Under Secretary Taylor, would you agree that tougher 
penalties and clarity in the law will help agents perform their 
jobs? Do you think we need to have a tougher deterrent than 
we--than exists right now for those who are thinking of 
overstaying their visa?
    Mr. Taylor. Sir, at this point, what I would say is that 
the Department, for the first time in history, produced a visa 
overstay report that had been asked for from this Congress for 
many years. This is an area of great concern to our Secretary, 
and he has directed CBP and ICE to work on potential solutions 
that would deter individuals from wanting to overstay their 
invitation to our country.
    I am not in a position today to tell you what that is going 
to look like, but I know that that direction has been given, 
and I am sure the Secretary will be happy to address that issue 
once he has had a chance to have his team consult on it.
    Mr. Barletta. Thank you. Thank you, Mr. Chairman.
    Chairman McCaul. Mr. Perry from Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    Gentlemen, lady, thank you very much for your time here 
today.
    Mr. Rodriguez, can you tell us the last time you read the 
National Security Strategy?
    Mr. Rodriguez. I am not sure I have read the National 
Security Strategy. I will acknowledge that.
    Mr. Perry. Okay. So I am looking at your resume here, which 
was provided to us, and I am assuming it is correct. It goes 
back to 1997. I see that you spent some time in Pennsylvania, 
but I don't see any foreign--any service in--in foreign 
countries or with the State Department or whatever. The reason 
I bring this up, as I listened to your opening statement, I 
found it breathtaking that you lecture and suggest to the 
United States Congress, the representatives of people, that 
this refugee program is a vital part of foreign policy and 
National security.
    While I appreciate your opinion in that, that is wholly out 
of your purview, sir. Your job as director is to carry out the 
policies therein prescribed. So while you are trying to impose 
a narrative on America through its representatives and make us 
somehow feel bad that we don't agree with you, I just want to 
say for the record, you seem completely out of your lane in 
that regard.
    With that, I am looking at Privacy Policy for Operational 
Use of Social Media. Are you familiar, sir?
    Mr. Rodriguez. Yes, sir.
    Mr. Perry. Okay. So if I go to D, Rules of Behavior, No. 5, 
it says, respect the individual's privacy settings, and access 
only information that is publicly available unless the 
individual whose information the employee seeks to access has 
given consent to access it.
    Can you tell us how this policy enhances to the fullest 
extent capable the security and safety of the United States?
    Mr. Rodriguez. That--that is a generalized social media use 
policy that you are talking about. In fact, we are, as part of 
the work that we are--when we are querying social media, we are 
querying without the active consent of the individual. We are 
extensively querying the social media accounts.
    Mr. Perry. So is this policy going to change?
    Mr. Rodriguez. Well, this is the--sort of the ordinary 
baseline that you are looking at. In fact, there are----
    Mr. Perry. But shouldn't the ordinary baseline, even 
considering Mr. Barletta's questioning regarding databases and 
information that we don't have where we are relying on many 
systems, but arguably, on the fidelity of the individual 
themselves, shouldn't the policy--shouldn't the default setting 
be that we are going to check everything, and we will make 
exceptions when we don't need to check everything, because it 
seems to me the default setting is we give all these people the 
benefit of the doubt unless we find something derogatory.
    Mr. Rodriguez. I think there is a more significant 
practical issue here, which is all we can access, all we have 
the technological tool to access is the public-facing 
statements that individuals make. We--we do not have a way to 
reach private----
    Mr. Perry. We understand that, but the policy says--as a 
matter of fact, if I go further into this policy, which is 
Privacy Policy Guidance Memorandum, January 19, 2007. I am 
assuming you are familiar. Right? It says here that it is--
under this policy, DHS components will handle non-U.S. persons' 
information held in mixed systems in accordance with the Fair 
Information Practices as set forth in the Privacy Act, thereby 
giving people that wish to come to this country that we know 
little about, the same rights as every American citizen.
    Mr. Rodriguez. Yeah. That is one document among a series of 
policies that govern what we are doing. Again----
    Mr. Perry. So which policy countervails this one?
    Mr. Rodriguez. Well, we can certainly walk you through 
that. It is an extensive----
    Mr. Perry. Do you know what----
    Mr. Rodriguez. Well, it is an extensive set of both 
policies and practices that we have that have been issued in 
particular in the last year, which give us proactive 
authorization to look at social media accounts as part of our 
security vetting for people we are admitting.
    Mr. Perry. But is that the default setting or is that the 
exception, based on this policy from your agency?
    Mr. Rodriguez. I guess what I am telling you is what we are 
doing, which I think is the most important thing. We can parse 
what the policies say. What we are doing is we are looking--
when we are looking at social media, we are looking at it----
    Mr. Perry. You just said----
    Mr. Rodriguez [continuing]. And----
    Mr. Perry. Hold on a second. When we are looking at social 
media. So I picture myself, not as you; you are the director. I 
am one of the folks out in the field looking at policy 
statements, and this is my job and it says, well, I have to 
treat all these people that I don't know anything about, don't 
know the culture, don't know the language, could be a 
terrorist, like every American citizen unless I--do I call you 
and say----
    Mr. Rodriguez. Yes----
    Mr. Perry [continuing]. Hey, I am not sure about this one?
    Mr. Rodriguez. But that is not what we are doing. What I am 
telling you is we are looking with the appropriate linguistic 
support, we are looking at these accounts right now without 
necessarily seeking the specific consent of the individual.
    Mr. Taylor. Congressman, if I might----
    Mr. Perry. Yes, sir.
    Mr. Taylor [continuing]. Follow on from the director. This 
policy was written in 2012.
    Mr. Perry. Correct.
    Mr. Taylor. It was promulgated by our privacy office. It 
was not promulgated as a part of a broader DHS strategy for the 
use of social media in our--in our operations across the 
Department.
    One of the responsibilities the Secretary has given to my 
task force is to rewrite our policy to bring it up to current 
standards, to make it----
    Mr. Perry. When can we expect that, and what is the interim 
guidance? If you don't mind, Mr. Chairman. What is the interim 
guidance? What do agents in the field at this time, what is 
their guidance, and when can we expect the change----
    Mr. Taylor. Agents in the field today have 33 clear policy 
pronouncements, and I can get those for you, by their 
components that outline their day-to-day use of social media. 
My intent is to have a policy before the Secretary within the 
next month, it is on my--my shopping list of things that I have 
got to get done. But this policy was written in 2012 as a 
baseline for how the Department would use social media. 
Certainly, the environment and the technology has changed 
significantly----
    Mr. Perry. Yes.
    Mr. Taylor [continuing]. Since that policy was written, and 
that is why the Secretary wants a comprehensive----
    Mr. Perry. I look forward to that information.
    Mr. Taylor. Yes, sir.
    Mr. Perry. Thank you.
    Chairman McCaul. Mr. Katko from New York.
    Mr. Katko. Thank you, Mr. Chairman.
    We have had a robust discussion about the things you are 
doing to enhance the vetting process for refugees and for 
people coming into this country in general. I want to flip it 
on the head a bit and talk about what we should be doing, 
because I think in this instance especially, when it matters to 
National security, we need to strive for perfection at all 
times, and that is why, General, I was very heartened by your 
comments when you said that you are constantly rechecking the 
process as to how we can get better, because that is exactly 
the attitude we need to have.
    So I just have one pointed question for you and then I have 
got a secondary question that is more general, and the question 
for you is, in enhancing the vetting process for mining the 
public access to the internet, how much input are you getting 
from the private sector? I ask that because in my role as 
Chairman of the Subcommittee on Transportation Security, it has 
become apparent to me that Homeland Security in general and TSA 
in particular do not do a good job--a good enough job of 
looking at what is going on in the private sector. Necessity is 
the mother of invention. There are a lot of good ideas out 
there. I think sometimes Homeland Security's procurement 
process is somewhat insular and it is preventing you from 
getting the ideas that are out there, and I give you one 
example.
    There are public companies that do a terrific job with 
creating algorithms that they use in the private sector to mine 
the public--to access public sources over the internet to vet 
people, and we are not doing that on the Homeland Security 
level, and I think we need to. So with that, I will just ask 
you that question.
    Mr. Taylor. Thank you very much for the question, sir. It 
is really a part of the charter I have been given by the 
Secretary and our task force, not only to look at best in class 
within our Department and within the Government, but best in 
class in the private sector. To that end, we have announced an 
industry day at the end of February where we are going to 
invite folks from across the private sector to come in and tell 
us what is--what they are doing, how they are doing it, and how 
that might help us with the mission that we have set forth.
    So we recognize--as you know, I came back to Government 
from the private sector, where there is a lot of innovation, 
and we should exploit that innovation as we move forward in 
this effort, and that will be a big part of what we do.
    Mr. Katko. Well, I applaud that, and I would like to hear 
you--have you report back to us what you are doing in that 
regard, because that is somewhat of a sea change from how they 
viewed it in the past, and, you know, sticking with the same 
vendors and same old ideas you are comfortable are not how we 
are going to solve this problem or get better at this.
    Mr. Taylor. It is not innovation.
    Mr. Katko. Right.
    Mr. Taylor. So we will be happy to come back----
    Mr. Katko. Right.
    Mr. Taylor [continuing]. As the task force develops.
    Mr. Katko. I appreciate it. By the way, I take it all 4 of 
you agree that mining the public sources of the internet is 
wholly appropriate when trying to keep our country safe. Is 
that correct? I think you all agree with that.
    Mr. Taylor. Absolutely.
    Mr. Katko. I just note for the record that everyone is 
nodding their head, and that is--and I am glad to hear that.
    Now, with respect to--switching gears a bit. We have talked 
a lot about the Kentucky incident where an Iraqi individual 
slipped through the cracks and then plotted some terrorism 
activity here in the United States before they were caught and 
arrested and convicted, and, obviously, that is of huge 
concern. Then we also heard about, not so much in refugee 
process, but a more recent case of Tashfeen Malik, where we 
just didn't find out how radicalized she was before she got 
here.
    So obviously there are gaps, there are problems. So instead 
of telling me what you have done, tell me what you have learned 
from those two cases--and I just throw it out to anybody--what 
you have learned from those 2 cases that you can do better, 
because in both of those cases, we missed--missed them, and one 
was particularly a refugee process, the Kentucky case. Tashfeen 
Malik was a visa case, and in both cases, we missed it. Now, I 
am not criticizing. Tell me what we can do to make it better?
    Mr. Taylor. Sir, I--and I think it has been clear from the 
Members of the committee, everyone that sits at this table 
understands, personally and professionally, the challenge that 
we face in terms of protecting this country from folks that 
would do her harm. Our process is very clear. Every failure 
becomes an opportunity to learn; every failure becomes an 
opportunity to develop new tactics, techniques, and procedures 
and to go back and examine it, just as we did in the private 
sector. When we had failures, we go back and we take a look and 
improve. Every day the system is evolving.
    Every day, because everyone in this business today, 
understands that the American standard is it only takes one, 
and we don't want that one to happen; unfortunately a couple 
have, but our process is not to say, we got it; the process is 
to critically examine what we do, why we did it, why the 
failure occurred, and adjust our processes and procedures to 
address that.
    Mr. Katko. So tell me what--in these 2 particular cases, if 
someone can answer me in particular, what did you learn from 
those two cases?
    Mr. Taylor. We learned that, potentially, we should have--
in the Malik case, which is why we are looking at the K-1's and 
social media, that perhaps we didn't explore as many sources as 
we could have explored, although her private social media would 
not have been available, and so we have begun the process of 
developing a system to do that.
    In the Kentucky case, we have gone back to look at the 
vetting and the sources that we use for vetting, and they were 
not as extensive as they needed to be. Since the--that case 
came to light, we have significantly enhanced the screening 
processes that are used in our intelligence and law enforcement 
partners for that purpose.
    So in each case, we do a deep dive in terms of the--what 
the failure was, figure it out, and adjust processes 
appropriately.
    Mr. Kubiak. I would just like to also point out that we 
aren't just learning from the incidents in the United States, 
but we are constantly evaluating those instances as they occur 
around the world and partnering with our foreign law 
enforcement counterparts. So in the instance of Paris, we were 
involved through our attache offices in scrubbing the 
information that was being shared from law enforcement about 
the attackers and were able to make significant contributions 
back to that, while also tightening our own defenses. I would 
be happy to give some much greater detail in a Classified 
setting so we don't divulge methods and tactics in an open 
forum. But it is not just waiting for an event to occur in the 
United States, but it is proactively through law enforcement 
and through our law enforcement capabilities adjusting our 
tactics as the world evolves.
    Mr. Taylor. Sir, I would add one more thing. Every week, I 
chair or co-chair with the Secretary our Counterterrorism 
Advisory Board. Every morning, I meet with the Secretary on new 
intelligence that has come in, and through the CTAB, we 
challenge our components based upon intelligence, based upon 
what is changing, what have we done differently. It is the 
first time in the history of our Department that we have had--
and every component head sits at the table for accountability 
from our Secretary.
    So we have developed a counterterrorism posture that says 
intelligence is changing, we need to change, and we need to 
understand how that intelligence changes our defenses, and we 
do that on a weekly basis. It is why we have changed aviation 
security, lots of other things going forward. That has been at 
the direction of the Secretary.
    Mr. Katko. Thank you.
    Thank you for your indulgence, Mr. Chairman.
    Chairman McCaul. Mr. Donovan from New York.
    Mr. Donovan. Thank you, Mr. Chairman. I thank each of you 
for what you are doing to protect our country.
    All the testimony we heard today was about reevaluating and 
improving our screening process with the visa applicants. I am 
concerned with another significant gap in our security, and 
maybe we could talk about that a little bit. It has been 
publicly reported that there are probably hundreds of thousands 
of stolen Syrian passports, some of which are actually blank, 
and it is suspected that these documents are in the hands now 
of the Islamic State.
    We have heard about our counterparts in the European 
countries saying that there is a real industry in selling these 
false documents or stolen documents, and at least 2 of the 
attackers in Paris apparently had false Syrian passports and 
they entered the European Union through Greece with them.
    This proliferation of genuine documents used maliciously by 
groups like ISIS present a real challenge for our screening 
process. I was just wondering, is the information that is being 
reported confirmed, is that the information that you are 
dealing with as well, because we are getting reports from the 
press about it, and if it is, what are each of your agencies 
doing to deal or combat, address that issue?
    Mr. Taylor. Sir, I would ask Mr. Kubiak to address that. I 
think the specifics are probably handled in a close--closed 
setting as opposed to this venue.
    We are concerned about any false documents that could be 
used to move anywhere in the world, and--but we have systems 
to--that we are working with from an international perspective 
to address that particular issue you outline more fully, but I 
would like to do that in a closed session.
    Mr. Donovan. Thank you.
    Mr. Rodriguez. Yeah. If I may just jump in before Mr. 
Kubiak. We are aware of the issue you are describing. I 
wouldn't say much more in this setting, but what I do want to 
say is that is a critical and well-developed component of our 
screening, and that as situations arise, we take specific steps 
with respect to those situations, like the one you just 
described, and that is all, again, I would say, in an open 
setting.
    But I essentially want to communicate that we are on it, 
and we can talk about it in greater depth in a different 
environment.
    Mr. Kubiak. Thank you for your question. Fraudulent 
documents are a critical part of the ICE investigative mandate 
as we look at all illicit travel and illicit finance that funds 
illicit travel as it occurs around the globe.
    ICE has, and has had for a number of years, one of the 
world's most renowned forensic laboratories, which specializes 
specifically and is located not far from here if any of you 
would like to take a tour or get a view of it. It has immense 
capabilities that are supplied to the United States Government, 
to CBP, to our State Department colleagues, to CIS and to 
others on evaluating false documents, recording lost and stolen 
documents, like the ones that you are referencing, and 
promulgates that and shares that information, legitimate travel 
documents, with other countries so that we are able to up our 
defenses and know what the current entry documents are and how 
the fraudulent documents, either fake or stolen real, are used 
in this network to supply criminals and terrorists potentially, 
travel networks and travel capability.
    Happy to give you--because it is such a big part of what we 
do, happy to give you a much more significant briefing in a 
Classified setting if we can.
    Mr. Donovan. Secretary Kubiak, you just mentioned how we 
share that information with our allies. Are our allies, the 
European Union, are they sharing their information with us as 
well?
    Mr. Kubiak. Yes. So it is a broad question, because types 
of information, and, again, we could get into that in a 
different settling, but, yes, on passport requirements, we are 
getting information quite regularly from foreign governments 
that says this bank of passports are stolen or this is a 
compromised or this is a false document that we have identified 
and utilized, and here is information that we have about others 
that may be similar, and we are sharing that back and forth 
around the globe.
    Some countries more so than others, obviously, and some 
more robustly than others, but, yes. Again, we can include that 
in a briefing for you as well.
    Mr. Donovan. Ms. Bond, I didn't want to leave you out if 
there was anything you needed to add.
    Ms. Bond. No. Only to add that we do work very closely on 
this, and also participate in reporting any lost or stolen U.S. 
passports, for example. Once that is reported to us, we make 
sure that it is immediately registered with INTERPOL so that it 
is available to other nations and, of course, across the 
interagency.
    Mr. Donovan. Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. Mr. Hurd from Texas.
    Mr. Hurd. Thank you, Mr. Chairman. Thank you to the panel. 
I just want to start off by saying the men and women that make 
up your organizations, I recognize the difficult task they are 
charged with, I recognize the environment in which they 
operate, and they should be commended for their hard work. 
Sometimes we get askew on policy, but the men and women in your 
organizations are trying to do everything to keep us safe.
    Director Kubiak, what is a special interest alien? Can you 
explain that in very--as short period as you can?
    Mr. Kubiak. Sir, we use--we talk about individuals from 
other countries. So typically now what I refer to is an 
individual not from Western--the Western Hemisphere who is 
coming in through, when we talk about smuggling networks, into 
the United States.
    Mr. Hurd. When you talk about refugees, are you including 
asylum seekers in that category?
    Mr. Kubiak. I would defer to Mr. Rodriguez on that 
specifically.
    Mr. Hurd. It is not a trick question, Mr. Rodriguez. I just 
want to be clear on the terms that we are using.
    Mr. Rodriguez. Yeah. No. The--a refugee is an individual 
who is abroad who is making a claim for protection; an asylee 
is making a protection under the same basic legal construct, 
but they are doing it from----
    Mr. Hurd. But they are doing it here, and that is where I 
would like to focus my 3\1/2\ minutes on.
    Can you describe the difference between the vetting that 
goes on between asylum seekers and refugees, because my 
understanding is a refugee overseas is going to a number of 
refugee camps sponsored by the UNHCR, they go through about a 
year of vetting, then State Department does vetting, then DHS 
does vetting.
    Those asylum seekers that are showing up, who is doing the 
vetting of that asylum seeker if they are coming from one of 
the countries where they are designated as a special interest 
alien?
    Mr. Rodriguez. Yeah. That is a key point. It depends on 
what country, the answer to your question depends on what 
country they are from. When they are from the countries of 
particular concern, virtually all of the process ends up being 
the equivalent of the process that occurs overseas in terms of 
the kinds of interviews, the preparation for the interviews, 
the kinds of checks that are done. However, in that situation, 
it is often a joint undertaking between us and our partners at 
ICE, and also our partners at Customs and Border Protection, a 
lot of that depending on how it is we encounter the individual: 
Do we encounter them at the port of entry or is a situation in 
the interior?
    Mr. Hurd. That person that is seeking asylum, where are 
they when you are going through that process?
    Mr. Rodriguez. They could--again, they could be--well, 
where are they meaning--I think your question is are they in 
the community? That is----
    Mr. Hurd. Are they in a detention facility? Are they 
released on their own recognizance to a family member or 
someone in the community while you are doing your vetting?
    Mr. Rodriguez. Depending on the facts and circumstances, it 
could be any of the above. If they are at a port of entry, that 
is something that Immigrations and Customs Enforcement makes a 
determination as to whether that individual will be released or 
not. My understanding is they don't do it if there is any 
concern in that case about doing it.
    Mr. Hurd. How long does that vetting process take, average? 
I know every case is different. Are we talking 2 weeks, are we 
talking 2 months, are we talking a year?
    Mr. Rodriguez. I would not attempt to get--to give an 
actual. I think it incredibly variable depending on the 
country, the nature of the case, the composition of the family. 
It can be incredibly variable. So I don't think I would be able 
to give you any kind of credible average time. I don't know if 
Mr. Kubiak has anything he would add to that.
    Mr. Kubiak. No. That is correct. It is very specific to the 
circumstances of the individual, the situation that they have 
arrived in the United States, and then what--what process they 
are going to undergo next.
    Mr. Hurd. So you all are saying that the level of vetting 
of asylum seekers is on par with the level of vetting that a 
refugee goes through?
    Mr. Rodriguez. That the tools we use are just about the 
same tools that we use overseas. Again, in a different setting, 
we can go into detail as to how that is done.
    Mr. Hurd. Great.
    Ambassador Taylor, it is always a pleasure to see you. Are 
you getting enough intelligence on human smuggling 
organizations or human trafficking kingpins in places like 
Ecuador, Brazil, Colombia, Panama, Guatemala, and Mexico, 
because those are the networks that are going to be 
facilitating folks from the countries that are going to try to 
do us harm, to take advantage of our asylum program?
    Mr. Taylor. I am getting significant intelligence through 
our ICE organization and from the intelligence community. It is 
not perfect information, but certainly it is an area of very 
high priority for us in terms----
    Mr. Hurd. On the National intelligence priority framework, 
do you think that human smuggling is high enough on that list?
    Mr. Taylor. I wouldn't say that it needs to be high enough 
on that list. It needs to be a high focus for our Department. 
Whether it is on the priorities framework or not, it is the 
bread and butter of what we do. And----
    Mr. Hurd. Amen.
    Mr. Taylor [continuing]. So we have focused on that to a 
great extent. Much of the intelligence about migration and that 
sort of thing comes from our law enforcement partners, from CBP 
and from ICE, that goes into the IC. So it is our 
responsibility. We are working hard on better understanding 
that phenomenon and interdicting as appropriate.
    Mr. Hurd. Good copy.
    I yield back, Mr. Chairman.
    Chairman McCaul. Thank you. Mr.--Ms. McSally from Arizona.
    Ms. McSally. Thank you, Mr. Chairman. Thank you for your 
testimony and the work that you are doing to try and keep our 
country safe. I have heard a lot of discussion, I know some of 
this you can't answer in this setting, of things that are being 
discussed or debriefed or best practices, things that are about 
to be put into place. I realize, well-intentioned, but there is 
also bureaucratic barriers, right, to moving things quickly. I 
have often said, you know, ISIS is moving at the speed of 
broadband while we are moving at the speed of bureaucracy. You 
know, some of those are challenges that you all deal with as 
you are trying to move things forward.
    But just to be clear, and I know you don't want to get into 
details, have we made changes to the K-1 program since the 
Malik case in San Bernardino? Like, are there changes now in 
place--you can tell us what those changes are Classified, but 
do we currently have changes in place based on what we learned 
from the failures in that case?
    Mr. Rodriguez. I wouldn't say--I would say that the case 
made us look at the process all over again, and we identified 
new opportunities to do better.
    Ms. McSally. But is there something changed now or are we 
still----
    Mr. Rodriguez. Yeah. No, no. That is----
    Ms. McSally [continuing]. Looking at it?
    Mr. Rodriguez [continuing]. That is one of the things I 
want to drive at. So our--and then I am going to turn it over 
to Assistant Secretary Bond. Our primary sort-of lever in that 
process is at the time that the individuals seek green cards, 
and so what we are doing, we are going to use it for K-1, but, 
frankly, we are going to look at this really across all 
immigration categories, is how we more strategically use the 
interviews that we conduct when we give green cards.
    Ms. McSally. Yeah. So--and I don't want to spend a lot of 
time on that, because we have talked about it already. Again, 
I--what we are doing or going to do versus has something 
changed today.
    Mr. Rodriguez. No. That is something that is different now.
    Ms. McSally. Okay.
    Mr. Rodriguez. So we are going to be--we are going to be 
using those more intensively in a more strategic and targeted 
way with enhanced lines of questioning to target the kinds of 
issues that I know we are worried about.
    Ms. McSally. Okay. Great. Thank you. I want to reference, 
it is a little bit off the main topic of the terrorism, but, 
again, also challenges in bureaucracy of the IG report that 
came out a couple weeks ago about, again, just information 
sharing not happening related to human trafficking victims 
being trafficked into the country using our legal systems, that 
the IG report identified 17 of 32 instances where known human 
traffickers used work and the K-1 visa process to bring victims 
into the country legally, because information sharing between 
organizations wasn't what it needed to be.
    Two hundred seventy-four individuals, I am reading out of 
the IG report, subjected to ICE human trafficking 
investigations who successfully petitioned USCIS to bring 425 
family members and fiancees into the United States. They are 
using the legal system, human traffickers, to bring victims 
into the United States or family members.
    We marked up a bill yesterday to try and close these gaps, 
but has something changed since this IG report in place now to 
fix these issues? This is a travesty.
    Mr. Rodriguez. Yeah. One, we embrace the recommendations 
that were made in the IG report. Long before the report was 
issued, we were doing things to make sure that Mr. Kubiak's 
agency, my agency, are communicating in order to be able to 
each other do our jobs best. So that is--that is the state of 
affairs as we speak. I am sure Mr. Kubiak can speak to that as 
well.
    Ms. McSally. Well, and also just one more question again 
about known challenges that we have had. In the aftermath of 
the Boston bombers, one of the individuals arrested from 
Kazakhstan, I am sure you are familiar with this, didn't have 
an I-20, a current I-20, he was on a student visa, but he 
actually left the United States and then came back in, and he 
was let in. The finding was because CBP Officers at inspection 
stations did not have access to ICE's Student Exchange Visitor 
Information system.
    So, again, this is information sharing within one 
organization where the CBP guys checking him when he came in 
didn't have access that he didn't have a current I-20 on file.
    Has that been--these are all just, like, stovepipe 
information-sharing things. So has that been fixed?
    Mr. Kubiak. I would have to get back to you on that 
specific incident.
    Ms. McSally. Well, I am just saying in general, like, daily 
now are those--does CBP now have access to that SEVIS system?
    Mr. Kubiak. So the SEVIS system----
    Ms. McSally. Yeah.
    Mr. Kubiak [continuing]. The AFIS system, which is driven 
primarily by CBP and a little bit of the biometric exit issue 
that we talked about yesterday are connected and working 
together. So I would have to get little more detail 
specifically on what happened in that instance that prevented 
that, but I would be happy to get back to you on that.
    Ms. McSally. Yeah. Please do. Again, it is a broader 
question of we have just got, you know, bureaucracy and 
stovepipes and information sharing that we have got to figure 
out how to speed that up. So we have got known cases, whether 
it is the traffickers here or--you know, or the one associated 
with the Boston bombing, where we have identified where 
information wasn't being shared. Have we fixed that for the 
long haul? If you need to get back to me, that is great.
    Mr. Kubiak. I will get you an answer.
    Ms. McSally. I yield back.
    Ms. Bond. May I just add one thing to the question that you 
asked about the--what has happened as a result of the K-1 
review, because that was very much a joint operation and we 
were looking at our piece of the K-1. So I do want to say that 
there--there have been some actions that have already been 
taken, and, you know, not huge dramatic, but we spoke to the 
posts that handle the largest numbers of fiancee cases, got 
their SOPs and reviewed some of the standard things that they 
do working on these cases in high volume, and have shared those 
ideas out broadly to other posts and said adopt these ideas 
too. They will make you more efficient, they will help you to 
ensure you are not overlooking anything in the process. So that 
is an example of something that has already taken place as a 
result of the review.
    Mr. Katko [presiding]. Thank you, Ms. McSally.
    The Chair now recognizes the gentlewoman from Texas. Excuse 
me.
    Ms. Jackson Lee. Let me thank the Chairman and Ranking 
Member, and to all the witnesses for your presence here today. 
I know my colleagues have been extensive in their questioning, 
and so I will partly be engaging in some of my comments.
    For those of us who have been consistent and untiring 
supporters of immigration and immigration reform and the values 
of this Nation that from my early upbringing centered around 
that magnificent lady in the New York Harbor, the Statue of 
Liberty. As a child, that is what I grew up on, and I 
understood this Nation to be a refuge and to be a land of 
opportunity. Certainly, living in the skin that I live in, I 
have seen moments of those of us who live here experiencing a 
separate and segregated life. The questions of liberty and 
justice and opportunity have been a question for Americans. So 
I understand some of the angst that has been exhibited by 
Americans who may feel that jobs have been lost or security has 
been jeopardized.
    I have always said that the privilege I have of serving, 
not only in this Congress, but in this committee, which I take 
very seriously, even more, we are the front lines of security 
of this Nation, and it is our job to counter the negative, the 
angry, and the wrongheadedness of some public officials who 
want to condemn the very entity of which this country has been 
based, a land of immigration and immigrants and a land of laws. 
You all are the holder of this responsibility, along with the 
duty of protecting this Nation.
    So I am going to, having been in the Judiciary Committee 
and leaving for another committee as we speak, I am just going 
to ask all 4 of you to take the context of what I said, that 
this is a land of immigrants, and the question of recognizing 
the concern of the security question.
    I will start with you, Secretary Taylor. You were here 
before and you were dealing with the social media. So each of 
you will tell me what you are doing for those 2 points, 
securing the Nation, you may want to weave in the social media 
context how--that we are seriously using that as a tool so that 
we can do right by those who legitimately come to this country 
for the values of this Nation, and get those, and I mean get 
those who come to do us harm.
    Secretary Taylor.
    Mr. Taylor. Yes, ma'am. I would be happy to start.
    First and foremost, the mission of our Department and every 
person in our Department is to stop people who want to come to 
our country to harm our citizens or our way of life. It is how 
we have organized our screening and vetting. It is how we have 
built our partnerships with the intelligence community and law 
enforcement community. As you mentioned, we understand that our 
use of social media has not been as effective as it needs to 
be, which is why I am leading a task force to add that piece of 
information to our screening and vetting.
    One of your other colleagues had asked about how we adjust, 
because the enemy is adjusting as we speak in terms of tactics, 
techniques, and procedures. It is our everyday focus on how 
what we are doing mitigates the risks that we are seeing from 
intelligence and other activity. That is what we do every day. 
It is our solemn responsibility to this country. The Secretary 
has announced from the day he started on the 23rd of December, 
2013, that counterterrorism is the top priority of our 
Department and every official in our Department.
    Ms. Jackson Lee. Thank you. Mr. Rodriguez.
    Mr. Rodriguez. Yes. We are--we have had a number of robust 
tools in place and we are fine-tuning and refining those tools 
as we go along to ensure that any of the actually millions of 
people who we screen each year do not pose a threat to National 
security, to public safety. We use a series of tools. One of 
them is the interviews by very highly-trained officers, in 
particular, refugee officers, and we are always seeking to 
refine their training, not only their training, but their 
preparation for the specific environment that they are 
addressing.
    So if it is a refugee officer that is interviewing Syrians, 
we make sure that they are steep in the country conditions in 
Syria. That, alongside all of the technological and 
intelligence tools that we both use and fine tune as we 
continue to do our work.
    Ms. Jackson Lee. Mr. Kubiak.
    Mr. Kubiak. Ma'am, thank you for the question. I outlined 
what we did for--we are doing overseas with the visa security 
unit earlier, so I would just like to take a moment just to say 
that the key thing that we, that ICE brings to our National--
DHS's National Security Strategy is to identify those networks 
and those criminal organizations that are seeking every day a 
new way to exploit the security of the Nation's borders and 
working globally to be able to circumvent that security and 
those protocols that we have to move illicit goods and illicit 
people and illicit finance both into and out of the United 
States, whether it is to support terrorist--finance to support 
terrorist networks overseas, to obtain critical technologies or 
weapons in the United States and export them to other places, 
or whether it is to smuggle people and goods into the United 
States for nefarious purposes or criminal purposes.
    Really, our role is to identify those networks for the 
Department, to attack those networks, because you can try and 
stop and defend at the border and--but the goal is to push 
those borders out so that we protect the homeland by being 
abroad, and that we are identifying that entire network and 
identifying it, disrupting it, and dismantling it as we move 
through, and then gaining that intelligence so we can continue 
to harden our defenses.
    Ms. Jackson Lee. Thank you.
    Mr. Kubiak. We can't ensure everything.
    Ms. Jackson Lee. Secretary Bond.
    Ms. Bond. Yes. In the course of reviewing and assessing 
each visa application, the consular officers are part of a 
team, really. We often talk about the officer who does the 
interview, but that person is not working alone. Part of what 
we do is a very careful pre-screening review of applications in 
order to identify questions in the file and focus the time of 
the interview in the most valuable way, but in every office, we 
also have a unit specifically for fraud prevention. When an 
officer has a concern about a case, they can review that case 
for what you could call a deeper dive by the fraud prevention 
team that will be looking into things.
    We do use social media in cases where we believe that 
that--that that will give us the information we need to resolve 
questions that we might have, and along with our colleagues at 
DHS also looking at how we can make broader and effective use 
of social media, too.
    But we really invest in the staff to ensure that they are 
thoroughly trained to take on the responsibilities that they 
have in terms of personally interviewing and assessing the 
qualifications of every single visa applicant that comes to the 
window.
    Mr. Katko. Thank you, Ms. Jackson Lee.
    Ms. Jackson Lee. Let me just thank you, Mr. Chairman, and 
the Ranking Member, I always do that, and just say that I want 
us to remain a country of immigrants and laws and to keep our 
values that we have had that have built this country. I yield 
back.
    Mr. Katko. Thank you, Ms. Jackson Lee.
    The Chair now recognizes the gentleman from Texas, Mr. 
Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman. I thank the 
witnesses for being here today, for your testimony, and for the 
work that you do every day to support the primary role of the 
Federal Government, that being to provide for the common 
defense and to keep America safe from evolving threats.
    Right now, the evolving threats from radical Islamist 
jihadists are constantly on the minds of the nearly 700,000 
Texans that I represent, and for good reason. The terrorist 
attacks in Paris and in San Bernardino and in other places 
prove that those extremists intend to exploit, if possible, 
both the refugee and the visa processes to carry out mass 
killings against innocent people here in the United States and 
abroad.
    So I know you would agree with me we need to utilize every 
tool in our arsenal to ensure that the people coming to the 
United States, whether it is through the refugee program or 
through--or on a visa, that they are properly vetted, and in 
that regard, we all fulfill our obligation with respect to the 
Federal Government fulfilling its primary role to keep our 
citizens safe.
    So let me start and ask you a question, Under Secretary 
Taylor. Following the San Bernardino attack, there seemed to be 
a lot of confusion about whether or not under current policy, 
DHS immigration officials are allowed to review open-source 
social media when considering visa applications. I say that, 
your predecessor, John Cohen, was on record as saying during 
that time period, immigration officials were not allowed to use 
or view social media as part of a screening process.
    Now, following that, a spokesperson for DHS came out and 
said that the Department had begun 3 pilot programs to include 
social media in vetting. Then following that, the President 
came out and, I think in an effort to clarify, said that, and I 
will quote--Our law enforcement intelligence professionals are 
constantly monitoring public posts, and that is part of the 
visa review process.
    So help me out, help this committee out here. What is the 
current policy across the board with respect to DHS immigration 
officials' authorization to use social media as part of the 
vetting process for visa applicants?
    Mr. Taylor. Thank you for the question, Congressman. First 
let me, as I mentioned earlier in this hearing, Mr. Cohen's 
suggestion that the Secretary or any Department official had 
prohibited the use of social media by any official in the 
Department as of 2014 was just not true. We have had a policy 
in place since 2012. There are 33 instances to date where 
social media is being used by our components for the purpose of 
complying with their mission requirements.
    The one thing that we learned after San Bernardino, and why 
the Secretary asked me to take a review of all the social media 
use within our Department, was that our efforts were not as 
robust as they needed to be, and that we needed a comprehensive 
methodology within the Department for the application of social 
media--the use of--vetting of social media for our mission.
    We are involved in that task force today. We have made 
recommendations to the Secretary in terms of how we plan to 
proceed, and I have a--a work stream that I have promised to 
execute that will get us at a better place in terms of where we 
are, but there was no prohibition----
    Mr. Ratcliffe. Okay.
    Mr. Taylor [continuing]. As of 2014 for any official in the 
Department for the use of social media.
    Mr. Ratcliffe. So let me ask you, you say it has been part 
of the policy since 2012, it is being used. Is it allowed or is 
it required under that policy?
    Mr. Taylor. Under the policy from 2012, it set forth a 
framework established by our privacy organization in terms of 
how components should----
    Mr. Ratcliffe. I am just trying to get at is it always used 
every--are we----
    Mr. Taylor. I wouldn't say----
    Mr. Ratcliffe [continuing]. Using it as part of the process 
or is it just a tool that----
    Mr. Taylor. I think what we have learned is that it is not 
comprehensively used, and part of that is the technology.
    Mr. Ratcliffe. Don't you think it should be?
    Mr. Taylor. Absolutely.
    Mr. Ratcliffe. Okay.
    Mr. Taylor. That is where we are leading.
    Mr. Ratcliffe. So part of your recommendation is that it is 
going to be required?
    Mr. Taylor. In a center of excellence for the Department to 
ensure standardized effective social media use across our 
missions.
    Mr. Ratcliffe. Okay. If the Chairman will indulge me, I 
want to follow up with respect to that same issue as it applies 
to refugees. The FBI director testified before this committee 
and said something to the effect that if someone never makes a 
ripple in a pond in Syria, you know, we can vet our database 
till the cows come home, but it is not going to help us, 
because nothing is going to show up.
    So I understand that we have a robust vetting system in 
place when people are in the database, but Secretary Johnson 
and Director Comey both have testified before this committee 
that they lack the on-the-ground intelligence in places like 
Syria to confidently vet individuals.
    So, Director Rodriguez, how does USCIS incorporate social 
media as part of vetting into the refugee admission program?
    Mr. Rodriguez. What we are doing right now, and these 
efforts are focused on Syrians, is that in those cases in which 
there are flags of--elements of concern in the case, we do a 
social media review in those cases to further develop and 
determine whether there is any information in social media, 
which helps us resolve that case, either derogatory information 
that would lead possibly to a denial or that would satisfy us 
that the individual was okay.
    What we are building toward in very quick order, including 
what the necessary both training and linguistic capacity to do 
this kind of review, is to use that across, not only all 
Syrians, but also across all Iraqis as well. That is--we will--
we will start deploying that capacity. As we start hiring and 
training folks, we will be doing that in very short order.
    More importantly, we are going to be looking at using 
social media across all other immigration categories as well. A 
lot of that work is already done by Assistant Secretary Bond's 
folks at the consular level. We are looking at using--when we 
see people, for example, at the time of adjustment, there may 
be opportunities to do that work further at that stage as well.
    Mr. Ratcliffe. Okay. My time has expired, but just so I am 
clear, right now what you are saying is it is allowed only if 
there is a red flag?
    Mr. Rodriguez. No. It is being done. It is allowed in a 
much broader category, and we are authorized to build as 
quickly as we can do it in a much broader category. So I would 
view it as more active and directed rather than as merely 
permissive.
    Mr. Ratcliffe. Okay.
    Mr. Rodriguez. That is----
    Mr. Ratcliffe. But, again, not required?
    Mr. Rodriguez. Not in all cases, only because we need to 
bring that capacity on-line as fast as we can.
    Mr. Ratcliffe. Chairman, I appreciate your indulgence for 
the time, and I yield back.
    Chairman McCaul. The Chair recognizes the Ranking Member.
    Mr. Thompson. Thank you very much. Let me thank the 
witnesses for what I think was excellent testimony before the 
committee.
    Mr. Rodriguez, one thing that I think would--the record 
would need to reflect, is USIS's role in the refugee program. 
There were a lot of questions about it, but in the process of 
the questions, I never felt that you got a chance to answer. So 
can you give us the role that you play in this refugee process?
    Mr. Rodriguez. Sure. I think the key starting place is that 
we are one of a multitude of agencies that are involved in the 
process. It starts with the U.N. High Commission on Human 
Rights that first refers the cases to the State Department, 
who, in turn--and who, at that point, it is--the first round of 
security checks are initiated by the State Department. Both 
UNHCR and State Department conduct both information gathering 
and interviewing.
    We do the actual screening, meaning all that information 
that was gathered by UNHCR and also by the State Department is 
reviewed by our officers. We conduct an interview based on our 
knowledge of the country conditions, of the countries where 
these individuals are coming from. We sift through the results 
of those background checks in order to use that for 
interviewing purposes. Where we do look at social media, we use 
that as a resource.
    The burden is on the refugee, that is kind of--that is a 
critical point, to demonstrate to us that, No. 1, they qualify 
as a refugee, and that they are not inadmissible, for example, 
because they are a terrorist or they are aligned with terrorist 
organizations.
    Then the case goes back to the State Department that 
conducts both a medical screening and a cultural orientation. 
The database checking is going on a continuous basis from the 
first time the State Department initiates those checks right up 
until and beyond the time that those individuals are admitted 
to the United States. So if new derogatory information arises 
about those individuals, that pops, we learn about it, Customs 
and Border Protection learns about it, State Department learns 
about it, so that we can take appropriate action in those 
cases.
    We then see those individuals again, assuming that they are 
admitted, assuming we have not denied them for some reason, we 
see them again at the time that they apply for adjustment of 
status.
    Mr. Thompson. Thank you. Thank you, Mr. Chairman.
    Chairman McCaul. I thank the Ranking Member.
    Let me just close by saying that I commend the Department 
in the wake of San Bernardino for forming this task force in 
light of the 2012 policy. I know, General Taylor, you have 
taken some criticism, but moving forward, you know, it is the 
right thing to do to come up with the modern day of social 
media and make sure that is part of the vetting, screening 
process. To the rest of the witnesses, I know it is not always 
a comfortable process and it is not always painless, but it is 
our democracy and this is the voice of the American people 
asking you questions, and I want to thank all of you for your 
patience and for your testimony here today.
    The record will be open for 10 days. Members may have 
additional questions. Without objection, the committee stands 
adjourned.
    [Whereupon, at 12:31 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

    Questions From Honorable Barry Loudermilk for the Department of 
                           Homeland Security
    Question 1a. Recently, U.S. intelligence confirmed that over 6,600 
suspected ISIS fighters have passports from Western countries. Are you 
all aware of this?
    Answer. We are aware. The DHS Office of Intelligence and Analysis 
works closely with its partners in the intelligence community to 
analyze travel migrations of foreign terrorist fighters.
    Question 1b. If so, what are you doing to ensure these ISIS 
fighters do not ``legally'' come into our country on stolen Western 
passports?
    Answer. In response to the threat posed by the Islamic State of 
Iraq and the Levant (ISIL), other terrorist groups, and violent 
extremists, the Department of Homeland Security (DHS) continually 
refines border and travel security operations, focusing resources on 
the greatest risks, and extending security measures outwards, so that 
threats can be interdicted before they reach the homeland. DHS employs 
a layered approach to fraudulent document detection that begins when a 
traveler plans a trip to the United States until their actual arrival.
    Together with United States Government agencies and other partners, 
DHS adds and utilizes terrorism-related information in the National 
Counterterrorism Center's Terrorist Identities Datamart Environment 
(TIDE). If stolen passport information is linked to a specific Known or 
Suspected Terrorist, that information is included in TIDE as well. DHS 
is also participating in an interagency effort led by the Terrorist 
Screening Center to explore options to address the broader issue of 
blank, issued, or illegitimately-obtained passports that may have a 
nexus to terrorist organizations, such as ISIL.
    U.S. Customs and Border Protection (CBP) screens against the 
Department of State's (DOS) Consular Lost and Stolen Passport database 
(CLASP) for U.S. passports as well as the DOS Consular Lookout and 
Support System (CLASS) for foreign lost and stolen passports. CBP also 
screens against INTERPOL's Stolen Lost Travel Document Database (SLTD), 
which serves as a watch list of lost and stolen passports, visas, and 
identity documents for INTERPOL's approximately 190 member countries.
    DHS develops and strategically deploys resources to detect, assess 
and, as necessary, mitigate threats, such as those posed by foreign 
terrorist fighters, at every stage along the international travel 
sequence. CBP's Pre-Departure Targeting Program uses a layered 
enforcement strategy to prevent terrorists and other inadmissible 
aliens from boarding commercial aircraft bound for the United States. 
Three key components of the Pre-Departure Targeting Program are the 
Immigration Advisory Program, the Joint Security Program and the 
Regional Carrier Liaison Groups. CBP leverages all available advance 
passenger data including, Passenger Name Record data, Advanced 
Passenger Information System data, previous crossing information, 
intelligence, law enforcement information, and open-source information, 
to identify and mitigate potential threats. CBP uses rule-based 
targeting to identify possible foreign terrorist fighters and their 
travel routes.
    Question 2a. Back in October, this committee held a hearing on 
World-wide Threats and Homeland Security Challenges, where I asked DHS 
Secretary Johnson, NCTC Director Rasmussen, and FBI Director Comey 
about the refugee crisis. These questions were never answered, so I 
would like to re-ask them:
    There have been varying data reports on the ratio of men to women 
and children coming into our borders. Most of the statistics I have 
come across indicate that the majority of Syrian refugees are 
predominately males, while a small percentage remains women and 
children. Is this true?
    If so, what is the ratio of Syrian refugee men to women and 
children?
    Answer. The Department of State's statistics relating to Syrian 
refugee cases indicate the following:
  <bullet> Approximately 53 percent of the Syrian caseload is male and 
        47 percent is female.
  <bullet> A total of 306 individuals--less than 2 percent of the total 
        caseload--are single males with no cross-referenced cases, and 
        no relatives or friends in the United States.
  <bullet> Fifty percent of the Syrian refugees are children 18 years 
        or younger.
  <bullet> Only 2.5 percent of the Syrian refugees are children over 
        the age of 60.
    The United States welcomed 1,682 vulnerable Syrian refugees in 
fiscal year 2015, prioritizing admitting the most vulnerable Syrians, 
particularly female-headed households, children, survivors of torture, 
and individuals with severe medical conditions. Military-aged males 
unattached to families comprise only an approximate 2% of Syrian 
refugee admissions to the United States to date. In each instance, 
these individuals are only admitted United States in cases in which no 
security concerns are identified that prevent admissibility--a process 
which pays additional attention to the relatively rare unattached, 
military-aged male applicant to the U.S. Refugee Admissions Program.
    Question 2b. As we welcome an additional 10,000 Syrian refugees in 
fiscal year 2016 alone, how are you and your partner agencies planning 
to monitor admitted refugees to ensure violent extremists have not 
infiltrated their ranks?
    Answer. The refugee security screening and vetting process has been 
significantly enhanced over the past few years. Today, all refugees 
undergo the highest level of security checks. These checks involve, but 
are not limited to, the National Counterterrorism Center, the FBI's 
Terrorist Screening Center, the Department of Homeland Security, the 
Department of State, and the Department of Defense. All refugees, 
including Syrians, are admitted only after successful completion of 
this stringent security screening regime.
    Of the 3 million refugees admitted to the United States since 1975, 
very few have been found to pose a National security concern. The vast 
majority of refugees go on to lead productive lives, receive an 
education, and work hard. Some serve in the U.S. military and undertake 
other forms of service for their communities and our country.
    After 1 year, refugees are required to apply for permanent 
residence and this process requires additional security and National 
security checks, as well as a thorough case review by U.S. Citizenship 
and Immigration Services.
    Question 3c. Is the United States prioritizing Christian refugees, 
who are focal persecution targets in Syria?
    Answer. Our emphasis is on admitting the most vulnerable Syrians--
particularly survivors of violence and torture, those with severe 
medical conditions, and women and children--in a manner that is 
consistent with U.S. National security.
    Refugee status is determined based upon an individual's claim of 
persecution or well-founded fear of being persecuted. These criteria 
can apply to all Syrians seeking protection in the United States, 
including victims of torture and members of the Christian community.

                                 [all]
</pre></body></html>
